<html>
<title> - WORLDWIDE THREATS TO THE HOMELAND: ISIS AND THE NEW WAVE OF TERROR</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
   WORLDWIDE THREATS TO THE HOMELAND: ISIS AND THE NEW WAVE OF TERROR

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2016

                               __________

                           Serial No. 114-83

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
                            ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-265 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

     
      
      

                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Honorable Jeh C. Johnson, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. James B. Comey, Director, Federal Bureau of Investigation, 
  U.S. Department of Justice:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Nicholas J. Rasmussen, Director, The National 
  Counterterrorism Center, Office of the Director of National 
  Intelligence:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                             For the Record

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Excerpt, Congressional Record..................................    42
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Strengthening the Federal Cybersecurity Workforce..............    46
The Honorable John Katko, a Representative in Congress From the 
  State of New York:
  Article, Washington Post.......................................    70

                                Appendix

Questions From Ranking Member Bennie G. Thompson for Hon. Jeh C. 
  Johnson........................................................    77
Questions From Honorable Loretta Sanchez for Honorable Jeh C. 
  Johnson........................................................    85


   WORLDWIDE THREATS TO THE HOMELAND: ISIS AND THE NEW WAVE OF TERROR

                              ----------                              


                        Thursday, July 14, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Rogers, 
Duncan, Marino, Barletta, Perry, Katko, Hurd, Carter, Walker, 
McSally, Ratcliffe, Donovan, Thompson, Sanchez, Jackson Lee, 
Langevin, Keating, Payne, Vela, Watson Coleman, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The purpose of this hearing is to receive 
testimony regarding threats to our homeland around the globe.
    Before I begin my opening statement, I would like to take a 
moment to remember the Dallas police officers who lost their 
lives in the line of duty last week.
    [Moment of silence.]
    Chairman McCaul. We will never forget. The tragedy reminds 
us that every day our first responders take risks to protect 
us, and we can honor their sacrifice by showing that we support 
them and that we have their backs.
    In the past month, we witnessed 4 major terrorist attacks 
in 4 weeks in 4 countries, including the deadliest terrorist 
attack on the United States homeland since 9/11. All these 
attacks are believed to be the work of ISIS, the new standard-
bearer of evil. In fact, the group has now been linked to 
almost 100 plots against the West since 2014, an unprecedented 
wave of terror.
    Nearly 15 years after 9/11, we must confront the reality 
that we are not winning the war against Islamist terror. While 
groups like ISIS may be losing some ground in Syria and Iraq, 
overall, they are not on the run; they are on the rise. I am 
concerned that we have only seen the tip of the iceberg.
    Director Comey, you prophetically warned this committee 2 
years ago that there would eventually be a terrorist diaspora 
out of Syria and Iraq, with jihadists returning home to spread 
extremism. That exodus has now begun. Thousands of Western 
foreign fighters have departed the conflict zone, including 
operatives who are being sent to conduct attacks, as we saw in 
Paris and in Brussels. At the same time, ISIS's on-line 
recruiting has evolved, and they now micro-target followers by 
language and country.
    Although our Nation is shielded by two oceans, geography 
alone cannot protect us from this mortal threat. The statistics 
speak for themselves. In the past 2 years, Federal authorities 
have arrested more than 90 ISIS supporters in the United 
States, and in 2015, we saw more home-grown jihadist plots than 
we have ever tracked in a single year. I commend your agencies 
for stopping dozens of potential tragedies, but too many have 
already slipped through the cracks, and we know that more plots 
are in the pipeline.
    In the wake of Orlando, Americans are demanding to know how 
we got to this point, and a clear majority of them say 
Washington is not doing enough to roll back this threat. They 
are stunned by the political correctness here in our Nation's 
capital, especially the refusal to call the threat what it is. 
We must define the threat in order to defeat it, just as we did 
with communism and fascism. We cannot hide the truth, and we 
cannot redact it from reality.
    So let's be frank about who the enemy is. We are fighting 
radical Islamists. These fanatics have perverted a major 
religion into a license to kill and brutalize, and while their 
beliefs do not represent the views of the majority of Muslims, 
they represent a dangerous global movement bent on conquering 
and subjugating others under their oppressive rule.
    Sadly, we have failed to commit the resources needed to 
win. I was recently on the USS TRUMAN aircraft carrier in the 
Persian Gulf, where our sailors are launching sorties to 
destroy ISIS positions. While I am proud of their efforts, I am 
not encouraged by our progress.
    Last month, CIA Director John Brennan gave the 
administration a failing grade in the fight and said that, 
``Our efforts have not reduced the groups' terrorism, 
capability, and global reach.''
    The President is sticking to a strategy that is better 
suited for losing a war than winning one. Each day we stick 
with half measures, ISIS is able to dig in further and advance 
a murderous agenda across the globe--another day to plot and 
another day to kill.
    The violence is becoming so frequent that we now simply 
refer to jihadist attacks by the name of the city in which they 
were perpetrated: Paris, Chattanooga, San Bernardino, Brussels, 
Orlando, Istanbul. How many more will be added to the list 
before we get serious about taking the fight to the enemy?
    This is the greatest threat of our time, and I urge each of 
you here today to explain to this committee and to the American 
people how you are planning to elevate our defenses to keep 
Americans safe.
    With that, the Chair now recognizes the Ranking Member, Mr. 
Thompson.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             July 14, 2016
    Before I begin today's hearing I would like to take a moment to 
remember the Dallas police officers who lost their lives in the line of 
duty last week. We will never forget.
    The tragedy reminds us that every day our first responders take 
risks to protect us, and we can honor their sacrifice by showing that 
we support them and that we have their backs.
    The past month we witnessed 4 major terrorist attacks, in 4 weeks, 
in 4 countries, including the deadliest terrorist attack on the United 
States homeland since 9/11.
    All of these attacks are believed to be the work of ISIS, the new 
standard-bearer of evil. In fact, the group has now been linked to 
almost 100 plots against the West since 2014--an unprecedented wave of 
terror.
    Nearly 15 years after 9/11, we must confront the reality that we 
are not winning the war against Islamist terror.
    While groups like ISIS may be losing some ground in Syria and Iraq, 
overall they are not ``on the run,'' as the Obama administration says. 
They are on the rise.
    But I am concerned that we have only seen the tip of the iceberg.
    Director Comey, you prophetically warned this committee 2 years ago 
that there would eventually be a ``terrorist diaspora'' out of Syria 
and Iraq, with jihadists returning home to spread extremism.
    The exodus has now begun. Thousands of Western foreign fighters 
have departed the conflict zone, including operatives who are being 
sent to conduct attacks, as we saw in Paris and Brussels. At the same 
time, ISIS' on-line recruiting has evolved, and they now micro-target 
followers by language and country.
    Although our Nation is shielded by two oceans, geography alone 
cannot protect us from this mortal threat.
    The statistics speak for themselves. In the past 2 years, Federal 
authorities have arrested more than 90 ISIS supporters here in our 
country, and in 2015 we saw more home-grown jihadist plots than we have 
ever tracked in a single year.
    I commend your agencies for stopping dozens of potential tragedies, 
but too many have already slipped through the cracks. We know that more 
plots are in the pipeline.
    In the wake of Orlando, Americans are demanding to know how we got 
to this point, and a clear majority of them say Washington is not doing 
enough to roll back the threat.
    They are stunned by the political correctness here in our Nation's 
capital, especially the refusal to call the threat what it is. We must 
define the threat in order to defeat it--just as we did with communism 
and fascism.
    We cannot hide the truth, and we cannot redact it from reality. So 
let's be frank about the enemy: We are fighting radical Islamists.
    These fanatics have perverted a major religion into a license to 
kill and brutalize. And while their beliefs do not represent the views 
of a majority of Muslims, they represent a dangerous global movement 
bent on conquering and subjugating others under their oppressive rule.
    Sadly, we have failed to commit the resources needed to win. I was 
recently on the USS Truman aircraft carrier in the Persian Gulf, where 
our sailors are launching sorties to destroy ISIS positions. While I am 
proud of their efforts, I am not encouraged by our progress.
    Last month, even CIA Director John Brennan gave the administration 
a failing grade in the fight and said that, ``our efforts have not 
reduced the group's terrorism capability and global reach.''
    The President is sticking to a ``drip, drip'' strategy that is 
better suited for losing a war than winning one. And each day we stick 
with half-measures, ISIS is able to dig in further and advance a 
murderous agenda across the globe. Another day to plot, another day to 
kill.
    The violence is becoming so frequent that we now simply refer to 
jihadist attacks by the name of the city in which they were 
perpetrated: Paris. Chattanooga. San Bernardino. Brussels. Orlando. 
Istanbul.
    How many more will be added to the list before we get serious about 
taking the fight to the enemy?
    This is the greatest threat of our time, and I urge each of you 
today to explain to this committee--and to the American people--how you 
are planning to elevate our defenses to keep Americans safe.

    Mr. Thompson. Thank you very much, Mr. Chairman.
    Before I begin, I want to express also my condolences to 
the families affected by violence in recent weeks. Today, the 
pain that is felt by families in Baton Rouge, Dallas, Falcon 
Heights, and Orlando is reverberating across the country.
    I want to thank Director Comey and Director Rasmussen for 
their service and for appearing before us today.
    Secretary Johnson, I also want to thank you for your 
service. This is likely your last time that you will testify in 
this room, the very room where your grandfather testified in 
1949. When Joe McCarthy called your grandfather to testify 67 
years ago, it was a time of heated, divisive rhetoric and fear, 
fear of infiltration by the Communist ideology. Unfortunately, 
today, the Nation finds itself again in a period of heated 
rhetoric fueled by fear.
    Today, Americans legitimately fear infiltration by the 
violent ideology espoused by ISIL. Last month's horrific 
terrorist attack in Orlando, Florida, underscores ISIL's 
violent ideology in reaching Americans and inspiring terrorism. 
Without training, direction, or support by a foreign terrorist 
organization, the Orlando assailant, armed with an AR-type 
rifle and 9-millimeter semiautomatic pistol, carried out the 
deadliest shooting in American history. During the attack, the 
shooter pledged allegiance to ISIL, but prior to the attack, he 
historically aligned himself with competing foreign terrorist 
organizations. Soon after, evidence emerged that the shooter 
may have been motivated by racism and homophobia. Yet, in the 
hours and days post-Orlando, members of this body and the 
Executive branch wasted no time labeling this tragedy as an act 
of terrorism.
    In contrast, last summer, when a gunman, who, like the 
Orlando shooter, was radicalized on-line, opened fire on 9 
parishioners in a Charleston, South Carolina, church, many in 
this body and, indeed, the Executive branch refused to label 
this attack an act of terrorism.
    Last week, a gunman, who we understand through his on-line 
activities subscribed to a violent political ideology that runs 
counter to American values, ambushed police officers in Dallas, 
Texas, at a peaceful protest to send a political message, yet 
many of the same people in this body and the administration who 
labeled past mass shootings that were inspired by a foreign 
terrorist organization as an act of terrorism were quick to 
dismiss the notion that the Dallas attack was an act of 
terrorism.
    While foreign terrorist organizations like ISIL represent a 
significant homeland security threat, today's threat 
environment is far more diverse than back in 1949, when this 
room was used to investigate the threat posed by one ideology, 
communism.
    Those who single-mindedly focus on one ideology or group, 
namely ISIL, run the risk of leaving us vulnerable to attacks 
by other foreign terrorist organizations, like al-Qaeda, and 
even domestic terrorist organizations.
    To underscore the domestic terrorism threat, I note that 
earlier this year, anti-Government extremists took over a 
Federal facility in Oregon, threatening the security of Federal 
Government employees for 41 days. Law enforcement officers 
consistently ranked the threat from anti-Government groups 
higher than the threat from foreign terrorist organizations. 
Still, the same voices that were so quick to label incidents in 
Orlando and San Bernardino acts of terrorism have largely been 
silent about the heightened threat environment associated with 
anti-Government groups.
    Today's witnesses, you may be chided by my Republican 
colleagues for the fact that, in your written testimony, the 
phrase ``radical Islamist terrorism'' is not used. However, 
fixation on that phrase is misplaced insofar as the threat 
posed by ISIL and other foreign terrorist organizations 
receives significant attention in the testimony. More troubling 
is the fact that nowhere in your testimony is there a passing 
mention of domestic terrorism or anti-Government groups. 
Terrorist-inspired lone-wolf or small-scale attacks can be 
inspired by foreign or domestic actors.
    To respond to this new wave of terror, inspired mainly by 
propaganda on the internet, the administration is pursuing 
programs to counter violent extremism. Putting aside the fact 
that there is some debate on the effectiveness of such 
programs, I have questions about whether the agency charged to 
carry out the administration's CVE efforts are working to 
prevent terrorist recruitment and radicalization by all types 
of terrorist groups. I was happy to learn from the Secretary 
this morning that they just this week pushed out the directives 
for the $10 million allocation for the CVE grant funding.
    Beyond the discussion of CVE, however, I look forward to 
engaging the witnesses in an issue common to the attacks in 
Orlando, San Bernardino, Charleston, and Dallas: The 
availability of assault weapons to terrorists. We must be able 
to keep guns out of the hands of terrorists. Members of 
Congress, the administration, and the American public recognize 
this. However, Speaker Ryan and Republican leadership continue 
to approve empty gestures posing as legislation instead of 
bringing up a vote on sensible gun control. We know that the 
common thread between most recent attacks, both inspired by 
foreign and domestic actors on American soil, has two 
commonalities: Radicalization and assault weapons. I do not 
accept the notion that nothing can be done to address the 
availability of military-style firearms to individuals who 
intend to do harm to our country. When it comes to protecting 
this Nation, Congress will be rightfully judged by the American 
people on whether it tackles both.
    Thank you, Mr. Chair. I yield back and look forward to the 
testimony.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 14, 2016
    Unfortunately, today, the Nation finds itself in a period of heated 
rhetoric-fueled by fear. Today, Americans legitimately fear 
infiltration by the violent ideology espoused by ISIL. Last month's 
horrific terrorist attack in Orlando, Florida, underscores that ISIL's 
violent ideology is reaching Americans and inspiring terrorism.
    Without training, direction, or support by a foreign terrorist 
organization, the Orlando assailant, armed with an AR-type rifle and 
9mm semi-automatic pistol, carried out the deadliest shooting in 
American history.
    During the attack, the shooter pledged allegiance to ISIL but prior 
to the attack, he historically aligned himself with competing foreign 
terrorist organizations. Soon after, evidence emerged that the shooter 
may have also been motivated by racism and homophobia. Yet, in the 
hours and days post-Orlando, Members of this body and the Executive 
branch wasted no time labeling this tragedy as an ``act of terrorism.''
    In contrast, last summer, when a gunman, who, like the Orlando 
shooter was radicalized on-line, opened fire on 9 parishioners in a 
Charleston, South Carolina, many in this body and, indeed, the 
Executive branch, refused to label this attack an ``act of terrorism.''
    Last week, a gunman who we understand, through his on-line 
activities, ascribed to a violent political ideology that runs counter 
to American values, ambushed police officers in Dallas, Texas, at a 
peaceful protest to send a political message.
    Yet, many of the same people in this body and the administration 
who labeled past mass shootings that were inspired by foreign terrorist 
organizations as ``acts of terrorism,'' were quick to dismiss the 
notion that the Dallas attack was an act of terrorism.
    While foreign terrorist organizations like ISIL represent a 
significant homeland security threat, today's threat environment is far 
more diverse than back in 1949, when this room was used to investigate 
the threat posed by one ideology--communism.
    Those who single-mindedly focus on one ideology or group--namely 
``ISIL''--run the risk of leaving us vulnerable to attacks by other 
foreign terrorist organizations like al-Qaeda and even by domestic 
terrorist groups.
    To underscore the domestic terrorism threat, I would note that 
earlier this year, anti-Government extremists took over a Federal 
facility in Oregon, threatening the security of Federal Government 
employees for 41 days. Law enforcement officers consistently rank the 
threat from anti-Government groups higher than the threat from foreign 
terrorist organizations.
    Still, the same voices that were so quick to label incidents in 
Orlando and San Bernardino ``acts of terrorism'' have largely been 
silent about the heightened threat environment associated with anti-
Government groups.
    To today's witnesses, you may be chided by my Republican colleagues 
for the fact that, in your written testimony the phrase ``radical 
Islamist terrorism'' is not used. However, fixation on that phrase is 
misplaced, insofar as the threat posed by ISIL and other foreign 
terrorist organizations receives significant attention in the 
testimony.
    More troubling, is the fact that nowhere in your testimonies is 
there even a passing mention of domestic terrorism or anti-Government 
groups. Terrorist-inspired lone-wolf or small-cell attacks can be 
inspired by foreign and domestic actors.
    To respond to this new wave of terror, inspired mainly by 
propaganda on the internet, the administration is pursuing programs to 
counter violent extremism. Putting aside the fact that there is some 
debate on the effectiveness of such programs, I have questions about 
whether the agencies charged to carry out the administration's CVE 
efforts are working to prevent terrorist recruitment and radicalization 
by all types of terrorist groups.
    I am troubled that the Department of Homeland Security recently 
announced $10 million in CVE grant funding but has yet to issue the 
Department-wide strategy which I have been requesting for over a year 
and have consistently been told is ``forthcoming.''
    Beyond the discussion of CVE, I look forward to engaging the 
witnesses on an issue common to the attacks in Orlando, San Bernardino, 
Charleston, and Dallas--the availability of assault weapons to 
terrorists.
    We must be able to keep guns out of the hands of terrorists. 
Members of Congress, the administration, and the American public 
recognize this. However, Speaker Ryan and Republican leadership 
continue to approve empty gestures posing as legislation instead of 
bringing up a vote on sensible gun control.
    We know that the common thread between the most recent attacks--
both inspired by foreign and domestic actors--on American soil had two 
commonalities: Radicalization and assault weapons. I do not accept the 
notion that nothing can be done to address the availability of 
military-style firearms to individuals with intent to do harm to our 
country. When it comes to protecting this Nation, Congress will be 
rightfully judged by the American people on whether it tackles both.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             July 14, 2016
    Chairman McCaul, Ranking Member Thompson, thank you for this 
opportunity to hear testimony on ``Worldwide Threats to the Homeland: 
ISIS and the New Wave of Terror.''
    Today's hearing is an opportunity for the committee to receive 
testimony from the witnesses about terrorist threats, including the 
radicalization and terrorism recruitment in the United States and 
abroad.
    We will also receive testimony about what the Executive branch is 
doing to counter both home-grown and domestic violent extremism.
    I join my colleagues on the committee in welcoming the Secretary of 
Homeland Security Jeh Johnson, FBI Director James Corney, and Nick 
Rasmussen, director of the National Counterterrorism Center to today's 
hearing.
    As a senior Member of the House Committee on Homeland Security and 
Ranking Member of the Judiciary Subcommittee on Crime, Terrorism, 
Homeland Security and Investigations the topic of threats to homeland 
security is of significance and especially in light of recent events.
    My primary domestic security concerns are:
  <bullet> preventing foreign fighters and foreign-trained fighters 
        from entering the United States undetected;
  <bullet> countering international and home-grown violent extremism;
  <bullet> addressing the uncontrolled proliferation of long-guns that 
        are designed for battlefields and not hunting ranges;
  <bullet> controlling access to firearms for those who are deemed to 
        be too dangerous to fly;
  <bullet> Protecting critical infrastructure from physical and cyber 
        attack; and
  <bullet> Strengthening the capacity of the Department of Homeland 
        Security and the Department of Justice to meet the challenges 
        posed by weapons of mass destruction.
             foreign fighters and foreign-trained fighters
    I initially introduced the ``No Fly for Foreign Fighters Act'' 
after the investigation of an attempt to detonate explosives on a 
Northwest Airlines Flight on Christmas day 2009.
    Investigation of the incident revealed that counterterrorism 
agencies had information that raised red flags about this individual, 
referred to as the ``underwear bomber,'' but the dots were not 
connected and he was not placed in the Terrorist Screening Data base or 
the TSDB.
    This incident shone a spotlight on potential gaps in our watch list 
programs, and terrorists screening process, which indicate significant 
improvements were needed. That said, questions about the system remain.
    In fact, it is not uncommon to see news of a flight being diverted 
or an emergency landing because a passenger happened to be on the No-
Fly list but there was a delay getting that information.
    It is even more common to read articles about the frequency of 
false positives and individuals being mistakenly identified as being on 
the list--causing them and their fellow passenger significant delay and 
frustration.
    The issue of false positives is something that I know many of my 
colleagues on the committee are particularly interested in, as well as 
groups such as the ACLU.
    In light of the events of the last 12 months, however, the issue of 
homeland security and, in particular, the accuracy of our screening and 
watchlisting process has become even more significant to me.
    More than 30,000 foreign fighters from at least 100 different 
countries have traveled to Syria and Iraq to fight for ISIL since 2011.
    In the last 18 months, the number of foreign fighters traveling to 
Syria and Iraq has more than doubled.
    In the first 6 months of 2015, more than 7,000 foreign fighters 
have arrived in Syria and Iraq.
    Of those traveling to Syria and Iraq to fight for the Islamic State 
terrorist group, it is estimated at least 250 hold U.S. citizenship.
    The accuracy of our terrorist screening tools are more critical now 
than ever before.
    That is why I worked with the Chairman of the Judiciary Committee 
and Mr. Ratcliffe who is a Member of the Judiciary Committee and 
Homeland Security, to introduce H.R. 4240, which mandates an 
independent review of the TSDB's operation and administration.
    Although the inspector general for the Department of Justice 
conducts annual audits of the TSDB, there has not been an independent 
review since the GAO study after the 2009 incident.
    H.R. 4240 directs the GAO to conduct an independent review of the 
operation and administration of the TSDB, and subsets of the TSDB, to 
assess: (1) Whether past weaknesses have been address; and (2) the 
extent to which existing vulnerabilities may be resolved or mitigated 
through additional changes.
    The legislation was drafted broadly, to allow the GAO to conduct a 
comprehensive review not just of the TSDB's accuracy, but of its entire 
operation and administration.
    Following its study, the GAO will submit a report to the House and 
Senate Judiciary Committees, with its findings and any recommendations 
for improvements.
    H.R. 4240, which passed the House under suspension, is the next 
step in ensuring that the screening and watchlisting process works as 
it is intended.
            countering violent extremism at home and abroad
    One of the enduring challenges for Members of this committee is how 
we guide the work of the Department of Homeland Security.
    One challenge we have faced is finding definitions for terrorism 
that will address the reality that these acts are intended to 
intimidate or terrorize the public or a minority group.
    Understanding what terrorism is begins in law with its definition.
    Title 22 of the U.S. Code, Section 26S6f(d) defines terrorism as 
``premeditated, politically motivated violence perpetrated against 
noncombatant targets by subnational groups or clandestine agents, 
usually intended to influence an audience.''
    The FBI defines terrorism as ``the unlawful use of force or 
violence against persons or property to intimidate or coerce a 
government, the civilian population, or any segment thereof, in 
furtherance of political or social objectives.''
    Terrorism is a violation of the criminal laws of the United States 
or of any State or other subdivision of the United States and appears 
to be intended to intimidate or coerce a civilian population, to 
influence the policy of a government by intimidation or coercion, or to 
affect the conduct of a government by mass destruction, assassination, 
or kidnapping.
    DHS defines Domestic Terrorism as:

``Any act of violence that is dangerous to human life or potentially 
destructive of critical infrastructure or key resources committed by a 
group or individual based and operating entirely within the United 
States or its territories without direction or inspiration from a 
foreign terrorist group.''

    Groups and individuals inspired to commit terrorist acts are 
motivated by a range of personal, religious, political, or other 
ideological beliefs--there is no magic formula for determining the 
source of terrorism.
    Further, the complexity of adding social media as a new source of 
recruitment for violent extremists is complicating the efforts of law 
enforcement, domestic security, and National defense.
    The line between lawfully-protected speech and activity that may be 
to some radical--should be clearly defined.
    Taking care to protect civil liberties and Constitutional rights 
means that our system of laws must acknowledge that reading, writing, 
or speaking one's views or beliefs even when they are unpopular is not 
a crime.
    Hate speech is not a crime--while an act of violence motivated by 
hate is a crime.
    Violent Extremist threats within the United States can come from a 
range of violent extremist groups and individuals, including Domestic 
Terrorists and Homegrown Violent Extremists (HVEs).
    In the wake of the killings at Mother Emanuel in Charlotte South 
Carolina; San Bernardino; the Pulse Night Club in Orlando; and the 
murder of 5 police offers protecting participants in a peaceful 
demonstration in Dallas, Texas it is evident that home-grown violent 
extremism is a threat that must be addressed.
reduction in weapons of war on u.s. streets and ease of access to guns 
                      for those on the no-fly list
    Gun violence carnage that claimed the lives of more than 300,000 
persons during the period 2005-2015, include the following:
    1. On July 7, 2016, in Dallas Texas 4 police officers and 1 transit 
        officer were killed by a lone gun man using a AK-74 assault-
        style rifle and a handgun;
    2. On June 12, 2016, in Orlando, Florida at the Pulse nightclub a 
        single shooter armed with a .223 caliber AR type rifle and 9mm 
        semiautomatic pistol killed 49 people and left 53 injured;
    3. On December 2, 2015 in San Bernardino, California, two gunmen 
        armed with two .223 caliber AR-15-type semi-automatic rifles 
        and two 9mm semi-automatic pistols killed 14 people and injured 
        21 others at the Inland Regional Center;
    4. On July 7, 2015 in Chattanooga, Tennessee a gunman shot and 
        killed 5 people, including 2 U.S. Marines and a Naval Officer, 
        and shot and injured 2 others at a recruiting center and U.S. 
        Naval Reserve Center;
    5. On June 7, 2015, a gunman shot and killed 9 people at the Mother 
        Emanuel African Methodist Episcopal Church in Charleston, South 
        Carolina, one of the oldest and largest black congregations in 
        the South;
    6. On August 5, 2012 in Oak Creek, Wisconsin, a gunman shot and 
        killed 6 people, and injured 3 others, at the Sikh Temple of 
        Oak Creek;
    7. On December 14, 2012, a gunman using a Bushmaster .223 caliber 
        model XM15 rifle with a 30 round magazine in 5 minutes murdered 
        26 persons, including 20 children and 6 school administrators 
        and teachers, at Sandy Hook Elementary in Newtown, Connecticut;
    8. On November 11, 2009, at Fort Hood, near Killeen, Texas, a 
        gunman shot and killed 13 people, and wounded 30 others; and
    Nearly 100 metropolitan areas have experienced mass shootings like 
these since 2013.
    Mass shootings occur more frequently in States that do not require 
background checks for all gun sales, and analyses of mass shootings in 
the United States between 2009 and 2015 document that the majority of 
mass shootings occur in venues where the carrying of firearm is not 
restricted.
    I have introduced two measures that specifically address issues of 
gun safety raised by the carnage over the last few years.
    The first bill is H.R. 3125 ``Accidental Firearms Transfers 
Reporting Act of 2015,'' which seeks to shed light on the gun purchase 
loophole that led to Dylan Roofs tragic possession of the firearm used 
to murder 9 innocent persons at Emanuel A.M.E.
    Church in Charleston, South Carolina, as well as the numerous other 
cases where a firearm was handed over to an unintended and potentially 
dangerous recipient.
    The bill would require the director of the Federal Bureau of 
Investigations to report to Congress the number of firearm transfers 
resulting from the failure to complete a background check within 3 
business days.
    The FBI is further instructed to disclose and report on the 
procedures in place and actions taken after discovering a firearm has 
been transferred to a transferee who is ineligible to receive a 
firearm.
    This bill directs the FBI to report on the erroneous transfer of 
firearms every 6 months to ensure internal oversight and effective 
monitoring to expose any other patterns or practices in need of 
administrative or legislative action.
    I have also introduced, H.R. 5470, ``Stopping Mass Killings By 
Violent Terrorists Act,'' gives our law enforcement agencies another 
tool to help keep the most dangerous weapons out of the hands of home-
grown terrorists.
    H.R. 5470, the ``Stopping Mass Killings by Violent Terrorists 
Act,'' prohibit a firearms dealer from transferring a semiautomatic 
assault weapon or large-capacity ammunition clips to a purchaser until 
the Attorney General has verified that the prospective transferee has 
truthfully answered new questions on the firearms background check 
questionnaire regarding contacts between the prospective purchaser or 
transferee and Federal law enforcement authorities.
    Specifically, H.R. 5470 requires and provides that:

(1) with respect to any firearm or large-capacity ammunition feeding 
device, the attorney general update the Background Check Questionnaire 
to include questions relating to the existence and nature of any 
contacts with Federal law enforcement agencies within the prior 24 
months;
(2) for a purchaser questionnaire, affirming the existence of contacts 
with Federal law enforcement agencies, that the purchase of a covered 
firearm cannot be consummated until affirmative approval is received by 
the FBI; and
(3) with respect to any firearm or large-capacity ammunition feeding 
device (LCAFD), any purchaser who refuses or fails to provide the 
information required, the Transferor (Seller) shall nevertheless submit 
the uncompleted questionnaire to the FBI for further review or 
investigation.

    On average gun violence claims the lives of 90 persons each day. 
Since 1968, more than a million persons have died at the hand of a gun. 
The homicide rate in the United States is about 6.9 times higher than 
the combined rate in 22 other highly-developed and populous countries, 
despite similar non-lethal crime and violence rates.
                    securing critical infrastructure
    Last year Assistant Secretary Caitlin Durkovich informed a 
gathering of energy firm executives at an energy conference that ISIS 
has been attempting to hack American electrical power companies.
    Critical infrastructure is dispersed throughout the United States 
and if primarily under the control of private owners or non-government 
operators; and includes:
  <bullet> The Electronic Utility Grid;
  <bullet> Water Treatment facilities;
  <bullet> Ports, railways, and highways;
  <bullet> Telecommunication System;
  <bullet> Food production, processing, and distribution;
  <bullet> Health care delivery system; and
                            financial system
    Critical infrastructure relies upon distributed computer networks 
to support vital functions and delivery systems.
    The security of computing networks rely upon strong encryption and 
protocols to assure that the security of encryption passwords and 
network access is maintained.
    To support the work of the Department of Homeland Security in 
providing cyber protection to critical infrastructure, I introduced 
H.R. 85, the Terrorism Prevention and Critical Infrastructure 
Protection Act.
    The bill facilitates research and development activities to 
strengthen the security and resilience of the Nation's critical 
infrastructure against terrorist attacks and All-Hazard events.
    The bill establishes research initiatives that would provide the 
Secretary of Homeland Security with a report on:
  <bullet> the degree that certain critical infrastructure is reliant 
        upon other types of critical infrastructure;
  <bullet> programs that would improve professional development for 
        security professionals;
  <bullet> assessment of vulnerabilities in software systems, 
        firewalls, applications, and methods of analyzing 
        cybersecurity; and
  <bullet> coordination of Federal agencies' response to cyber 
        terrorism incidents.
    The bill would take an in-depth approach to securing critical 
infrastructure.
    H.R. 85 would provide oversight committees and Members of Congress 
with a better understanding of the terrorism preparedness of critical 
infrastructure owners and operators, contractors, or non-Government 
agency entities that provide computer-related support or services to 
critical infrastructure.
    DHS Protective Security Coordination Division (PSCD) is established 
to conduct specialized field assessments to identify vulnerabilities, 
interdependencies, capabilities, and cascading effects of impacts on 
the Nation's critical infrastructure.
    I am particularly interested in the work of the DHS PSCD office 
because of a Jackson Lee amendment adopted last year under House 
consideration of the H.R. 1731, ``National Cybersecurity Protection 
Advancement Act of 2015.''
    The Jackson Lee amendment allowed the Secretary of Homeland 
Security to consult with sector-specific agencies, businesses, and 
stakeholders to produce and submit to the Committee on Homeland 
Security a report on how best to align Federally-funded cybersecurity 
research and development activities with private-sector efforts to 
protect privacy and civil liberties while assuring security and 
resilience of the Nation's critical infrastructure.
    The amendment included a cybersecurity research and development 
objective to enable the secure and resilient design and construction of 
critical infrastructure and more secure accompanying cyber technology.
    Finally, this Jackson Lee Amendment supports investigation into 
enhanced computer-aided modeling capabilities to determine potential 
impacts on critical infrastructure of incidents or threat scenarios, 
and cascading effects on other sectors; and facilitating initiatives to 
incentivize cybersecurity investments and the adoption of critical 
infrastructure design features that strengthen cybersecurity and 
resilience.
                        cybersecurity challenges
    The arrival of the Internet of Things, which will introduce 
ubiquitous wireless technology far beyond the limitations of computers 
or computing devices to include practically every physical object in 
our environment.
    The cybersecurity challenges of tomorrow will look very different 
from the cybersecurity challenges of today.
    One of the chief concerns of the FBI is the use of encryption by 
criminals and terrorist to hide information on the internet.
    This is not a new concern, the use of techniques that facilitate 
Government access to encryption products was litigated by the Justice 
Department during the Clinton administration in 1990s at the time the 
general public began using the internet.
    Computing technologists, cybersecurity experts, companies, civil 
liberties organizations, researchers, and innovators strongly oppose 
this approach then as they do today.
    One of the major problems with trying to control who has access to 
strong encryption is how easy it is to get or create an encryption 
computer program.
    In the research I had my staff conduct, it was easy to find 
encryption programs on the internet that were written by academics, 
researchers, students, and others with the requisite level of computing 
programming knowledge.
    In fact, I found that keeping an algorithm secret, for the purpose 
of security, is universally considered as a sign that the encryption 
program is likely poorly written.
    In my analysis of the facts regarding this very complex area of 
computing security the most important knowledge to possess is the 
password or key.
    The other important cybersecurity component is well-trained 
personnel who must do the work in protecting computing systems and 
information assets.
                      weapons of mass destruction
    In the not-too-distant future, the harnessing of nuclear energy 
will no longer be the privilege of only a few nations.
    Today, nuclear energy is under serious consideration in more than 
55 developed and developing countries and an additional 60 countries 
are expressing interest in, considering, or actively planning for 
nuclear power.
    These efforts, if successful, would represent a quadrupling of 
today's 30 nuclear powered nations.
    These ambitious nations face immense security challenges and for 
these reasons the United States should be working to develop 
relationships with nations who are willing to accept our assistance in 
developing peaceful nuclear programs.
    However, I believe that we should take this effort one step further 
by developing the infrastructure to move excess nuclear material and 
waste from these nations so that it may be safely disposed of without 
concern that it could fall into unfriendly hands.
    I will soon introduce legislation to establish much-needed 
foresight in meeting the future challenges posed by the emergency of 
nuclear power in developing nations.
    In my statement I have outlined several areas of particular concern 
regarding Worldwide Threats and Homeland Security Challenges.
    I thank today's witnesses for their testimony and look forward to 
the opportunity to ask questions.
    Thank you.

    Chairman McCaul. We are pleased to have a distinguished 
panel of witnesses before us today on this important topic. 
First, the Honorable Jeh Johnson, Secretary of the Department 
of Homeland Security. I believe this possibly could be your 
last testimony before this committee, and we appreciate your 
service to the Nation.
    Next, the Honorable James Comey, director of the FBI at the 
U.S. Department of Justice, and then, finally, the Honorable 
Nicholas Rasmussen, director of the National Counterterrorism 
Center in the Office of the Director of National Intelligence.
    I thank all of you for being here today. The Chair now 
recognizes Secretary Johnson to testify.

STATEMENT OF HONORABLE JEH C. JOHNSON, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Johnson. Thank you, Mr. Chairman, Congressman 
Thompson, Members of this committee. You have my prepared 
statement for the record. I will just offer a few remarks here 
briefly.
    I want to thank this committee for the productivity in 
cranking out legislation that I believe has indeed helped 
secure our homeland in the time that I have been Secretary. I 
have observed this committee work in a collaborative fashion, 
and it has been really productive, so I thank you for that.
    I want to thank my colleagues, Nick and Jim, for our work 
together protecting the homeland.
    Lots of people ask me what keeps me up at night. It is hard 
to prioritize and rank what keeps me up at night. I have a lot 
of things that keep me up at night, but if you ask me to rank 
them, my best effort I would have to say the prospect of home-
grown violent extremism--another San Bernardino, another 
Orlando--is No. 1 on my list. We deal in this age not just with 
the terrorist-directed attack but the terrorist-inspired attack 
and now a new category of terrorist-enabled attacks. These are 
things that keep me up at night. It is difficult for our law 
enforcement and our intelligence community to detect the self-
radicalized actor.
    Foreign terrorist travel, the prospect of foreign terrorist 
travel to our homeland keeps me up at night. Of course, 
cybersecurity, aviation security, border security, the prospect 
of what we refer to as special interest aliens arriving on our 
Southern Border are things that we should all be focused on and 
dedicated to addressing.
    Militarily, we continue to take the fight, pursuant to the 
President's strategy, to the Islamic State and al-Qaeda 
overseas. I have been pleased with the number of strikes that 
have taken out leaders of the Islamic State, particularly those 
focused on external attacks. Of course, our intelligence 
community and law enforcement efforts to protect the homeland 
here continue.
    I have a lot of confidence in the FBI, under Jim's 
leadership in particular, with their aggressive 
counterterrorism law enforcement efforts. We together have 
worked much more actively in the last 2 years, I think, with 
State and local law enforcement on protecting the homeland and 
sharing information about what we see on a National and 
international level. Active-shooter training for local law 
enforcement is something that, since I have been Secretary, we 
have prioritized and enhanced through our National Targeting 
Center at Customs and Border Protection, and with better data 
collection and sharing of data, I think we do a better job of 
knowing who is traveling to the United States and knowing about 
individuals of suspicion before they get here to put them on a 
watch list, a selectee list, and what have you.
    We have enhanced the security around our Visa Waiver 
Program. With the help of this Congress last year, we now have 
the ability to deny visa-free travel to those who have traveled 
to Syria, Sudan, Iraq, Iran, and, as a result of the three new 
countries I added to the list because of this new legislative 
authority, Yemen, Somalia, and Libya.
    Public vigilance and public awareness must be keys to our 
efforts in combating home-grown violent extremism. Public 
awareness, public vigilance can and do make a difference.
    Along with our CVE efforts that Congressman Thompson 
focused on, I am pleased that there appears to be bipartisan 
support for continued efforts at countering violent extremism. 
I am pleased that we have grant money this year to combat it. I 
hope that, in future years, Congress will provide us with more 
grant money.
    I look forward to questions from this committee in terms of 
our aviation security efforts, efforts to secure the Republican 
and Democratic National Conventions. I personally plan to 
travel to Cleveland tomorrow and to Philadelphia next week to 
inspect the security at both convention sites.
    In general, we encourage the public to continue to travel, 
to continue to associate, to celebrate the holidays, celebrate 
the summer season, but public vigilance and public awareness 
can and do make a difference in this current environment.
    Thank you. I look forward to your questions.
    [The prepared statement of Secretary Johnson follows:]
               Prepared Statement of Hon. Jeh C. Johnson
                             July 14, 2016
    Chairman McCaul, Representative Thompson, and Members of the 
committee, thank you for holding this annual threats hearing with me, 
the FBI director and the director of NCTC. I believe this annual 
opportunity for Congress to hear from us, concerning threats to the 
homeland is important. I welcome the opportunity to be here again.
                            counterterrorism
    San Bernardino and Orlando are terrible reminders of the new 
threats we face to the homeland.
    We have moved from a world of terrorist-directed attacks, to a 
world that also includes the threat of terrorist-inspired attacks--
attacks by those who live among us in the homeland and self-radicalize, 
inspired by terrorist propaganda on the internet. By their nature, 
terrorist-inspired attacks are often difficult to detect by our 
intelligence and law enforcement communities, could occur with little 
or no notice, and in general, make for a more complex homeland security 
challenge.
    This threat environment has required a whole new type of response.
    As directed by President Obama, our government, along with our 
coalition partners, continues to take the fight militarily to terrorist 
organizations overseas. ISIL is the terrorist organization most 
prominent on the world stage. Since September 2014, air strikes and 
special operations have in fact led to the death of a number of ISIL's 
leaders and those focused on plotting external attacks in the West. At 
the same time, ISIL has lost about 47% of the populated areas it once 
controlled in Iraq, and thousands of square miles of territory it once 
controlled in Syria. But as ISIL loses territory, it has increased its 
plotting on targets outside of Iraq and Syria, and continues to 
encourage attacks in the United States.
    On the law enforcement side, the FBI continues to, in my judgment, 
do an excellent job of detecting, investigating, preventing, and 
prosecuting terrorist plots here in the homeland.
    Following the attacks in Ottawa, Canada in 2014, and in reaction to 
terrorist groups' public calls for attacks on government installations 
in the Western world, I directed the Federal Protective Service to 
enhance its presence and security at various U.S. Government buildings 
around the country.
    The Department of Homeland Security has intensified our work with 
State and local law enforcement, and strengthened our information-
sharing efforts. Almost every day, we share intelligence and 
information with Joint Terrorism Task Forces, fusion centers, local 
police chiefs, and sheriffs. And we are now able to instantly cross-
reference suspects against law enforcement and counterterrorism 
databases and share information-often in almost-real time--with our 
domestic as well as international partners. We are also enhancing 
information sharing with organizations that represent businesses, 
college and professional sports, community and faith-based 
organizations, and critical infrastructure.
    And, since 2013 we've spearheaded something called the ``DHS Data 
Framework'' initiative. We are improving our ability to use DHS 
information for our homeland security purposes, and to strengthen our 
ability to compare DHS data with other travel, immigration, and other 
information at the Unclassified and Classified level. We are doing this 
consistent with laws and policies that protect privacy and civil 
liberties.
    We also provide grant assistance to State and local governments 
around the country, for things such as active-shooter training 
exercises, overtime for police officers and firefighters, salaries for 
emergency managers, emergency vehicles, and communications and 
surveillance equipment. We helped to fund an active-shooter training 
exercise that took place in the New York City subways last November, a 
series of these exercises earlier this year in Miami and Louisville, 
and just last month at Fenway Park in Boston. In February, and last 
month, we announced another two rounds of awards for fiscal year 2016 
that will fund similar activities over the next 3 years.
    We are enhancing measures to detect and prevent travel to this 
country by foreign terrorist fighters.
    We are strengthening the security of our Visa Waiver Program, which 
permits travelers from 38 different countries to come to the United 
States for a limited time period without a visa. In 2014, we began to 
collect more personal information in the Electronic System for Travel 
Authorization, or ``ESTA'' system, that travelers from Visa Waiver 
countries are required to use. ESTA information is screened against the 
same counterterrorism and law enforcement databases that travelers with 
traditional visas are screened, and must be approved prior to an 
individual boarding a plane to the United States. As a result of these 
enhancements, over 3,000 additional travelers were denied travel here 
through this program in fiscal year 2015. In August 2015, we introduced 
further security enhancements to the Visa Waiver Program.
    Through the passage in December of the Visa Waiver Program 
Improvement and Terrorist Travel Prevention Act of 2015, Congress has 
codified into law several of these security enhancements, and placed 
new restrictions on eligibility for travel to the United States without 
a visa. We began to enforce these restrictions on January 21, 2016. 
Waivers from these restrictions will only be granted on a case-by-case 
basis, when it is in the law enforcement or National security interests 
of the United States to do so. Those denied entry under the Visa Waiver 
Program as a result of the new law may still apply for a visa to travel 
to the United States. In February, under the authority given me by the 
new law, I also added three countries--Libya, Yemen, and Somalia--to a 
list that prohibits anyone who has visited these nations in the past 5 
years from traveling to the United States without a visa. In April, DHS 
began enforcing the mandatory use of high security electronic passports 
for all Visa Waiver Program travelers. In both February and June, CBP 
enhanced the ESTA application with additional questions.
    We are expanding the Department's use of social media for various 
purposes. Today social media is used for over 30 different operational 
and investigative purposes within DHS. Beginning in 2014 we launched 4 
pilot programs that involved consulting the social media of applicants 
for certain immigration benefits. USCIS now also reviews the social 
media of Syrian refugee applicants referred for enhanced vetting, and 
is extending this review to additional categories of refugee 
applicants. Based upon the recommendation of a Social Media Task Force 
within DHS, I have determined, consistent with relevant privacy and 
other laws, that we must expand the use of social media even further.
    CBP is deploying personnel at various airports abroad, to pre-clear 
air travelers before they get on flights to the United States. At 
present, we have this pre-clearance capability at 15 airports overseas. 
And, last year, through pre-clearance, we denied boarding to over 
10,700 travelers (or 29 per day) before they even got to the United 
States. As I said here last year, we want to build more of these. In 
May 2015, I announced 10 additional airports in 9 countries that we've 
prioritized for preclearance. In May, CBP announced an ``open season,'' 
running through August 1, for foreign airports to express interest in 
participating in the next round of preclearance expansion. I urge 
Congress to pass legislation enabling preclearance operations in 
Canada, by providing legal clarity to CBP officials who are responsible 
for the day-to-day operation of preclearance facilities there.
    For years Congress and others have urged us to develop a system for 
biometric exit--that is, to take the fingerprints or other biometric 
data of those who leave the country. CBP has begun testing technologies 
that can be deployed for this Nation-wide. With the passage of the 
fiscal year 2016 Omnibus Appropriations Act, Congress authorized up to 
$1 billion in fee increases over a period of 10 years to help pay for 
the implementation of biometric exit. In April, the Department 
delivered its Comprehensive Biometric Entry/Exit Plan to Congress, 
which details CBP's plan for expanding implementation of a biometric 
entry/exit system using that funding. I have directed that CBP redouble 
its efforts to achieve a biometric entry/exit system, and to begin 
implementing biometric exit, starting at the highest volume airports, 
in 2018.
    Last January I announced the schedule for the final two phases of 
implementation of the REAL ID Act, which go into effect in January 2018 
and then October 2020. At present, 24 States are compliant with the 
law, 28 have extensions, and 4 States or territories are out of 
compliance without an extension. Now that the final time table for 
implementation of the law is in place, we urge all States, for the good 
of their residents, to start issuing REAL ID-compliant drivers' 
licenses as soon as possible.
    In the current threat environment, there is a role for the public 
too. ``If You See Something, Say Something''<SUP>TM</SUP> must be more 
than a slogan. We continue to stress this. DHS has now established 
partnerships with the NFL, Major League Baseball, and NASCAR, to raise 
public awareness at sporting events. An informed and vigilant public 
contributes to National security.
    In December we reformed ``NTAS,'' the National Terrorism Advisory 
System. In 2011, we replaced the color-coded alerts with NTAS. But, the 
problem with NTAS was we never used it, it consisted of just two types 
of Alerts: ``Elevated'' and ``Imminent,'' and depended on the presence 
of a known specific and credible threat. This does not work in the 
current environment, which includes the threat of home-grown, self-
radicalized, terrorist-inspired attacks. So, in December we added a new 
form of advisory--the NTAS ``Bulletin''--to augment the existing 
Alerts, and issued the first Bulletin providing the public with 
information on the current threat environment and how they can help. 
The December Bulletin expired last month, and we issued a new and 
updated Bulletin on June 15.
    Given the nature of the evolving terrorist threat, building bridges 
to diverse communities is also a homeland security imperative. Well-
informed families and communities are the best defense against 
terrorist ideologies. Al-Qaeda and ISIL are targeting Muslim 
communities in this country. We must respond. In my view, building 
bridges to our communities is as important as any of our other homeland 
security missions.
    In 2015 we took these efforts to new levels. We created the DHS 
Office for Community Partnerships (OCP), which is now the central hub 
for the Department's efforts to counter violent extremism in this 
country, and the lead for a new interagency Countering Violent 
Extremism (CVE) Task Force that includes DHS, the Department of Justice 
(DOJ), the FBI, the National Counter Terrorism Center (NCTC) and other 
agencies. We are focused on partnering with and empowering communities 
by providing them a wide range of resources to use in preventing 
violent extremist recruitment and radicalization. Specifically, we are 
providing access to Federal grant opportunities for State and local 
leaders, and partnering with the private sector to find innovative, 
community-based approaches.
    Ensuring that the Nation's CVE efforts are sufficiently resourced 
has been an integral part of our overall efforts. Last week, on July 6, 
I announced the CVE Grant Program, with $10 million in available funds 
provided by Congress in the 2016 Omnibus Appropriations Act. The CVE 
Grant Program will be administered jointly by OCP and FEMA. This is the 
first time Federal funding at this level will be provided, on a 
competitive basis, specifically to support local CVE efforts. The 
funding will be competitively awarded to State, Tribal, and local 
governments, nonprofit organizations, and institutions of higher 
education to support new and existing community-based efforts to 
counter violent extremist recruitment and radicalization to violence.
    Finally, given the nature of the current threat from home-grown 
violent extremists, homeland security must include sensible gun control 
laws. We cannot have the former without the latter. Consistent with the 
Second Amendment, and the right of responsible gun owners to possess 
firearms, we must make it harder for a terrorist to acquire a gun in 
this country. The events of San Bernardino and Orlando make this 
painfully clear.
                           aviation security
    As we have seen from recent attacks in Egypt, Somalia, Brussels, 
and Istanbul, the threat to aviation is real. We are taking aggressive 
steps to improve aviation and airport security. In the face of 
increased travel volume, we will not compromise aviation security to 
reduce wait times at Transportation Security Administration (TSA) 
screening points. With the support of Congress we are surging resources 
and adding personnel to address the increased volume of travelers.
    Since 2014 we have enhanced security at overseas last-point-of-
departure airports, and a number of foreign governments have replicated 
those enhancements. Security at these last-point-of-departure airports 
remains a point of focus in light of recent attacks, including those in 
Brussels and Istanbul.
    As you know, in May of last year a Classified DHS Inspector 
General's test of certain TSA screening at 8 airports, reflecting a 
dismal fail rate, was leaked to the press. I directed a 10-point plan 
to fix the problems identified by the IG. Under the new leadership of 
Admiral Pete Neffenger over the last year, TSA has aggressively 
implemented this plan. This has included retraining the entire 
Transportation Security Officers (TSO) workforce, increased use of 
random explosive trace detectors, testing and re-evaluating the 
screening equipment that was the subject of the IG's test, a rewrite of 
the standard operating procedures manual, increased manual screening, 
and less randomized inclusion in Pre-Check lanes. These measures were 
implemented on or ahead of schedule.
    We are also focused on airport security. In April of last year TSA 
issued guidelines to domestic airports to reduce access to secure 
areas, to require that all airport and airline personnel pass through 
TSA screening if they intend to board a flight, to conduct more 
frequent physical screening of airport and airline personnel, and to 
conduct more frequent criminal background checks of airport and airline 
personnel. Since then employee access points have been reduced, and 
random screening of personnel within secure areas has increased four-
fold. We are continuing these efforts in 2016. In February, TSA issued 
guidelines to further enhance the screening of aviation workers in the 
secure area of airports, and in May, TSA and airport operators 
completed detailed vulnerability assessments and mitigation plans for 
nearly 300 Federalized airports.
    We will continue to take appropriate precautionary measures, both 
seen and unseen, to respond to evolving aviation security threats and 
protect the traveling public.
    Without short-cutting aviation security, we are also working 
aggressively to improve efficiency and minimize wait times at airport 
security check points in the face of increased air travel volumes. I 
thank Congress for approving our two reprogramming requests that have 
enabled us to expedite the hiring of over 1,300 new TSOs, pay 
additional overtime to the existing TSO workforce, and convert over 
2,700 TSOs from part-time to full-time.
    We have also brought on and moved canine teams to assist in the 
screening of passengers at checkpoints, solicited over 150 volunteers 
from among the TSO workforce to accept temporary reassignment from less 
busy to busier airports, deployed optimization teams to the Nation's 20 
busiest airports to improve operations, and stood up an Incident 
Command Center at TSA headquarters to monitor checkpoint trends in real 
time.
    We continue to encourage the public to join TSA 
PreCheck<SUP>TM</SUP>. The public is responding. While enrollments a 
year ago were at about 3,500 daily, now enrollments are exceeding 
15,000 a day. For 90% of those who are enrolled and utilize TSA 
PreCheck<SUP>TM</SUP>, wait times at TSA checkpoints are 5 minutes or 
less.
    Airlines and airports are also assisting to address wait times. We 
appreciate that major airlines and airport operators have assigned 
personnel to certain non-security duties at TSA checkpoints, and are 
providing support in a number of other ways. Longer term, we are 
working with airlines and airports to invest in ``Innovation lanes'' 
and other technology to transform the screening of carry-on luggage and 
personal items.
    Our efforts are showing results. Nation-wide, the wait time for 
more than 99% of the traveling public is 30 minutes or less, and more 
than 90% of the traveling public is waiting 15 minutes or less. But we 
are not taking a victory lap. Over the Fourth of July holiday weekend, 
TSA screened 10.7 million travelers. June 30 and July 1 were the 
highest-volume travel days we have seen since 2007. During this period, 
however, the average wait time Nation-wide in standard security lines 
was less than 10 minutes, while those in TSA PreCheck<SUP>TM</SUP> 
lines waited an average of less than 5 minutes.
    We plan to do more. The summer travel season continues, followed by 
holiday travel in the fall and winter. We are accelerating the hiring 
of an additional 600 TSOs before the end of the fiscal year. And we 
will continue to work with Congress to ensure TSA has the resources it 
needs in the coming fiscal years.
    As I have said many times, we will keep passengers moving, but we 
will also keep them safe.
                             cybersecurity
    Along with counterterrorism, cybersecurity remains a cornerstone of 
our Department's mission. Making tangible improvements to our Nation's 
cybersecurity is a top priority for President Obama and for me to 
accomplish before the end of the administration.
    On February 9, the President announced his ``Cybersecurity National 
Action Plan,'' which is the culmination of 7 years of effort by the 
administration. The Plan includes a call for the creation of a 
Commission on Enhancing National Cybersecurity, additional investments 
in technology, Federal cybersecurity, cyber education, new cyber talent 
in the Federal workforce, and improved cyber incident response.
    DHS has a role in almost every aspect of the President's plan.
    As reflected in the President's 2017 budget request, we want to 
expand our cyber response teams from 10 to 48.
    We are doubling the number of cybersecurity advisors to in effect 
make ``house calls,'' to assist private-sector organizations with in-
person, customized cybersecurity assessments and best practices.
    Building on DHS's ``Stop. Think. Connect.'' campaign, we will help 
promote public awareness on multi-factor authentication.
    We will collaborate with Underwriters Laboratory and others to 
develop a Cybersecurity Assurance Program to test and certify networked 
devices within the ``Internet of Things''--such as your home alarm 
system, your refrigerator, or even your pacemaker.
    I have also directed my team to focus urgently on improving our 
abilities to protect the Federal Government and private sector. Over 
the past year, the National Cybersecurity Communications Integration 
Center, or ``NCCIC,'' increased its distribution of information, the 
number of vulnerability assessments conducted, and the number of 
incident responses.
    I have issued an aggressive time table for improving Federal 
civilian cybersecurity, principally through two DHS programs:
    The first is called EINSTEIN. EINSTEIN 1 and 2 have the ability to 
detect and monitor cybersecurity threats attempting to access our 
Federal systems, and these protections are now in place across nearly 
all Federal civilian departments and agencies.
    EINSTEIN 3A is the newest iteration of the system, and has the 
ability to automatically block potential cyber intrusions on our 
Federal systems. Thus far E3A has actually blocked over a million 
potential cyber threats, and we are rapidly expanding this capability. 
About a year ago, E3A covered only about 20% of our Federal civilian 
networks. In the wake of the malicious cyber intrusion at the Office of 
Personnel Management, in May of last year I directed our cybersecurity 
team to make at least some aspects of E3A available to all Federal 
departments and agencies by the end of last year. They met that 
deadline. Now that the system is available to all civilian agencies, 
50% of Federal personnel are actually protected, including the Office 
of Personnel Management, and we are working to get all Federal 
departments and agencies on board by the end of this year.
    The second program, called Continuous Diagnostics and Mitigation, 
or CDM, helps agencies detect and prioritize vulnerabilities inside 
their networks. In 2015, we provided CDM sensors to 97% of the Federal 
civilian government. Next year, DHS will provide the second phase of 
CDM to 100% of the Federal civilian government.
    I have also used my authorities granted by Congress to issue 
Binding Operational Directives and further drive improved cybersecurity 
across the Federal Government. In May 2015, I directed civilian 
agencies to promptly patch vulnerabilities on their internet-facing 
devices. These vulnerabilities are accessible from the internet, and 
thus present a significant risk if not quickly addressed. Agencies 
responded quickly and mitigated all of the vulnerabilities that existed 
when the directive was issued. Although new vulnerabilities are 
identified every day, agencies continue to fix these issues with 
greater urgency then before the directive.
    Last month, I issued a second binding operational directive. This 
directive mandated that agencies participate in DHS-led assessments of 
their high-value assets and implement specific recommendations to 
secure these important systems from our adversaries. We are working 
aggressively with the owners of those systems to increase their 
security.
    In September 2015, DHS awarded a grant to the University of Texas 
at San Antonio to work with industry to identify a common set of best 
practices for the development of Information Sharing and Analysis 
Organizations, or ``ISAOs.'' The University of Texas at San Antonio 
recently released the first draft of these best practices. They will be 
released in final form later this year after public comment.
    Finally, I thank Congress for passing the Cybersecurity Act of 
2015. This new law is a huge assist to DHS and our cybersecurity 
mission. We are in the process of implementing that law now. As 
required by the law, our NCCIC has built a system to automate the 
receipt and distribution of cyber threat indicators at real-time speed. 
We built this in a way that also includes privacy protections.
    In March, I announced that this system was operational. At the same 
time, we issued interim guidelines and procedures, required by this 
law, providing Federal agencies and the private sector with a clear 
understanding of how to share cyber threat indicators with the NCCIC, 
and how the NCCIC will share and use that information. We have now 
issued the final guidelines and procedures consistent with the deadline 
set by the law.
    I appreciate the additional authorities granted to us by Congress 
to carry out our mission. Today, we face increasing threats from cyber 
attacks against infrastructure and I strongly believe that we need an 
agency focused on cybersecurity and infrastructure protection.
    I have asked Congress to authorize the establishment of a new 
operational component within DHS, the Cyber and Infrastructure 
Protection agency. We have submitted a plan which will streamline and 
strengthen existing functions within the Department to ensure we are 
prepared for the growing cyber threat and the potential for large-scale 
or catastrophic physical consequences as a result of an attack. I urge 
Congress to take action so we are able to ensure DHS is best positioned 
to execute this vital mission.
                               conclusion
    I am pleased to provide the committee with this overview of the 
progress we are making at DHS on countering threats. You have my 
commitment to work with each Member of this committee to build on our 
efforts to protect the American people.
    I look forward to your questions.

    Chairman McCaul. Thank you, Mr. Secretary.
    The Chair now recognizes Director Comey for his testimony.

   STATEMENT OF JAMES B. COMEY, DIRECTOR, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Comey. Thank you, Mr. Chairman, Mr. Thompson. My 
written statement has been submitted.
    I think what I would do in just a few minutes is just 
highlight the way in which we in the FBI are thinking about the 
primary threat to the homeland, which comes at us in the form 
of the so-called Islamic State, the group that we call ISIL, 
and that is a threat that has 3 prongs. It is an effort by ISIL 
through their poisonous propaganda to motivate people to travel 
to their so-called caliphate; second, an effort to inspire 
those who don't travel to engage in acts of violence, 
especially directed at law enforcement or people in military 
uniform; and the third prong of that threat, which we talk 
about less, but we in this business focus on every day, are the 
directed efforts, that is, their efforts to send people to the 
United States to kill innocents or to specifically recruit and 
task people in the United States to kill innocents. Those are 
the 3 prongs of the ISIL threat.
    There is good progress that has been made against the so-
called traveler threat. Since last summer, we have seen a drop 
in the number of people attempting to travel to the so-called 
Islamic State. That may be a function of the fact that the 
message has gotten out that people will spend a long stretch in 
jail if they attempt to travel. It could also be a function of 
the fact that people have discovered that the so-called glory 
of the Islamic State is nothing but a mirage, and it is hell on 
earth. It could also be something that involves people staying 
home to try and do something on behalf of the Islamic State. So 
we don't take great comfort in a drop in the number of 
travelers.
    The second prong is the one that dominates our lives today. 
As Secretary Johnson mentioned, there are hundreds of people in 
the United States who are consuming the propaganda of this so-
called Islamic State and being motivated to move toward 
violence. Our job together is to find those needles in a 
haystack. In fact, our job is harder than that. It is to find 
pieces of hay in that haystack that may become a needle and 
disrupt them before they move from consuming to acting on that 
poisonous propaganda.
    Those are--and the most painful examples of that recently, 
obviously, are Orlando and San Bernardino, but there are plenty 
of others around this country. We have arrested 4 just in this 
month to disrupt them, people who are moving on that path from 
consuming to acting on violence.
    The last prong, as I said, is one we never take our eye 
off, for the reasons you mentioned, Mr. Chairman. We all know 
there will be a terrorist diaspora out of the caliphate as 
military force crushes the caliphate. Those thousands of 
fighters are going to go someplace, and our job is to spot them 
and stop them before they come to the United States to harm 
innocent people.
    I am lucky to lead an organization like the FBI that is 
made up of great men and women who do this all day every day, 
and to do it in partnership with the kind of people sitting at 
the table here and the people who they represent. We are doing 
our absolute best against a threat that is difficult to see and 
to stop. I am very proud of the work we have done today, and it 
will continue.
    I also didn't know this was Secretary Johnson's last 
appearance. I have 7 years left in my term, so I will be back. 
I just want to say what a pleasure it has been to work with my 
old friend, not that you are old, but my friend from many years 
ago, and to see what he has done at that great organization.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Comey follows:]
                  Prepared Statement of James B. Comey
                             July 14, 2016
    Good afternoon Chairman McCaul, Ranking Member Thompson, and 
Members of the committee. Thank you for the opportunity to appear 
before you today to discuss the current threats to the homeland and our 
efforts to address new challenges including terrorists' use of 
technology to both inspire and recruit. The widespread use of 
technology permits terrorists to propagate the persistent terrorist 
message to attack U.S. interests whether in the homeland or abroad. As 
the threat to harm our interests evolves, we must adapt and confront 
the challenges, relying heavily on the strength of our Federal, State, 
local, and international partnerships. Our successes depend on 
interagency cooperation; among those partners with me today are the 
Department of Homeland Security and the National Counterterrorism 
Center with whom we work to address current and emerging threats.
                            counterterrorism
    Preventing terrorist attacks remains the FBI's top priority. The 
terrorist threat against the United States remains persistent and 
acute. The threat posed by foreign fighters, including those recruited 
from the United States, traveling to join the Islamic State of Iraq and 
the Levant (``ISIL'') and from home-grown violent extremists are 
extremely dynamic. The tragic event in Orlando last month is a somber 
reminder of this threat. The FBI is leading a Federal terrorism 
investigation with the assistance of our State, local, and Federal 
partners. The on-going investigation has developed strong indications 
of radicalization by this killer, but further investigation is needed 
to determine if this attack was inspired by foreign terrorist 
organizations. We are spending a tremendous amount of time trying to 
understand every moment of the killer's path, to understand his 
motives, and to understand the details of his life. Our work is very 
challenging: We are looking for needles in a Nation-wide haystack, but 
even more challenging, we are also called upon to figure out which 
pieces of hay might someday become needles. That is hard work and it is 
the particular challenge of identifying home-grown violent extremists.
    These threats remain the highest priority and create the most 
serious challenges for the FBI, the U.S. intelligence community, and 
our foreign, State, and local partners. ISIL is relentless and ruthless 
in its pursuits to terrorize individuals in Syria and Iraq, including 
Westerners. We continue to identify individuals who seek to join the 
ranks of foreign fighters traveling in support of ISIL, and also home-
grown violent extremists who may aspire to attack the United States 
from within. In addition, we are confronting an explosion of terrorist 
propaganda and training available via the internet and social 
networking media. Terrorists readily disseminate poisoned propaganda 
and training materials to attract easily-influenced individuals around 
the world to their cause. They encourage these individuals to travel, 
but if the individuals cannot travel, the terrorists motivate them to 
act at home. This is a significant change and transformation from the 
terrorist threat our Nation faced a decade ago.
    ISIL's wide-spread reach through the internet and social media is 
most concerning as the group has proven dangerously competent at 
employing such tools in furtherance of its nefarious strategy. ISIL 
uses high-quality, traditional media platforms, as well as wide-spread 
social media campaigns to propagate its extremist ideology. Recently 
released propaganda has included various English language publications 
circulated via social media.
    Social media is used as a tool for groups such as ISIL to spot and 
assess potential recruits. With greater access to social media 
platforms, terrorists can spot, assess, recruit, and radicalize 
vulnerable persons of all ages in the United States either to travel to 
engage in terrorist organization activities or to conduct a homeland 
attack. Such use of the internet, including social media, in 
furtherance of terrorism and other crimes must continue to be addressed 
by all lawful means, while respecting international obligations and 
commitments regarding human rights (including freedom of expression), 
the free flow of information, and a free and open internet.
    Unlike other groups, ISIL has constructed a narrative that touches 
on all facets of life from career opportunities to family life to a 
sense of community. The message isn't tailored solely to those who are 
overtly expressing symptoms of radicalization. It is seen by many who 
click through the internet every day, receive social media push 
notifications, and participate in social networks. Ultimately, many of 
these individuals are seeking a sense of belonging, not necessarily 
with the initial intention to participate in terrorist activities. 
Echoing other terrorist groups, ISIL has advocated for lone offender 
attacks in Western countries. Recent ISIL videos and propaganda 
specifically advocate for attacks against soldiers, law enforcement, 
and intelligence community personnel in Western countries. Several 
incidents have occurred in the United States, Canada, and Europe that 
indicate this ``call to arms'' has resonated among ISIL supporters and 
sympathizers. The challenge here is how to defeat ISIS and thwart its 
use of the internet for terrorist and other criminal activity while 
continuing to help the internet be a force for good that promotes the 
enjoyment of freedom of expression, association, and peaceful 
assembly--especially for individuals who are acutely at risk.
    Some of these conversations occur openly on social networking 
sites, but others take place via private messaging platforms that use 
encryption. Terrorists' exploitation of encrypted platforms presents 
serious challenges to law enforcement's ability to identify, 
investigate, and disrupt terrorist threats. We respect the right of 
people to engage in private communications, regardless of the medium or 
technology. Whether it is instant messages, texts, or old-fashioned 
letters, citizens have the right to communicate with one another in 
private without unauthorized Government surveillance, because the free 
flow of information is vital to a thriving democracy.
    The United States believes that the internet has been, and will be, 
a tremendous force for good--it has enabled the promotion and 
protection of fundamental freedoms. But the internet's potential is 
dependent on people's ability and willingness to use it without undue 
restrictions and fear. Individuals must be able to trust that there 
will be respect for privacy, access to information, and freedom of 
expression, and there will be appropriate legal restraints on 
Government action. Without these protections, the internet risks 
becoming a mechanism for social control, rather than a place for all to 
express and exchange ideas, views, and information. The risks posed by 
terrorism are great, and the need for law enforcement is strong, but we 
must balance those requirements against the important role played by 
free expression in helping to address those same challenges.
    The benefits of our increasingly digital lives, however, have been 
accompanied by new obstacles and, accordingly, we are considering how 
criminals and terrorists might use advances in technology to their 
advantage. Investigating and prosecuting these offenders is a core 
responsibility and priority of the Department of Justice. As National 
security and criminal threats continue to evolve, the Department has 
worked hard to stay ahead of changing threats and changing technology. 
The decisions we make over the next several years about the future of 
the internet--including the laws and policies that are put in place to 
protect freedom of expression while thwarting terrorist and other 
criminal activities--will determine whether our children will continue 
to enjoy an open, interoperable, secure, and reliable internet. This in 
turn will greatly affect whether the internet will continue to yield 
the remarkable social, economic, and political progress that it has to 
date.
    We must ensure both the right of people to engage in private 
communications as well as the protection of the public. The more we as 
a society rely on electronic devices to communicate and store 
information, the more likely it is that information that was once found 
in filing cabinets, letters, and photo albums will now be stored only 
in electronic form. When changes in technology hinder law enforcement`s 
ability to exercise investigative tools and follow critical leads, 
those changes also hinder efforts to identify and stop terrorists who 
are using social media to recruit, plan, and execute an attack in our 
country.
    We are seeing more and more cases where we believe significant 
evidence resides on a phone, a tablet, or a laptop--evidence that may 
be the difference between an offender being convicted or acquitted. If 
we cannot access this evidence, it will have on-going, significant 
impacts on our ability to identify, stop, and prosecute these 
offenders.
    The FBI is using all lawful investigative techniques and methods to 
combat these terrorist threats to the United States, including both 
physical and electronic surveillance. Along with our domestic and 
foreign partners, we are collecting and analyzing intelligence about 
the on-going threat posed by foreign terrorist organizations and home-
grown violent extremists. We continue to encourage information sharing. 
In partnership with our many Federal, State, local, and Tribal agencies 
assigned to Joint Terrorism Task Forces around the country, we remain 
vigilant to ensure the safety of the American public. The FBI continues 
to pursue increased efficiencies and information sharing processes as 
well as pursue technological and other methods to help stay ahead of 
threats to the homeland.
                              intelligence
    Integrating intelligence and operations is part of the broader 
intelligence transformation the FBI has undertaken in the last decade, 
and while we are making progress, we still have more work to do. Our 
goal every day is to get better at using, collecting, and sharing 
intelligence to better understand and defeat our adversaries.
    We have established an Intelligence Branch within the FBI to lead 
integration across the organization, with responsibility for all 
intelligence strategy, resources, policies, and functions. The branch 
is headed by an Executive Assistant Director who looks across the 
entire enterprise and drives integration. We have also established a 
Bureau Intelligence Council within the Intelligence Branch to ensure we 
take a consolidated and integrated approach to threats. As part of this 
council, senior-level intelligence professionals will lead enterprise-
wide strategic assessments, facilitate a broader understanding of how 
threats mitigated across operational programs are related, and help 
balance our priorities with those of the broader intelligence community 
and U.S. Government.
    We have also put in place training for all levels of the workforce, 
from entry-level employees to senior leaders, to ensure we achieve that 
integration throughout the enterprise. New agents and analysts now 
engage in practical training exercises and take core courses together 
at the FBI Academy--and, as a result, are better prepared to 
collaborate effectively throughout their careers. In addition, all 
field supervisory agents, supervisory analysts, and foreign language 
program managers, as well as headquarters unit chiefs, now attend a 2-
day forum focused on sharing best practices to advance integration. All 
section chiefs and GS-15 field agents and analysts also attend a 2\1/
2\-day course on effectively integrating intelligence processes to 
maximize resources against prioritized threats. Finally, our entire 
executive management team at headquarters has participated in two 
integration sessions to ensure the integration of intelligence into 
every aspect of the FBI's work.
    In addition, we are dedicated to expanding the developmental and 
leadership opportunities for all members of the intelligence program 
workforce. We recently put in place 7 additional Senior Supervisory 
Intelligence Analyst positions in various offices around the country to 
increase leadership opportunities for our analyst cadre and enhance our 
management of field intelligence work. These GS-15 analysts manage 
intelligence in the field, fulfilling a role that has traditionally 
been performed by agents and demonstrating we are promoting effective 
integration throughout the organization.
    We have also redesigned the training curriculum for another part of 
the Intelligence Program workforce--Staff Operations Specialists 
(``SOSs'')--to aid in their performance of tactical functions in the 
field. In addition, a new development model clearly identifies SOS work 
responsibilities, tasks, training, and opportunities at the basic, 
intermediate, and advanced levels to guide the professional growth of 
SOSs across the organization at all points throughout their FBI 
careers.
    Similarly, our language workforce continues to make important 
contributions to the mission. Our language professionals have recently 
supported numerous important investigations and operations, including 
Malaysia Airlines Flight 17 last summer, numerous ISIL-related 
investigations, the disruption of a nuclear threat in Moldova, and so 
many others. The National Virtual Translation Center (``NVTC'') also 
continues to provide excellent service, supporting hundreds of 
Government offices each year.
    The FBI cannot be content to just work what is directly in front of 
us. We must also be able to understand the threats we face at home and 
abroad and how those threats may be connected. Toward that end, 
intelligence is gathered, consistent with our authorities, to help us 
understand and prioritize identified threats and to determine where 
there are gaps in what we know about these threats. We then seek to 
fill those gaps and learn as much as we can about the threats we are 
addressing and others on the threat landscape. We do this for National 
security and criminal threats, on both a National and local field 
office level. We then compare the National and local perspectives to 
organize threats into priorities for each of the FBI's 56 field 
offices. By categorizing threats in this way, we strive to place the 
greatest focus on the gravest threats we face. This gives us a better 
assessment of what the dangers are, what's being done about them, and 
where we should prioritize our resources.
                                 cyber
    Virtually every National security and criminal threat the FBI faces 
is cyber-enabled in some way. We face sophisticated cyber threats from 
foreign intelligence agencies, hackers for hire, organized crime 
syndicates, and terrorists. These threat actors constantly seek to 
access and steal Classified information, our trade secrets, our 
technology, and our ideas--things of incredible value to all of us and 
of great importance to our National and economic security. They seek to 
strike our critical infrastructure and to harm our economy.
    The pervasiveness of the cyber threat is such that the FBI and 
other intelligence, military, homeland security, and law enforcement 
agencies across the Federal Government view improving cybersecurity and 
preventing cyber attacks as a top priority. Within the FBI, we are 
targeting the most dangerous malicious cyber activity: High-level 
intrusions by state-sponsored hackers and global organized crime 
syndicates, as well as the most prolific botnets. We need to be able to 
move from reacting to such malicious activity after the fact to 
preventing such attacks. That is a significant challenge, but one we 
embrace.
    As the committee is well aware, the frequency and impact of 
malicious cyber activity on our Nation's private sector and Government 
networks have increased dramatically in the past decade and are 
expected to continue to grow.
    We continue to see an increase in the scale and scope of reporting 
on malicious cyber activity that can be measured by the amount of 
corporate data stolen or deleted, personally identifiable information 
compromised, or remediation costs incurred by U.S. victims. For 
example, as the committee is aware, the Office of Personnel Management 
(``OPM'') discovered last year that a number of its systems were 
compromised. These systems included those that contain information 
related to the background investigations of current, former, and 
prospective Federal Government employees, as well as other individuals 
for whom a Federal background investigation was conducted. The FBI is 
working with our interagency partners to investigate this matter.
    Another growing threat to businesses and individuals alike is 
ransomware, which is malicious software that takes control of victims' 
computers and systems and encrypts the data until the victims pay a 
ransom. Last year alone reported losses from ransomware totaled more 
than $24 million. The FBI works closely with the private sector so that 
companies may make informed decisions in response to ransomware and 
other malware attacks. Companies can prevent and mitigate malware 
infection by utilizing appropriate back-up and malware detection and 
prevention systems, and training employees to be skeptical of emails, 
attachments, and websites they don't recognize. The FBI does not 
encourage payment of ransom, as payment of extortion monies may 
encourage continued criminal activity and paying a ransom does not 
guarantee that an organization will regain access to its data.
    The FBI is engaged in a myriad of efforts to combat cyber threats, 
from efforts focused on threat identification and information sharing 
inside and outside of Government, to our emphasis on developing and 
retaining new talent and changing the way we operate to defeat these 
threats. We take all potential threats to public and private-sector 
systems seriously and will continue to investigate and hold accountable 
those who pose a threat in cyber space.
    Finally, the strength of any organization is its people. The 
threats we face as a Nation have never been greater or more diverse and 
the expectations placed on the Bureau have never been higher. Our 
fellow citizens look to us to protect the United States from all of 
those threats and the men and women of the Bureau continue to meet and 
exceed those expectations, every day. I want to thank them for their 
dedication and their service.
    Chairman McCaul, Ranking Member Thompson, and committee Members, I 
thank you for the opportunity to testify concerning the threats to the 
homeland. I am happy to answer any questions you might have.

    Chairman McCaul. Thank you, Director Comey.
    The Chair now recognizes Director Rasmussen.

  STATEMENT OF HONORABLE NICHOLAS J. RASMUSSEN, DIRECTOR, THE 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Rasmussen. Good morning, Chairman McCaul, Ranking 
Member Thompson, and Members of the committee. I appreciate the 
opportunity to join my colleagues Secretary Johnson and 
Director Comey here this morning to talk about the threats that 
worry us the most.
    I would also like to thank you, Mr. Chairman, for your 
recent visit to address my work force at NCTC in a town hall 
setting. It was a terrific, terrific session, and I appreciate 
the support that your committee and you personally have shown 
to our work force and to our mission.
    As Director Comey and Secretary Johnson said, the attack in 
Orlando underscores the critical nature of our collective 
vigilance against home-grown violent extremism. Looking ahead, 
we certainly expect that more additional home-grown violent 
extremists will try to replicate the violence and potentially 
capitalize on media attention that came from attacks like those 
like the one in Florida generated. It is clearly the case that, 
in the past few years, the pool of potential home-grown violent 
extremists has expanded significantly. As Director Comey has 
talked about in prior testimony, the FBI has investigations 
across all 50 States that touch on this population.
    This increase in caseload tracks with ISIL's rise in 
prominence in the large-scale media and propaganda apparatus 
that it has tried to development to influence populations 
around the world. As we approach 15 years after the 9/11 
attacks, I would say it is fair to say that the array of 
terrorist actors around the globe is broader, deeper, and wider 
than it has been at any time since 9/11. It is ISIL's 
narrative, rooted in unceasing warfare against all that it 
defines as its enemies that also extends well beyond the Syria 
and Iraq battlefield. ISIL has carried out attacks ranging in 
tactics and targets, from the downing of a Russian airliner in 
Egypt to the attacks last November in Paris against 
restaurants, a sports stadium, and a concert venue, attacks on 
an airport in Brussels--in both--in Brussels and Istanbul--and, 
most recently, the killing of hostages and law enforcement 
officials in a cafe in Bangladesh. All of these attacks show 
how ISIL can draw upon local individuals, local affiliates to 
carry out these lethal attacks.
    So this array of recent attacks that I just rattled through 
demonstrates that the threat landscape is in many ways less 
predictable than ever. While the scale of the capabilities 
currently demonstrated by most of the terrorist actors that we 
are dealing with does not rise to the level of the capability 
that core al-Qaeda had to carry out catastrophic attacks on 9/
11, it remains fair to say that we face more threats 
originating in more places involving more individuals than at 
any period since 9/11.
    It is ISIL's access to resources and territorial control in 
areas of Syria and Iraq that are key ingredients to the group's 
development of external operations capability, which includes 
the group's ability to threaten the homeland. For that reason, 
shrinking the size of that territory controlled by ISIL, 
denying ISIL access to additional manpower in the form of 
foreign fighters remains a top priority. Success in these areas 
is essential to our ultimate effort to prevent the group from 
operating on a global scale as a terrorist organization.
    Clearly, progress has been made in these areas, but despite 
this progress, it is our judgment that ISIL's ability to carry 
out terrorist attacks in Syria, Iraq, and abroad has not to 
date been significantly diminished, and the current tempo of 
ISIL-linked terrorist activity is a painful reminder ISIL's 
global reach.
    It is important to understand that we do not judge that 
there is a direct link between the group's current battlefield 
status on the ground in Iraq and Syria and the group's capacity 
to operate as a global terrorist organization with capabilities 
around the world. ISIL's external operations capability has 
been building and entrenching during the past 2 years, and we 
don't think that battlefield reverses alone in Iraq will be 
sufficient to degrade that terrorism capability that has 
evolved with ISIL.
    So, without question, the tremendous efforts we are making 
as a Government to counter ISIL are absolutely warranted, but I 
want to shift briefly for a moment to stress that we still 
regard al-Qaeda and al-Qaeda's various affiliated organizations 
as a principal counterterrorism priority, and we are 
particularly concerned about al-Qaeda's growing safe haven in 
Syria.
    We know that ISIL is trying to strengthen its global 
network by relocating some of its remaining leadership from 
South Asia to Syria, and these leaders include individuals who 
have been part of the group since the time even before 9/11. 
Now that many of them are in Syria, we believe that they will 
work to threaten the United States and our allies.
    Turning to broader trends in the contemporary threat 
environment, I will briefly highlight three that concern us the 
most. The first trend is the persistent effort by our terrorist 
adversaries to target the aviation sector. While there is much 
more I could say in a Classified setting on this, I can say 
here that both al-Qaeda and ISIL remain focused on defeating 
our defenses against aviation-related attacks.
    The second trend I would highlight is the increasing 
ability of terrorist actors to communicate with each other 
outside our reach through the use of encrypted applications.
    Third, while we have seen a decrease in the frequency of 
large-scale, complex plotting efforts that sometimes span 
several years, we are instead seeing proliferation of more 
rapidly evolving and maturing threats, the so-called flash-to-
bang ratio that we have talked to this committee before about. 
The time between when an individual first decides to pursue 
violence and when an actual attack might occur has become 
extremely compressed, placing much greater pressure on law 
enforcement and intelligence.
    In our environment, our best hope of providing enduring 
security in this environment rests on our ability to counter 
the appeal of terrorism and dissuade individuals in the first 
place, and that goes to the subject of countering violent 
extremism, which was something raised by both the Chairman and 
the Ranking Member.
    NCTC, working with DHS and FBI, has developed CVE tools to 
build community resilience across the country, but there is 
clearly more work to be done by all of us together in this 
environment, and I look forward at NCTC to our doing our part.
    Thank you, Mr. Chairman.
    Thank you, Ranking Member, and Members of the committee.
    I look forward to taking your questions.
    [The prepared statement of Mr. Rasmussen follows:]
              Prepared Statement of Nicholas J. Rasmussen
                             July 14, 2016
    Thank you, Chairman McCaul, Ranking Member Thompson, and Members of 
the committee. I appreciate this opportunity to discuss the terrorism 
threats that concern us most. I am pleased to join my colleagues and 
close partners, Secretary Jeh Johnson from the Department of Homeland 
Security (DHS), and Director James Comey of the Federal Bureau of 
Investigation (FBI).
    Over the past several years, we have had great success in 
strengthening our Homeland security and have made progress in reducing 
external threats emanating from core al-Qaeda and the self-proclaimed 
Islamic State of Iraq and the Levant, or ISIL, due to aggressive 
counterterrorism (CT) action against the groups. Unfortunately, the 
range of threats we face has become increasingly diverse and 
geographically expansive, as we saw with ISIL's recent wave of attacks 
in Bangladesh, Iraq, Saudi Arabia, and Turkey. As these attacks 
demonstrate, ISIL's strategy is to weaken the resolve of its 
adversaries and project its influence world-wide through attacks and 
propaganda, ultimately perpetuating fear.
    The continuing appeal of the violent extremist narrative and the 
adaptive nature of violent extremist groups continue to pose 
substantial challenges to the efforts of our CT community. In addition 
to the attacks overseas, we are no doubt reminded by the shooting in 
Orlando, Florida, last month that home-grown violent extremists, or 
HVEs, who are inspired by groups such as ISIL remain an unpredictable 
threat we face in the homeland. Because HVEs are frequently lone 
actors, often self-initiating and self-motivating, their threats are 
harder to detect and, therefore, harder to prevent. But just as the 
threat evolves, so do we. We are constantly adapting, and we must 
continue to improve.
                            threat overview
    The attack in Orlando underscores the importance of what we are 
here today to discuss and the critical nature of our vigilance against 
home-grown violent extremism. While the reasons for the attack in 
Florida become known and continue to inform how we detect and respond 
to these types of incidents, we remain committed to keeping our Nation 
safe. The best way to combat terrorism is a whole-of-Government 
approach, where Federal, State, and local intelligence and law 
enforcement collaborate.
    We expect some HVEs will try to replicate the violence and 
potentially capitalize on the media coverage and attention that attacks 
like the one in Florida generated. Although we do not see a large 
number of these types of threats at the moment, we expect to see an 
increase in threat reporting around the summer holidays and the large 
public events, celebrations, and gatherings that accompany them. We 
will continue to track and monitor the threats and share that 
information with our partners.
    In the past few years, the pool of potential HVEs has expanded. As 
Director Comey has said, the FBI has investigations on around 1,000 
potential HVEs across all 50 States. While HVEs have multiple factors 
driving their mobilization to violence, this increase in caseload 
tracks with ISIL's rise in prominence and its large-scale media and 
propaganda efforts to reach and influence populations world-wide. What 
we have seen over time is that HVEs--either lone actors or small 
insular groups--continue to gravitate toward simple tactics that do not 
require advanced skills or outside training. The majority of HVEs will 
likely continue to select traditional targets, such as military 
personnel, law enforcement, and other symbols of the U.S. Government. 
Some HVEs--such as the Orlando shooter in June and the San Bernardino 
shooters in December 2015--may have conducted attacks against 
personally significant targets. The convergence of violent extremist 
ideology and personal grievances or perceived affronts likely played a 
role in motivating these HVEs to attack.
    As we approach 15 years since 9/11, the array of terrorist actors 
around the globe is broader, wider, and deeper than it has been at any 
time since that day. ISIL's narrative, rooted in unceasing warfare 
against all enemies, extends beyond the Syria-Iraq battlefield. ISIL 
has conducted attacks ranging in tactics and targets--the bombing of a 
Russian airliner in Egypt; the attacks in Paris at restaurants, a 
sports stadium, and a concert venue; the killing of hostages and 
Bangladeshi law enforcement officials in a cafe in Bangladesh; and the 
bombing of a crowded commercial district in Baghdad--all of which 
demonstrate how ISIL can capitalize on local affiliates on the ground 
for attacks. The threat landscape is less predictable and, while the 
scale of the capabilities currently demonstrated by most of these 
violent extremist actors does not rise to the level that core al-Qaeda 
had on 9/11, it is fair to say that we face more threats originating in 
more places and involving more individuals than we have at any time in 
the past 15 years.
    As we recently saw at Istanbul's Ataturk Airport and the attack in 
Belgium in March, terrorists remain focused on attacks against aviation 
because they recognize the economic damage that may result from even 
unsuccessful attempts to down aircraft or against airline terminals, as 
well as the high loss of life and the attention media devotes to these 
attacks. World-wide security improvements in the aftermath of the 9/11 
attacks have hardened the aviation sector but have not entirely removed 
the threat. Violent extremist publications continue to promote the 
desirability of aviation and its infrastructure for attacks and have 
provided information that could be used to target the air domain.
    We have come to view the threat from ISIL as a spectrum, where on 
one end, individuals are inspired by ISIL's narrative and propaganda, 
and at the other end, ISIL members are giving operatives direct 
guidance. Unfortunately it is not always clear; sometimes ISIL members 
in Iraq and Syria reach out to individuals in the homeland to enable 
others to conduct attacks on their behalf. More often than not, we 
observe a fluid picture where individuals operate somewhere between the 
two extremes.
    ISIL's access to resources--in terms of both manpower and funds--
and territorial control in areas of Syria and Iraq are the ingredients 
that we traditionally look to as being critical to the group's 
development of an external operations capability, to include their 
ability to threaten the homeland. For that reason, shrinking the size 
of territory controlled by ISIL, and denying the group access to 
additional manpower in the form of foreign fighters and operatives, 
remains a top priority, and success in these areas will ultimately be 
essential to our efforts to prevent the group from operating as a 
terrorist organization with global reach and impact. And clearly, 
progress has been made in these areas. But despite this progress, it is 
our judgment that ISIL's ability to carry out terrorist attacks in 
Syria, Iraq, and abroad has not to date been significantly diminished, 
and the tempo of ISIL-linked terrorist activity is a reminder of the 
group's continued global reach.
    While ISIL's efforts on the ground in Syria and Iraq remain a top 
priority for the group's leadership, we do not judge that that there is 
a direct link between the group's current battlefield status in Iraq 
and Syria and the group's capacity to operate as a terrorist 
organization with global capabilities. Their external operations 
capability has been building and entrenching during the past 2 years, 
and we do not think battlefield losses alone will be sufficient to 
degrade completely the group's terrorism capabilities. As we have seen, 
the group has launched attacks in periods in which the group held large 
swaths of territory as well as during the past few weeks, as the group 
feels increasing pressure from the counter-ISIL campaign. In addition 
to their efforts to conduct external attacks from their safe havens in 
Iraq and Syria, ISIL's capacity to reach sympathizers around the world 
through its robust social media capability is unprecedented and gives 
the group access to large numbers of HVEs.
    ISIL spokesman Abu Muhammad Adnani's most recent public statement--
which encourages ISIL supporters in the United States to conduct 
attacks in their home countries instead of traveling to Iraq and 
Syria--may suggest that ISIL recognizes the difficulty in sending 
operatives to the homeland for an attack. ISIL likely views the United 
States as a harder target than Europe due to Europe's proximity to the 
conflict. U.S. ports of entry are under far less strain from mass 
migration, and U.S. law enforcement agencies are not overtaxed by 
persistent unrest, as some of our counterparts are overseas.
    In Europe, we are concerned about ISIL's demonstrated ability to 
conduct coordinated attacks by deploying operatives from Syria and Iraq 
and leveraging European jihadist networks. ISIL attacks in Paris in 
November and Brussels in March revealed several factors that could 
enable future operations. First, the role of ISIL's cadre of foreign 
fighters in planning and executing external operations is key. As we 
know, several of the Paris and Brussels attackers had experience 
fighting in Syria, including Paris attack coordinator and operative 
Abdelhamid Abaaoud.
    A second factor that has contributed to ISIL's successful attacks 
in Europe is the flexibility of their operatives. Those serving as 
facilitators can transition to attackers for different operations. Some 
of the Brussels attackers supported the Paris attacks by providing 
explosives and transportation for operatives. This is a dynamic that 
the U.S. Government must consider in order to effectively aid our 
European counterparts in identifying and disrupting future attacks. 
Finally, ISIL's leveraging of criminal, familial, and communal ties 
contributes to its ability to advance plotting in Europe. Many 
operatives involved in the attacks in Paris and Brussels share a 
similar story of getting involved in criminal activities before 
becoming radicalized to violence.
    Similar to the HVE challenge we face, Europe-based individuals have 
responded to ISIL's violent message and act on the group's behalf. A 
violent extremist attacked a police officer and his wife last month in 
France and pledged his allegiance to ISIL amir Abubakr al-Baghdadi 
during the hostage situation through a live-streaming social media 
service.
    Last year we confirmed that ISIL had successfully sent several 
operatives--including at least two of the Paris attackers--from Syria 
to Western Europe by having them blend in with the flow of some 1 
million migrants, asylum seekers, and refugees who traveled from Turkey 
to Greece in 2015. Although ISIL most likely will continue to seek 
opportunities to infiltrate these Europe-bound flows when it is 
operationally expedient to do so, the group probably would prefer other 
options to deploy operatives to the homeland because of the relative 
difficulties to entering the United States via the U.S. Refugee 
Admissions Program. Specifically, applicants have little-to-no control 
as to whether the United Nations will refer them for consideration by 
the U.S. Refugee Admissions Program. Those refugees who are referred to 
the U.S. Refugee Admissions Program are then subjected to a process for 
resettlement of refugees administered by the United Nations High 
Commissioner for Refugees (UNHCR).
    To ensure proper scrutiny of refugee applicants referred to the 
United States by the UNHCR, the National Counterterrorism Center (NCTC) 
has worked extensively with the screening community to deliver a 
comprehensive, end-to-end refugee vetting system that streamlines 
operations without compromising safety, removes stovepipes, and 
increases transparency across the board. This screening is just one 
part of a comprehensive system of checks--including the participation 
of the Departments of Homeland Security, State, Defense, and the FBI as 
well as additional intelligence agencies--that includes extensive in-
person overseas interviews, biographic and biometric assessments, and 
recurrent vetting.
    NCTC screening is done in two ways: The first is identity 
resolution. We utilize automated programs to correlate biographic 
information of refugee applicants against the Terrorist Identities 
Datamart Environment, the U.S. Government's central repository of 
international terrorist information, for potential matches. All of 
these computer-generated matches are reviewed by analysts trained to 
resolve identities. We access other intelligence community (IC) 
holdings to then validate those findings.
    The second way is our screening against IC holdings. We screen 
applicant biographic information against the IC holdings to identify 
any possible matches to raw intelligence reporting and then conduct 
analysis to determine any nexus to terrorism.
    The tremendous efforts we are undertaking to counter the ISIL 
threat are absolutely warranted, but I want to stress that we still 
view al-Qaeda and the various al-Qaeda affiliates and nodes as a 
principal counterterrorism priority. For example, while ISIL is driving 
most terrorist threats against Europe, we know that the pressures we 
face on the Continent are not limited to ISIL. The attack on the 
Charlie Hebdo magazine office in Paris by individuals linked to AQAP in 
January 2015 is a key example of the broad violent extremist threat 
facing Europe. We would not tier our priorities in such a way that 
downgrades al-Qaeda in favor of a greater focus on ISIL. When we are 
looking at the terrorism threats that we face as a Nation, including to 
the homeland, al-Qaeda still figures prominently in that analysis.
    We are particularly concerned about al-Qaeda's safe haven in Syria 
because we know al-Qaeda is trying to strengthen its global networks by 
relocating some of its remaining leadership cadre from South Asia to 
Syria. These leaders include some who have been part of the group since 
before the September 11 attacks and, once in Syria, we believe they 
will work with the al-Qaeda affiliate there--the Nusrah Front--to 
threaten the United States and our allies.
    The Nusrah Front is al-Qaeda's largest affiliate and one of the 
most capable armed groups operating in Syria. Its integration of al-
Qaeda veterans provides the group with strategic guidance and enhances 
its standing within the al-Qaeda global movement. In April, the U.S. 
military successfully targeted some of the Nusrah Front's senior 
members, including long-time al-Qaeda member and former spokesman for 
the group in Syria, Abu Firas al-Suri. We will remain vigilant in our 
efforts to counter this group and the threats it poses to the West.
    We believe we have constrained the group's effectiveness and their 
ability to recruit, train, and deploy operatives from their safe haven 
in South Asia; however, this does not mean that the threat from core 
al-Qaeda in the tribal areas of Pakistan or in eastern Afghanistan has 
been eliminated. We assess that al-Qaeda and its adherents in the 
region still aspire to conduct attacks and, so long as the group can 
potentially regenerate capability to threaten the homeland with large-
scale attacks, Al-Qaeda will remain a threat. Al-Qaeda's allies in 
South Asia--particularly the Haqqani Taliban Network--also continue to 
present a high threat to our regional interests.
    The IC is cognizant to the level of risk the United States may face 
over time if al-Qaeda regenerates, finds renewed safe haven, or 
restores lost capability. We are very much on alert for signs that al-
Qaeda's capability to attack the West from South Asia is being restored 
and would warn immediately if we find trends in that direction. I am 
confident that the U.S. Government will retain sufficient capability to 
continue to put pressure on that core al-Qaeda network and therefore 
reduce the risk of a resurgence by al-Qaeda in the region.
    We also see increasing competition between violent extremist actors 
within South Asia itself, between and among the Taliban, ISIL's branch 
in South Asia, and al-Qaeda. This is an additional dynamic that we are 
working to understand. While conflict among terrorist groups may well 
distract them from their core mission of plotting attacks against 
Western targets, conflict also serves to introduce a degree of 
uncertainty into the terrorism landscape that raises questions that I 
don't think we have answers to yet. This is something we are watching 
very closely.
    Stepping back, there are two trends in the contemporary threat 
environment that concern us most. First is the increasing ability of 
terrorist actors to communicate with each other outside our reach with 
the use of encrypted communications. As a result, collecting precise 
intelligence on terrorist intentions and the status of particular 
terrorist plots is increasingly difficult.
    There are several reasons for this: Exposure of intelligence 
collection techniques, disclosures of Classified information that have 
given terrorist groups a better understanding of how we collect 
intelligence, and terrorist groups' innovative and agile use of new 
means of communicating, including ways that are sometimes beyond our 
ability to collect, known as ``going dark.''
    Second, while we've seen a decrease in the frequency of large-
scale, complex plotting efforts that sometimes span several years, 
we're instead seeing a proliferation of more rapidly-evolving threat or 
plot vectors that emerge simply by an individual encouraged to take 
action who then quickly gathers the few resources needed and moves into 
an operational phase. The so-called ``flash-to-bang'' ratio--the time 
between when an individual decides to attack and when the attack 
occurs--in plotting of this sort is extremely compressed and allows 
little time for traditional law enforcement and intelligence tools to 
disrupt or mitigate potential plots.
    ISIL is aware of this, and those connected to the group have 
understood that by motivating actors in their own locations to take 
action against Western countries and targets, they can be effective, 
especially if they believe they cannot travel abroad to ISIL-controlled 
areas. In terms of propaganda and recruitment, ISIL supporters can 
generate further support for their movement, even without carrying out 
catastrophic, mass-casualty attacks. And that's an innovation in the 
terrorist playbook that poses a great challenge.
                   countering violent extremism (cve)
    The number of individuals going abroad as foreign terrorist 
fighters to Iraq and Syria only emphasizes the importance of 
prevention. Any hope of enduring security against terrorism or 
defeating organizations like ISIL rests in our ability to counter the 
appeal of terrorism and dissuade individuals from joining them in the 
first place.
    To this end, as announced in January 2016, the Countering Violent 
Extremism Task Force was stood up to organize Federal CVE efforts. The 
CVE Task Force will be led by the Department of Homeland Security for 
the first 2 years; afterward, the Department of Justice will assume 
leadership. It will be staffed by multiple departments and agencies, 
including the FBI and NCTC. The main objectives of the task force are 
to coordinate Federal support for on-going and future research, and 
establish feedback mechanisms to incorporate sound results; synchronize 
Federal Government outreach to, and engagement with, CVE stakeholders 
and provide technical assistance to CVE practitioners; manage and 
leverage digital technologies to engage, empower, and connect CVE 
stakeholders; and work with CVE stakeholders to develop intervention 
programs.
    NCTC continues to refine and expand the preventive side of 
counterterrorism. We have seen a steady proliferation of more proactive 
and engaged community awareness efforts across the United States, with 
the goal of giving communities the information and tools they need to 
see violent extremism in their midst and do something about it before 
it manifests itself. NCTC, in direct collaboration with DHS and the 
inter-agency team, has led the creation of CVE tools to build community 
resilience across the country.
    NCTC has sent our officers on multiple occasions to meet with the 
communities in places such as Denver, Sacramento, Buffalo, and 
Minneapolis to raise awareness among community and law enforcement 
audiences about the terrorist recruitment threat. Our briefing is now 
tailored to address the specific issue of foreign fighter recruitment 
in Syria and Iraq, and we have received a strong demand signal for more 
such outreach. The Community Resilience Exercise, a table-top exercise 
that brings together local law enforcement with community leadership to 
run through a hypothetical case-study-based scenario featuring a 
possible violent extremist or foreign fighter, aims to encourage the 
creation of intervention models at the local level. In the same way 
that local partners, including law enforcement, schools, social service 
providers, and communities, have come together to provide alternative 
pathways and off-ramps for people who might be vulnerable to joining a 
gang, we are encouraging our local partners to implement similar models 
for violent extremism. The more resilient the community, the less 
likely its members are to join a violent extremist group.
                               conclusion
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you this 
morning. As we are reminded by the events in Florida as well as 
globally just a couple of weeks ago, the role that NCTC, FBI, and DHS 
play in combating terrorism, along with this committee's support, is 
critically important. I know the collaboration among all the agencies 
represented here will continue over the months and years to come in 
order to continue to protect the homeland.
    Thank you all very much, and I look forward to answering your 
questions.

    Chairman McCaul. Thank you, Director.
    I now recognize myself for questions.
    There are some who argue that our military actions in Iraq 
and Syria have diminished the threat to the homeland, and I 
think, Director Rasmussen, you touched upon this. However, the 
CIA director, John Brennan, just recently in his testimony gave 
the administration a failing grade in the fight against ISIS 
and said, ``Our efforts have not reduced the group's terrorism 
capability and global reach.''
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman McCaul. I want to ask this question to each of 
you, starting with Secretary Johnson. Do you agree with the CIA 
director's comments?
    Secretary Johnson. I haven't read Director Clapper's--I 
mean, Director Brennan's testimony in its entirety. I have seen 
excerpts of it.
    The way I would assess it is we are making significant 
progress in ISIL's ability to maintain any type of caliphate in 
Iraq and Syria. I think any time a terrorist organization from 
the homeland security perspective is able to establish a 
caliphate, that has real implications and troubling 
implications. We have made progress there in our ability to 
roll back their territory, degrade their ability to finance, 
degrade their ability to communicate.
    I agree with Nick's assessment, however, that we have--
ISIL's ability to conduct external attacks, to inspire, to 
self-radicalize is still very much present, and that is 
something that we need to continue to focus our U.S. Government 
National security, homeland security resources on. In no 
respect, I think, are we satisfied that their ability to engage 
in external attacks and self-radicalize actors and inspire 
actors has been diminished to the point where we can step back 
and take a breather. We have to stay focused on that very much 
so.
    Chairman McCaul. Director Comey.
    Mr. Comey. I agree with what Secretary Brennan--excuse me--
Director Brennan said. The intelligence community assesses 
that, as the caliphate is crushed, the so-called Islamic State 
will become more desperate to demonstrate its continued 
vitality, and that will likely take the form of more asymmetric 
attacks, more efforts at terrorism. So I agree with Secretary 
Johnson. It is necessary to crush the caliphate, but we can't 
take our eye off what the next move will be by these killers.
    Chairman McCaul. Director Rasmussen.
    Mr. Rasmussen. I guess the way I would think about it, Mr. 
Chairman, is that one shouldn't necessarily expect that there 
is a one-for-one correlation between progress on the ground in 
Iraq and Syria, which is undeniable and is essential to our 
long-term effort to crush ISIL or to defeat ISIL, but one 
shouldn't expect a one-for-one correlation between that effort 
and the results we are seeing on that front and near-term 
shrinkage of this external operations capability that the group 
has invested in over time. So I would consider that as 
something that is going to lag. Our success in this area is 
going to take longer and require more effort.
    Chairman McCaul. The next question, we have been long 
worried about ISIS' internet directives to kill both military 
and police officers in this country. After Dallas and the 
tragic events there--I was born and raised in that city--we now 
see a new threat to law enforcement from another direction that 
I see--this, I am concerned about--from fringe groups out 
there. I direct this to Secretary Johnson and Director Comey.
    As we look at the upcoming Republican Convention--and I 
will be attending on Monday--can you comment on the threat from 
these fringe groups? I know some have directed people to come 
to Cleveland and bring your weapons. Obviously, there is great 
concern among the American people of the status of security at 
that convention.
    Secretary Johnson, can you comment on that?
    Secretary Johnson. Well, I am concerned about the prospect 
of demonstrations getting out of hand. I am concerned about the 
possibility of violence. We have within DHS some 3,000 
personnel that will be dedicated to the security of the 
Republican National Convention and the Democratic National 
Convention each, consisting of Secret Service, TSA, Homeland 
Security Investigations, Customs and Border Protection, NPPD, 
Coast Guard. I know that there will be at least another 1,000 
or so U.S. Government personnel at hand in both places, a 
number in Cleveland of the Ohio Guard, as well as probably 
thousands in terms of State and local law enforcement.
    We have been planning and preparing for both conventions 
now for over a year. As I mentioned earlier, I plan to inspect 
the security at both sites; Cleveland tomorrow, Philadelphia 
next Friday.
    So I think we have to be concerned about things getting out 
of hand, very definitely, but there will be a lot of security 
and lot of preparation in place. There is a certain level of 
First Amendment protected activity that is guaranteed to 
demonstrators at National political conventions. It will be 
confined. It will be roped off in an isolated area, but it is 
something that we will have a lot of security devoted to, Mr. 
Chairman.
    Chairman McCaul. Thank you.
    Director Comey, to the extent you can in an open setting, 
can you talk about the nature of the threats, threat streams 
you see out there to this convention?
    Mr. Comey. Yes, Mr. Chairman. The definition of domestic 
terrorism is someone who engages in acts of violence directed 
against other people in order to coerce a civilian population 
or try and coerce a government, and so, any time there is a 
National spotlight on a political event in the United States, 
there is a risk that groups that aspire to do just that, to 
engage in acts of domestic terrorism, will be attracted.
    It is a threat we are watching very, very carefully. It is 
the reason we have hundreds of people focused on intelligence 
and deployed to Cleveland. I don't want to talk about 
particular groups here, but there is a concern any time there 
is an event like this that people from across a spectrum of 
radical groups will be attracted to it, so we are watching it 
very, very carefully.
    Chairman McCaul. Thank you. Last question. I want to ask 
you about the National security implications of Secretary 
Clinton's private server. You stated that she used personal 
emails extensively while outside the United States, including 
sending and receiving work-related emails in the territory of 
sophisticated adversaries. Given that, you assessed it is 
possible that actors gained access to her personal email 
account. I know when we travel overseas, we are told not to 
bring these devices into nations with foreign adversaries.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman McCaul. You went on to say that 7 of her email 
chains concerned matters classified at Top Secret but also 
special access programs that were sent and received. Those 
programs were designed in part to protect the country's most 
highly classified and sensitive information.
    Can you tell us, if her private server, if these emails 
were breached, what would be the National security implications 
to that, and could American lives be at risk?
    Mr. Comey. Thank you, Mr. Chairman. I was hoping to talk 
about terrorism, but I will do my best to address this in an 
open setting.
    As I have said publicly, I don't know--we don't have direct 
evidence that the server was successfully hacked. We wouldn't, 
though, expect to see that evidence from sophisticated 
adversaries, given the nature of the adversary and given the 
nature of the system.
    The definition of Classified information is it is 
information that an intelligence agency assesses the improper 
release of which would cause some damage to the United States.
    I can't answer the question beyond that without going into 
the specifics of the emails, which I can't do in an open 
setting.
    Chairman McCaul. I know we can't talk about what special 
access programs were on these emails in the server. You and I 
know how sensitive they are. I hope and pray that they were not 
compromised.
    With that, the Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Director Comey, as America's top cop, I want you to 
appreciate my question as it relates to the access to guns in 
this country by dangerous people. The International Association 
of Chiefs of Police, the Major Cities Chiefs Association, and 
other groups representing law enforcement are supportive of 
sensible gun laws, including the broadening of background 
checks, and I am talking about the Charleston loophole. We are 
told that, with the 3-day requirement, that if your department 
hadn't completed the check, that person can automatically get a 
gun. What are your thoughts on that loophole?
    Mr. Comey. Well, thank you, Mr. Thompson. I can answer 
factual questions. The Bureau does not get involved in 
policymaking or recommending legislation, so that is--issues 
like that should be directed to the Department of Justice.
    The way that the law works is, after 3 days, if we have not 
denied the transaction by finding some prohibition, the 
retailer may transfer the weapon. Now, large retailers like 
Walmart will not, they wait for an affirmative clear from the 
FBI, but smaller retailers, for economic reasons that I 
understand, will frequently transfer in the absence of a no, 
and so that is what happened in Charleston.
    Mr. Thompson. So I guess your testimony is smaller 
retailers, because of capacity or otherwise, sometimes approve 
purchases of guns, like in the Charleston incident, that, under 
normal circumstances, would have been--that individual would 
have been prevented from purchasing that gun?
    Mr. Comey. Right. The case in Charleston was that killer 
should not have gotten access to that gun because there was 
documented evidence that he was a drug user. At a larger 
retailer, as a matter of discretion, they would not have 
transferred the gun until they heard back affirmatively it is 
OK from the FBI. The smaller retailers, because each individual 
sale may be more important to them than a bigger company, will 
likely transfer. That is the most common case.
    Mr. Thompson. Thank you very much.
    Secretary Johnson, you have stated that we must make it 
harder for a terrorist to acquire guns in this country. A lot 
of us are concerned about the assault-style, military-grade 
weapons, which generally is a weapon of choice for, like, 
Orlando and other situations. Have you thought how Congress 
could make it harder for these international or domestic 
terrorist individuals to acquire guns?
    Secretary Johnson. Yes. I believe that, consistent with the 
Second Amendment, as interpreted by the Supreme Court and 
consistent with a responsible gun owner's right to own a gun, 
we can and we should make it harder for a terrorist to obtain a 
gun to commit a terrorist act. There is legislation now in 
Congress, sponsored by Senator Feinstein and others, and then 
there is an alternative approach, sponsored by Senator Collins 
and others, that would give the Attorney General added 
discretion to deny a gun purchase if somebody is on one of the 
various lists. I think that that is a sound approach. I think 
that we should provide the Attorney General with that added 
discretion, along with some form of an adjudication process to 
adjudicate the denial if the attempted gun purchaser chooses to 
do so.
    So I think that--I encourage Congress to wrestle with this 
issue, wrestle with these proposals, because I think that it is 
not just a matter of public safety that we do this, it is now a 
matter of homeland security that we make it harder for a 
terrorist to acquire a gun.
    Mr. Thompson. Thank you.
    Director Comey, your website: ``Don't Be A Puppet''. I 
understand that you established this to educate school-age 
children about the threat of violent extremism. Not 
surprisingly, law enforcement officers have looked at it also.
    Can you tell me how that website has--has it accomplished 
what you wanted to? Are there some other things you would like 
to do to get the community engaged in helping identify some of 
these extremist groups?
    Mr. Comey. Thank you, Mr. Thompson. The website ``Don't Be 
A Puppet'' is designed in a way we hope will be more attractive 
for kids, who are looking for something a little cooler than 
the FBI normally throws out, to explore the ways in which 
extremist groups, both radical Islamic groups and other 
extremist groups, might try to recruit them or lure them. So it 
is a series of games and interactive events on the website that 
allow them to go in and explore and learn from it.
    We have gotten great feedback from around the country. We 
invited a lot of people to give us input before we rolled it 
out. We have gotten great feedback from teachers especially 
that they like it, that the kids--the kids, I think their grade 
for us is about a B. They think we could be a little cooler, 
but we have stretched as far as we could stretch right now in 
the coolness department, and it is--we are getting great 
feedback. So we will continue to watch it and see.
    There are plenty of other things we are doing. The 
Department of Homeland Security is doing a ton of things. There 
is always more we can do.
    Mr. Thompson. Thank you.
    Last question. Director Rasmussen, the attack in Bangladesh 
illustrates that ISIS will threaten Westerners outside of the 
Middle East. Are soft targets, such as cafes in Bangladesh or a 
club in Orlando, the new battlefield in which Americans should 
expect ISIS to attack? If so, what can the United States do to 
counter this type of terrorist activity?
    Mr. Rasmussen. Thank you, Mr. Thompson. I guess I would 
highlight two things that we can do to try to counter this kind 
of vulnerability when Americans are traveling or living 
overseas. The first is just being as open and transparent with 
the American people as possible about the risks we see in 
overseas locations. We work very closely with the State 
Department to provide them the intelligence they need to make 
sound, sensible judgments about travel warnings and travel 
alerts for Americans who are going overseas or living overseas.
    Beyond that, though, I would say our best hope is to work 
with local partners to buildup their capacity, to increase the 
capacity of local law enforcement, local military authorities 
to respond to and to prevent--local intelligence authorities to 
respond to or prevent these kinds of acts of terror. As you can 
imagine, if you think about all the different places around the 
globe where ISIL has been active, that is a mixed story. In 
some cases, we have very, very capable partners overseas with 
whom we can work very closely. In other cases, those partners 
have a lot of challenges and suffer from a lot of capacity 
deficits that we are going to have to work out over time.
    Mr. Thompson. Thank you. I yield back.
    Chairman McCaul. I thank the Ranking Member.
    The gentlemen from New York, Mr. King, is recognized.
    Mr. King. Thank you, Mr. Chairman.
    Let me thank all the witnesses for their testimony and for 
their service.
    Secretary Johnson, when you said you were--wondering what 
keeps you awake at night, I thought you were going to say it 
was testifying before Congress, because that would--again, 
thank you for your service.
    Director Comey, I would like to discuss Orlando with you, 
not for the sake of Monday morning quarterbacking but planning 
toward the future. The investigation was stopped by the FBI 
based on the criteria at the time that he did not seem at all 
sophisticated; he didn't know the difference between Sunni and 
Shia; didn't seem to have any formed ideology at all.
    Based on what we know now about the profile that ISIS is 
looking for--in some cases, the person who is deranged, the 
person who may be influenced by Islamist ideology, and whether 
or not he is Islamist himself, whether he even fully 
appreciates it--I would ask going toward the future, how long 
investigations can be kept open? I think basically it is a 6-
month investigation now, and then it either has to be stopped 
or get extended. Can there be an indefinite period where the 
local police would be brought more into it? I mean, obviously, 
you don't have the personnel to be carrying out surveillance 
all over the country or to be following people, but if you have 
local police, detectives, undercovers, informers, sources, if 
it could be handed off for a period of time to the local 
police, they can say: Here is a person who doesn't meet the 
threshold of terrorism. We don't have enough to keep a formal 
investigation open, but can you keep an eye on him, or can you 
report back to us on him?
    I am thinking like, for instance, in New York City, you 
probably have more cops than FBI agents in the whole country, 
or take Chicago, with a large police force, and others. So 
could better use be made of local law enforcement, and could 
these people who are in sort of a twilight zone between 
terrorism and maybe just being dysfunctional citizens, that 
local police could be really kept apprised, and they ought to 
in turn keep you apprised?
    Mr. Comey. Yes. Thank you, Mr. King. That is a very good 
question. The answer is I don't know yet, although we are 
having those conversations with our State and local partners.
    The way it works in the FBI is a preliminary investigation 
stays open for 6 months, and then it can be extended in the 
local field office for another 6 months. It can be extended 
after that; it just requires higher level of approvals.
    What happens with preliminary investigations is it is 
designed to figure out, is there anything here? If there is, we 
convert it to a full investigation. If the preliminary rebuts 
the initial allegation, then we close it.
    Our local partners have asked, is there some way that, in 
addition to us being on the joint terrorism task forces, where 
they see all the cases we open and close, is there something 
else we might be able to do to flag a person? That is a knotty 
question, but it is one that is a serious question, so we are 
working through that right now. I don't know, but it is worth a 
conversation.
    Mr. King. I also think in terms of the Boston Marathon 
bombing where the older Tsarnaev brother, you know, nothing in 
the preliminary investigation showed anything, but if the local 
police had been aware of it, they may have heard of what he was 
saying in the mosque, the fact that he was thrown out of the 
mosque for some of his conduct, and that could have, you know, 
reopened the full investigation.
    So, again, to the extent you can use local police, I think 
it is really essential, because they are really certainly an 
added element, and, again, they would have sources just by the 
nature of being local cops that may not be available at the 
Federal level.
    Secretary Johnson, I know that your Department has been 
aggressively exploring the use of social media. Can you give us 
the status of those efforts? Do you feel you have sufficient 
resources to do what you want to do as far as vetting, as far 
as employees, as far as immigrants to go forward?
    Secretary Johnson. We use social media for something like 
30 different purposes across the Department. We have expanded 
the use of social media when it comes to immigration reviews, 
immigration benefits.
    What I would like to do is build a centralized social media 
center for excellence, which will be housed in our National 
Targeting Center in CVP. We have a reprogramming request 
pending right now with Congress to help fund that. In the 
outyears, I would like to see Congress do a bit more to help us 
out with a centralized social media capability. Right now, a 
lot of that is done for USCIS, but as I am sure you know, CIS 
is a fee-based organization. So there are enough purposes for 
social media across our entire Department that I want to see 
this capability expanded and funded. So we have the 
reprogramming request now, and we could use more money in the 
future years.
    Mr. King. Secretary, I have been a supporter of DHS grant 
programs. I can tell you, though, on the floor of the Congress, 
there is concern among a good number of people about the CVE 
grants, that they may go to an organization like CAIR, which 
has been an unindicted co-conspirator and which I understand 
the FBI is still not allowed to deal with. Is there any 
assurance you can give us that those grants would not go to an 
organization like CAIR?
    Secretary Johnson. There will be a security review 
conducted with respect to each potential grantee before we 
grant out any money.
    Mr. King. But----
    Secretary Johnson. This is a new program. We just announced 
notice of the proposal out to the public, solicitation out to 
the public last week, but there will be a security review in 
connection with every grant.
    Mr. King. But being an unindicted co-conspirator in one of 
the largest money-laundering terrorist cases in the country, 
shouldn't that be sufficient grounds to deny a grant?
    Secretary Johnson. Without knowing the specific case, that 
seems likely, yes, sir.
    Mr. King. It was the Holy Land Foundation case. My 
understanding is the FBI still will not deal with CAIR because 
of that.
    Director Comey, is that true?
    Mr. Comey. That is correct.
    Mr. King. Thank you. I yield back.
    Chairman McCaul. The Chair recognizes Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I want to thank all of the gentlemen before us today for 
all the great work that you are doing.
    Secretary Johnson, in March, you came before our committee, 
and we were discussing the countering violent extremism 
mission, and we talked about having the Department of Homeland 
Security allowing some of those grants to be used to nonprofit 
organizations to help us in countering the fight and going 
after the fight against terror. I just want to thank you and 
compliment you, because I know that you are finding new and 
innovative ways to include those nonprofits that we have in our 
area. As you know, I have one of the largest Muslim and Arab 
communities in our Nation, so we work very closely with a lot 
of our nonprofits to keep an ear to the ground and to ensure 
that we are on the forefront of trying to eliminate any of this 
radicalization that has such a potential, as we saw in San 
Bernardino.
    I want to ask a couple of questions. The first would be, 
after 
9/11, we tried to share more information between local, State, 
and Federal agencies, especially in the intelligence gathering 
and sharing. So I wanted to ask you a little bit about, is that 
working? Are we going to open up more or eliminate more silos? 
What more can we do to ensure now, as we see really the front 
line of information, as we saw in Los Angeles, for example, 
when somebody saw something, phoned it in, and our local 
enforcement was able to get to some bomb-making materials and 
other things that a gentleman had, how can we help to ensure 
that information is shared, or is there enough going on at this 
point? I would ask any of you.
    Secretary Johnson. I will start. My general assessment is 
that we are doing much better now than we used to through JTFs, 
through joint intelligence bulletins, through fusion centers, 
through our own personal relationships working together. Jim 
and I, for example, had been on conference calls with literally 
hundreds of State and local law enforcement personnel to share 
what we are seeing here at a National level.
    In terms of the public's sharing information with us, that 
is a work in progress. It is almost always the case that when 
somebody self-radicalizes, there was somebody else that saw the 
signs. So we all from the homeland security perspective and the 
law enforcement perspective need to continue to encourage the 
public: If you see something, say something. But in terms of 
our own information sharing in law enforcement, I think we are 
on the right track, and I think we are much better than we used 
to be.
    Ms. Sanchez. Good. I have a question for you all with 
respect to my transit authorities. In particular, in Orange 
County, we run a large bus system. We are getting ready for a 
streetcar. Obviously, California is working on this high-speed 
rail. I have a two-prong question. The first would be, any 
guidance that these agencies should follow in making these new 
systems, because we are developing, especially this fixed rail? 
Anything that we should worry about with respect to cyber 
attack? Second, the biggest issue that my transit agency has 
are all of this attack from a cyber perspective. Every day, 
every day, people are trying to get into their systems, they 
are trying to, you know, really raise chaos. What can they do, 
or what would you suggest?
    Secretary Johnson. I would suggest that they work with our 
critical infrastructure protection experts within NPPD. The 
National Protection Programs Directorate, we have considerable 
expertise when it comes to rail security. TSA actually also has 
a rail security mission. But I have seen some fairly 
sophisticated analysis of how to build a secure rail station or 
a secure transit center that we can share with anyone who asks 
us.
    Ms. Sanchez. Any of--OK. I will submit the rest of--more 
detailed questions along this topic, and hopefully, we can get 
some answers for the record, because they are very concerned 
about these cyber types of situations going on. Thank you. 
Thank you all.
    Chairman McCaul. The Chair recognizes the gentleman from 
Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Director Comey, first of all, thank you for your many years 
of service to our country. It is appreciated by many 
individuals.
    I would like to ask you first about Syrian refugees. Before 
this committee last October, you testified that you had 
concerns about admitting Syrian refugees when a thorough 
background check was not possible; in fact, you called it a 
risk. Do you still have concerns about admitting Syrian 
refugees where you cannot conduct the thorough backgrounds, and 
do you consider them a risk now?
    Mr. Comey. Yes. Thank you, Mr. Smith. I think what all 
three of us said when we last talked about this together was we 
were comparing our ability to vet Iraqi refugees favorably with 
our ability to vet Syrian refugees. We have made great 
progress, and since we were last together, we have made even 
more progress at getting better at knowing what we know about 
anybody who is looking to come into the United States.
    The point I was trying to make then and I still believe is 
true is that we will know, certainly on average, less about 
somebody coming from Syria than somebody coming from Iraq, just 
given the United States' long-standing presence in Iraq.
    So there is no such thing as zero risk. The challenge we 
face is not being able to see as rich a picture about somebody 
coming from Syria as from Iraq.
    Mr. Smith. Right.
    Mr. Comey. I have stayed away from the policy question 
about whether it is a good idea or bad idea to let in refugees. 
That is not for the FBI. So my view of it is basically the same 
as it was last October.
    Mr. Smith. OK. Because you said last October, there is risk 
associated with bringing anybody in from the outside, 
especially from a conflict zone like Syria, my concern there 
about bringing Syrian refugees into the United States is that 
there are certain gaps I don't want to talk about publicly in 
the data available to us.
    So you stand by that statement----
    Mr. Comey. Yes.
    Mr. Smith [continuing]. There is a risk and you have 
concerns?
    Mr. Comey. Yes.
    Mr. Smith. OK. Thank you. Let me go to another subject. It 
doesn't have to do with terrorism, but it does have to do with 
National security. You testified before the Oversight Committee 
that former Secretary of State Clinton did not comply with the 
Federal Records Act, at least in some respects, and you were 
summarized as saying you thought she violated at least some 
aspects of the Federal Records Act.
    Under the Federal Records Act, I understand that anyone 
found guilty of willfully and unlawfully concealing, removing, 
mutilating, obliterating, destroying, or attempting to do any 
such action against a Federal record can be fined and 
imprisoned for up to 3 years. In addition to fines and possible 
imprisonment, anyone holding Federal office who is convicted of 
this crime can lose his or her position and be disqualified 
from holding Federal office in the future.
    If Mrs. Clinton violated the Federal Records Act, could 
these penalties apply to her?
    Mr. Comey. Mr. Smith, I do remember vividly my 4 hours and 
40 minutes before the committee last week. I don't think I 
testified about that we had found a violation of the Federal 
Records Act. In fact, our investigation focused on Classified 
information, whether it was mishandled or transmitted in ways--
--
    Mr. Smith. Well, here is your exact statement. You were 
asked if you thought Secretary Clinton complied with the 
Department's policies under the Federal Records Act. Your first 
sentence back was: ``I don't think so. At least in some 
respects, no.'' That was interpreted as your saying that she 
violated at least in part the Federal Records Act.
    Mr. Comey. Yes, I must--either I screwed that up or I was 
misunderstood. I thought I was answering a question about with 
respect to Department of State policy on their use of systems. 
I am no expert in the Federal Records Act, and that was not the 
gravamen of our investigation.
    Mr. Smith. Did you consider prosecuting her for violating 
the Federal Records Act?
    Mr. Comey. You said did I--did we consider that?
    Mr. Smith. Did you consider that?
    Mr. Comey. No.
    Mr. Smith. OK. Thank you, Mr. Comey.
    Thank you, Mr. Chairman. Yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
Rhode Island, Mr. Langevin.
    [Microphone issues.]
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank you and the Ranking Member for holding this 
hearing. [Audio malfunction] testifying before.
    Director Rasmussen, I was struck by your testimony that, 
speaking of degrading ISIL's capabilities and denying it access 
to fighters and resources, ``clearly, progress has been made in 
these areas.'' Yet in your very next sentence you state, and I 
quote, ``it is our judgment''--an example, ``ISIL's ability to 
carry out terrorist attacks . . . abroad has not to date been 
significantly diminished.''
    So how do you square these two statements? Is it the result 
of the residual foreign fighters that traveled there before the 
flow was staunched? Is it more because of the home-grown 
violent extremist problem? Or is there some other explanation?
    Mr. Rasmussen. Thank you for the question. I guess the way 
I would think about it is that we have always looked at ISIL as 
having multiple agendas, being a multifaceted organization. As 
we have talked about with this committee, they were in the 
business of trying to create and run a caliphate. As was in my 
testimony, I think we have made progress in diminishing some of 
their capacity to do that, shrinking the territory that they 
hold, denying them as rich a flow of resources as they had at 
the beginning of the conflict.
    But they have also got another prong to their agenda, and 
that is this effort to carry out or inspire or enable attacks 
at various places around the globe. That line of effort that 
ISIL is engaged in, we have had less success at diminishing 
their capacity in that area. As I said, we shouldn't be 
surprised because there isn't necessarily a one-for-one 
connection between success in our efforts in one area--denying 
them territory, constraining their resources--and success in 
this other area--diminishing their attack capacity.
    Is is obviously true that the greater success we have in 
shrinking their territory and as we shrink their resource 
picture, over time we will degrade their capacity. I was simply 
making the analytic observation that that may take time, and 
that not only is there a one-for-one correlation in progress 
across these two lines of effort, but there may be a 
significant lag as well.
    Organizations have proven that even when they are 
relatively small, operating in a clandestine way, and not with 
all the benefits of a State or a caliphate, can still carry out 
or direct complex terrorist attacks around the globe. So that 
is simply the distinction we are trying to make, is that there 
are multiple things going on with ISIL.
    Mr. Langevin. Thank you.
    So to the panel, as you all know, I am very deeply 
concerned about the issue of cybersecurity, something I have 
spent years on, and I share this with both the Chairman, as 
well as with the DNI, who in his recent threats testimony has 
time [audio malfunction] the threat that we face in this 
domain.
    So one of the frustrating aspects of cybersecurity, of 
course, for me and for many others, is the lack of reliable 
metrics. So for each of you, how do you measure how much the 
threat is increasing and what progress we are making in 
defending ourselves?
    So for each of you, I would be interested to know what 
metrics you personally rely on to make these assessments. How 
do you decide whether we are moving forward, treading water, or 
falling behind?
    Secretary Johnson. Congressman, the metrics that first come 
to mind for me in the DHS mission, we are building the 
capability right now in our Federal civilian .gov system to 
block intrusions into the system. So I measure the number of 
intrusions blocked. The last time I looked with E3A, Einstein 
3A, we had blocked well in excess of 500,000 in the Federal 
civilian system.
    I also measure our progress in cybersecurity by the number 
of private-sector entities, ISAOs, companies that we have 
signed up to share our automated information-sharing 
capability, and our progress in terms of getting Federal 
agencies on-line with our DHS capabilities.
    So those are 3 ways right there. I defer to the other 
witnesses.
    Mr. Langevin. Thank you.
    Director Comey.
    Mr. Comey. As you know, Congressman, it is an area that is 
not susceptible of a great set of metrics, but we look at 
essentially the demand for our services, complaints to our 
Internet Crime Complaint Center, the number of cases opened--
that is, referrals to us from the private sector or other 
Government agencies--as a proxy for the threat that we face. 
There are other qualitative measures, but those are the two 
that come to mind.
    Mr. Rasmussen. I have a somewhat narrower slice of this 
problem because I worry about it from the perspective of an 
international terrorist organization trying to develop a cyber 
capability. So there, the metrics I would look at is the amount 
of intelligence reporting we see over time that speaks to a 
terrorist organization's desire to gain that capability, to 
threaten the United States or other countries with that 
capability, and then also when they have been able to succeed 
at doing that.
    Thus far, I think it is generally true that this has been 
something that terrorist organizations aspire to do, but thus 
far, without as much success as they would have liked.
    Mr. Langevin. Thank you.
    I know my time has expired. I hope we can continue, though, 
to focus on this metric aspect so that we understand whether we 
are in fact making progress and not just rely on anecdotal 
evidence. But thank you for the work you are doing.
    I yield back the balance of my time.
    Chairman McCaul. The gentleman from South Carolina, Mr. 
Duncan, is recognized.
    Mr. Duncan. Thank you, Mr. Chairman.
    I would like to recommend to my colleagues that they view 
Senator Tim Scott's floor speech from yesterday. It is on his 
Facebook page. You can probably call his office to get a copy 
of it.
    I would like to provide, when it gets here, a copy of that 
speech for the record, Mr. Chairman.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
          Excerpt Submitted For the Record by Hon. Jeff Duncan
                          our american family
Congressional Record S5055, July 13, 2016.

    Mr. SCOTT. Mr. President, I rise today to give my second speech 
this week discussing the issues we are facing as a nation following 
last week's tragedies in Dallas, Minnesota, and Baton Rouge. This 
speech is perhaps the most difficult because it is the most personal.
    On Monday, I talked about how the vast majority of our law 
enforcement officers have only two things in mind: protect and serve. 
But, as I noted then, we do have serious issues that must be resolved.
    In many cities and towns across the Nation, there is a deep divide 
between the Black community and law enforcement. There is a trust gap, 
a tension that has been growing for decades. And as a family, one 
American family, we cannot ignore these issues because while so many 
officers do good--and as I said on Monday, we should be very thankful 
and supportive of all of those officers who do good--some simply do 
not. I have experienced it myself.
    So today I want to speak about some of those issues--not with 
anger, although I have been angry. I tell my story not out of 
frustration, although at times I have been frustrated. I stand here 
before you today because I am seeking for all of us, the entire 
American family, to work together so we all experience the lyrics of a 
song that we can hear but not see: peace, love, and understanding. 
Because I shuddered when I heard Eric Garner say, ``I can't breathe.'' 
I wept when I watched Walter Scott turn and run away and get shot in 
the back and killed. And I broke when I heard the 4-year-old daughter 
of Philando Castile's girlfriend tell her mother, ``It's OK, I'm right 
here with you.'' These are people. Lost forever. Fathers, brothers, 
sons.
    Some will say and maybe even scream: But they have criminal 
records. They were criminals. They had spent time in jail.
    And while having a record should not sentence you to death, I say, 
OK, then, I will share with you some of my own experiences or the 
experiences of good friends and other professionals.
    I can certainly remember the very first time I was pulled over by a 
police officer as just a youngster. I was driving a car that had an 
improper headlight. It didn't work right. And the cop came up to my 
car, hand on his gun, and said: Boy, don't you know your headlights are 
not working properly? I felt embarrassed, ashamed, and scared--very 
scared.
    But instead of sharing experience after experience, I want to go to 
a time in my life as an elected official to share just a couple of 
stories as an elected official. But please remember that in the course 
of 1 year, I have been stopped seven times by law enforcement 
officers--not four, not five, not six, but seven times in 1 year as an 
elected official. Was I speeding sometimes? Sure. But the vast majority 
of the time I was pulled over for nothing more than driving a new car 
in the wrong neighborhood or some other reason just as trivial.
    One of the times I remember I was leaving the mall. I took a left 
out of the mall, and as soon as I took a left, a police officer pulled 
in right behind me. That was my first time. I got to another traffic 
light, and I took another left into a neighborhood. The police followed 
behind me. I took a third left onto the street that at the time led to 
my apartment complex and then finally I took a fourth left coming into 
my apartment complex, and then the blue lights went on. The officer 
approached the car and said that I did not use my turn signal on the 
fourth turn. Keep in mind, as my colleagues might imagine, I was paying 
very close attention to the law enforcement officer who followed me on 
four turns. Do you really think that somehow I forgot to use my turn 
signal on the fourth turn? Well, according to him, I did.
    Another time, I was following a friend of mine. We had just left 
working out and we were heading out to grab a bite to eat at about 4 
o'clock in the afternoon. He pulls out, and I pull out right behind 
him. We are driving down the road, and the blue lights come on. The 
officer pulls me into the median, and he starts telling me that he 
thinks perhaps the car is stolen. Well, I started asking myself--
because I was smart enough not to ask him but was asking myself--is the 
license plate coming in as stolen? Does the license plate match the 
car? I was looking for some rational reason that may have prompted him 
to stop me on the side of the road.
    I also think about the experiences of my brother, who became a 
command sergeant major in the U.S. Army, the highest rank for an 
enlisted soldier. He was driving from Texas to Charleston and was 
pulled over by a law enforcement officer who wanted to know if he had 
stolen the car he was driving because it was a Volvo.
    I do not know many African-American men who do not have a very 
similar story to tell, no matter the profession, no matter their 
income, no matter their position in life.
    I also recall the story of one of my former staffers--a great guy, 
about 30 years old--who drove a Chrysler 300, which is a nice car, 
without question, but not a Ferrari, not a super nice car. He was 
pulled over so many times here in DC for absolutely no reason other 
than that he was driving a nice car. He sold that car and bought a more 
obscure form of transportation. He was tired of being targeted. Imagine 
the frustration, the irritation, the sense of a loss of dignity that 
accompanies each of those stops.
    Even here on Capitol Hill, where I have had the great privilege of 
serving the people of South Carolina as a U.S. Congress Member and as a 
U.S. Senator for the last 6 years--for those who don't know, there are 
a few ways to identify a Member of Congress or Senate. Well, typically, 
when you have been here for a couple of years, the law enforcement 
officers get to know your face and they identify you by face, but if 
that doesn't happen, then you have an ID badge, a license you can show 
them, or this really cool pin. I oftentimes said the House pin was 
larger because our egos are bigger. So we have a smaller pin in the 
Senate. It is easy to identify a U.S. Senator by our pin.
    I recall walking into an office building just last year after being 
here for 5 years in the capital, and the officer looked at me, full of 
attitude, and said, ``The pin I know, and you I don't. Show me your 
ID.'' I will tell you, I was thinking to myself, either he thinks I am 
committing a crime, impersonating a Member of Congress, or--or what? 
Well, I will tell you that later that evening I received a phone call 
from his supervisor apologizing for the behavior. That is at least the 
third phone call I have received from a supervisor or the Chief of 
Police since I have been in the Senate.
    So while I thank God I have not endured bodily harm, I have felt 
the pressure applied by the scales of justice when they are slanted. I 
have felt the anger, the frustration, the sadness, and the humiliation 
that comes with feeling like you are being targeted for nothing more 
than being just yourself.
    As the former staffer I mentioned earlier told me yesterday, there 
is absolutely nothing more frustrating, more damaging to your soul than 
when you know you are following the rules and you are being treated 
like you are not.
    But make no mistake--no matter this turmoil, these issues should 
not lead anyone to any conclusion other than to abide by the laws. I 
think the Reverend Martin Luther King, Jr., said it so well. Returning 
violence with violence only leads to more violence and to even darker 
nights, nights, to paraphrase, without stars. There is never ever an 
acceptable reason to harm a member of our law enforcement community--
ever. I don't want anybody to misinterpret the words I am saying.
    Even in the times of great darkness, there is light. As I shared 
Monday, there are hundreds--thousands of stories of officers who go 
beyond the call of duty. Ms. Taylor--whom I spoke about on Monday 
night--at the Dallas incident was covered completely by at least three 
officers who were willing to lose their lives to save hers. We have a 
real opportunity to be grateful and thankful for our men and women in 
uniform.
    I shared another story on Monday night as well, and while the one I 
want to tell you today does not involve a tragic loss of life, it does 
show support that meant a lot to me at the time it occurred. Prior to 
serving in the U.S. Senate, I was an elected official on the county 
level, State level, and a Member of the U.S. Congress. I believe it is 
my responsibility to hang out and be with my constituents as often as 
possible and to hear their concerns. At some point during my time as a 
public servant, I traveled to an event I was invited to along with two 
staffers and two law enforcement officers--all four were White, and me. 
When we arrived at the event, the organizer seemed to have a particular 
issue with me coming to the event. They allowed my two staffers to go 
into the event and seemed fine with allowing the two officers to go 
into the event, who both said they weren't going in unless I was going 
in. So in order to avoid a tense situation, I opted to leave because 
there is no winning that kind of debate ever. But I was so proud and 
thankful for those two law enforcement officers who were enraged by 
this treatment. It was such a moment that I will never forget and a 
situation that I would love to forget.
    This situation happens all across the country. This situation 
happens all across the country whether or not we want to recognize it. 
It may not happen a thousand times a day, but it happens too many times 
a day, and to see it as I have had the chance to see it helps me 
understand why this issue has wounds that have not healed in a 
generation. It helps me to appreciate and to understand and helps me 
communicate why it is time for this American family to have a serious 
conversation about where we are, where we are going, and how to get 
there. We must find a way to fill these cracks in the very foundation 
of our country.
    Tomorrow I will return with my final speech in this three-part 
series on solutions and how to get to where we need to go by talking 
about the policies that get us there and the people solutions because 
I, like you, Mr. President, don't believe that all answers are in 
government. I don't believe all the solutions we need start in 
government, but we need people doing things that only individuals can 
do.
    Today, however, I simply ask you this: Recognize that just because 
you do not feel the pain, the anguish of another, does not mean it does 
not exist. To ignore their struggles--our struggles--does not make them 
disappear; it simply leaves you blind and the American family very 
vulnerable. Some search so hard to explain away justice that they are 
slowly wiping away who we are as a nation. We must come together to 
fulfill what we all know is possible here in America--peace, love and 
understanding. Fairness.
    Thank you, Mr. President.

    Mr. Duncan. Senator Scott talks about his experiences as an 
African American male and some of the things we are dealing 
with in this country. As a white man, I can't relate to that, 
so I need those experiences from Senator Scott and others. So I 
would encourage everyone to watch it, because I think it is 
important in the dialog that we are having.
    The Ranking Member mentioned no fly, no buy, and asked the 
Secretary about that. The problem with that, it seems common 
sense, but the problem with that is no one can substantially 
tell us how someone gets on the no-fly list or, when it is 
adjudicated, how they get off the no-fly list with any complete 
understanding from Members of Congress, and we have asked.
    Because especially on someone's suspicion that somebody 
might be involved in or future involved in an act of terror or 
crime, when we are talking about the Second Amendment, we need 
to realize that no fly, no buy also violates the Fifth and 
Sixth Amendment guarantees of due process. So how do you get on 
it? Do you have a chance to view the charge and interview the 
witnesses, hear testimony, defend yourself?
    So we need to be cautious when we start delving into 
limiting our Second Amendment rights by also limiting our Fifth 
and Sixth Amendment rights.
    Secretary Johnson mentioned in his opening statement, 
written and verbal, San Bernardino and Orlando. We also need to 
remember that ISIS and al-Qaeda, Islamic, radical Islamic 
jihad-inspired terrorism acts incurred at Fort Hood, 
Chattanooga, Little Rock, the beheading in Oklahoma, Boston 
Marathon, and there are others. Those are what I came across 
just off the top of my head. These were ISIL-inspired acts of 
terrorism here in the United States.
    I don't believe that we can throw Charleston into the same 
mix. I believe that was a law enforcement issue. I don't 
believe that guy was inspired by any outside groups like ISIL 
in the realm of radical Islamic terrorism.
    So the question I have for Secretary Johnson, and I get 
this in my district all the time, we use and the title of the 
hearing uses ``ISIS,'' the Islamic State in Iraq and Syria, 
right? The administration uses ``ISIL,'' and I fully understand 
the Islamic State in Iraq and the Levant. Why? Why is that 
terminology used by the administration?
    Secretary Johnson. I have used ISIL, I have used ISIS, I 
have used Islamic State, Secretary Kerry uses Daesh, the press 
uses different phrases. We generally refer it to as ISIL, but 
not exclusively. There is no hard and fast rule.
    Mr. Duncan. OK.
    Secretary Johnson. The Secretary of State uses a different 
word.
    Mr. Duncan. The reason I ask that question is because since 
2001 and since the 9/11 Commission Report came out, we have 
seen, especially under this administration, the disappearing 
language of terror, where words related to Islamic jihad have 
been stripped from the lexicons of DOD, of law enforcement 
here, and the Homeland Security Committee, we have had hearings 
where we have talked about the disappearing language of terror.
    I believe, and many others in the intelligence community 
that I have talked to, many others in the defense industry say 
if you can't identify an enemy, it is very difficult to defeat 
the enemy. I want to make sure that we are talking about things 
in the right terms. If I am using the wrong term, I want to 
know. But I will say that what we see in this country with 
these acts in San Bernardino and Fort Hood is radical Islamic 
jihad, radical Islamic terrorism. So I want to make sure we 
talk about that.
    Your Department was set up in 2003, 22 agencies combined, 
but when I go through the list of folks that are dealing with 
counterterrorism in this country, we have got the Department of 
State. We had a hearing yesterday in the Foreign Affairs 
Committee where the Department of State has the former Center 
for Strategic Counterterrorism Communications, now known as 
Global Engagement Center. They have got a couple other offices 
at the Department of State dealing with counterterrorism.
    So we have got DOD fighting ISIS, and also with SOUTHCOM 
and AFRICOM, all dealing with elements of ISIS and al-Qaeda and 
other terrorism. NCTC, we have got the Director here. We have 
got JTTFs all over the country. We have got the National 
Targeting Center looking to make sure that our container 
shipping is safe.
    Now we have got this at Department of State. We have got a 
lot of elements within the Department of Homeland Security 
looking at, whether it is ISIS in general, whether it is border 
security, whether it is the virtual sphere of Dabiq and Inspire 
and Twitter and Facebook and all that, we have got the dark 
web. So we have got all those multiple agencies trying to do 
the same mission.
    Are we not too big? The 9/11 Commission Report pointed out 
the walls of separation between agencies and that information 
wasn't shared. That is the reason your agency was set up.
    Help me assure the American people, Mr. Secretary, that 
because of all this, Department of State, your agency, and 
every element that I mentioned, that we are not creating 
another cumbersome large bureaucracy where we are not sharing 
information and that things might fall through the cracks. Help 
me assure the American people of that.
    Secretary Johnson. Congressman, my top priority, since I 
have been Secretary, is management reform, removing the 
stovepipes just within the Department of Homeland Security. 
Through our Unity of Effort initiative, I think we have come a 
long way in doing that.
    Two thousand two was the largest realignment of our 
Government to create my Department since the creation of the 
Department of Defense. It is a work in progress, but I think 
that through a number of the reforms we have put in place since 
I have been Secretary, we have moved a long way in the right 
direction.
    Speaking, I think, for all of us, I think we all do a much 
better job of connecting the dots, sharing information where we 
should. Every incident, every attack is a lesson learned from 
which we should draw lessons. But I think we are moving in the 
right direction. I think we have come a long way, sir.
    Mr. Duncan. Thank you for that. This committee was set up 
to oversee you and your agency so that those walls will come 
down and we don't miss signals.
    Mr. Chairman, thanks for the leniency, and I yield back.
    Chairman McCaul. The Chair recognizes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman and the Ranking Member, thank 
you so very much for this hearing and the combination of 
outstanding Americans who serve this Nation.
    Let me thank all of you for your service.
    I will not predict, Secretary Johnson, that this is your 
last moment to testify in this committee, but I will say to 
you, thank you for your service. You may be going on and on and 
on, we do not know, but we thank you for your service.
    We live in difficult times, and I believe that we should be 
a partner with you. Even as we have the stovepipes of the three 
branches of Government, I take the responsibilities of the 
Homeland Security Department, the Department of Justice, FBI, 
Mr. Rasmussen, your work, very seriously.
    Because we have used the name Homeland Security so often, I 
have my own nightmares that as things proceed, the Nation will 
look to the Homeland Security, to the elements of Justice, and 
ask the question why. I would like to be able to at least 
answer that we did everything that we could probably do.
    Let me start with you, Mr. Director, and let me ask the 
Chairman to ask unanimous consent to put into the record 
``Strengthening the Federal Cybersecurity Workforce.''
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
           Strengthening the Federal Cybersecurity Workforce
July 12, 2016, Shaun Donovan, Beth Cobert, Michael Daniel, Tony Scott
Summary: As directed by the Cybersecurity National Action Plan and 2017 
Budget, today we are releasing the first-ever Federal Cybersecurity 
Workforce Strategy.
    Today the Administration is directing a series of actions to 
identify, recruit, develop, retain, and expand the pipeline of the 
best, brightest, and most diverse cybersecurity talent for Federal 
service and for our Nation.
    Every day, Federal departments and agencies face sophisticated and 
persistent cyber threats that pose strategic, economic, and security 
challenges to our Nation. Addressing these cyber threats has required a 
bold reassessment of the way we approach security in the digital age 
and a significant investment in critical security tools and our 
cybersecurity workforce. And these threats demand that we continue to 
enhance the security of the Federal digital infrastructure and improve 
the ability to detect and respond to cyber incidents as they occur. 
That is why, in 2009, President Obama initiated a comprehensive 
strategy to confront this ever-evolving challenge. The strategy brings 
all levels of government together with private industry, academia, 
international partners, and the public, to raise the level of 
cybersecurity in both the public and private sectors; deter and disrupt 
adversary activities in cyber space; improve capabilities for incident 
response and resilience; and enact legislation to both incentivize and 
remove legal barriers to cybersecurity threat information-sharing among 
private entities and between the private sector and the Government. 
While we have made significant progress, we must do more.
                             the challenge
    The Federal cybersecurity workforce has the exciting and 
challenging mission of protecting government information technology 
(IT) systems, networks, and data from sophisticated adversaries; 
safeguarding sensitive data; supporting our Nation's financial, energy, 
health care, transportation, and other critical systems; and securing 
our critical infrastructure and intelligence systems. However, the 
supply of cybersecurity talent to meet the increasing demand of the 
Federal Government is simply not sufficient. As part of a broad-
sweeping review of Federal cybersecurity policies, plans, and 
procedures, the Cybersecurity Sprint launched by the Office of 
Management and Budget last year revealed two key observations about the 
Federal cybersecurity workforce:
    Federal agencies' lack of cybersecurity and IT talent is a major 
        resource constraint that impacts their ability to protect 
        information and assets; and,
    A number of existing Federal initiatives address this challenge, 
        but implementation and awareness of these programs are 
        inconsistent.
    Moreover, this shortfall affects not only the Federal Government, 
but the private sector as well. Recent industry reports project this 
shortfall will expand rapidly over the coming years unless private-
sector companies and the Federal Government act to expand the 
cybersecurity workforce pipeline to meet the increasing demand.
                            the opportunity
    To address these and other cybersecurity challenges, earlier this 
year the President directed his Administration to implement the 
Cybersecurity National Action Plan (CNAP)--a capstone of more than 7 
years of determined effort--which takes near-term actions and puts in 
place a long-term strategy that builds on other cybersecurity efforts 
while calling for innovation and investments in cybersecurity education 
and training to strengthen the cybersecurity talent pipeline. As 
directed by the CNAP and the President's 2017 budget, today we are 
releasing the first-ever Federal Cybersecurity Workforce Strategy to 
grow the pipeline of highly-skilled cybersecurity talent entering 
Federal service, and retain and better invest in the talent already in 
public service. And it sets forth a vision where private-sector 
cybersecurity leaders would see a tour of duty in Federal service as an 
essential stop in their career arc.
    The Strategy establishes four key initiatives:
  <bullet> Expand the Cybersecurity Workforce through Education and 
        Training.--The Cybersecurity Workforce Strategy supports the 
        CNAP initiatives that propose investing $62 million in Fiscal 
        Year (FY) 2017 funding to expand cybersecurity education across 
        the Nation. This funding will lay the foundation needed to 
        ultimately address the shortage of cybersecurity talent across 
        the country. These initiatives include offering competitive 
        scholarships and covering full tuition for college and 
        university students through the CyberCorps: Scholarship for 
        Service program; collaborating with academic institutions to 
        develop guidance for cybersecurity core curriculum and allow 
        colleges and universities to expand their course offerings; and 
        providing program development grants to academic institutions 
        to hire or retain professors, adopt a cybersecurity core 
        curriculum and strengthen their overall cybersecurity education 
        programs.
  <bullet> Recruit the Nation's Best Cyber Talent for Federal 
        Service.--The Workforce Strategy initiates efforts to implement 
        a Government-wide recruitment strategy that includes enhanced 
        outreach efforts to diverse cyber talent--including women, 
        minorities, and veterans--from apprenticeship programs, 
        colleges, universities, and private industry, as part of a 
        comprehensive plan. Over the coming months we will partner with 
        agencies to find ways to streamline hiring practices consistent 
        with current statutes and leverage existing hiring authorities, 
        as appropriate, to quickly bring on new talent. We will explore 
        opportunities to establish a cybersecurity cadre within the 
        Presidential Management Fellows program that leverages the 
        recent success of the Presidential Innovation Fellows program 
        and other dynamic approaches for bringing top technologists and 
        innovators into Government service. Additionally, we will 
        explore opportunities to expand the use of new or revised pay 
        authorities that can serve as a model for future Government-
        wide efforts.
  <bullet> Retain and Develop Highly-Skilled Talent.--To improve 
        employee retention and development efforts, the U.S. Office of 
        Personnel Management (OPM) will work with Federal agencies to 
        develop cybersecurity career paths, badging and credentialing 
        programs, rotational assignments, and foster opportunities for 
        employees to obtain new skills and become subject-matter 
        experts in their field. Additionally, the Workforce Strategy 
        directs the development of a Government-wide cybersecurity 
        orientation program for new cybersecurity professionals to 
        improve information sharing and employees' knowledge of 
        upcoming developmental and training opportunities. The 
        Workforce Strategy also looks to increase the use of special 
        pay authorities, and improve training and development 
        opportunities for cyber and non-cyber employees.
  <bullet> Identify Cybersecurity Workforce Needs.--Cybersecurity is a 
        dynamic and crosscutting field, and effective workforce 
        planning requires a clear understanding of the gaps between the 
        workforce of today and the needs of tomorrow. The Workforce 
        Strategy directs agencies to adopt a new approach to 
        identifying their cybersecurity workforce gaps by using the 
        National Cybersecurity Workforce Framework developed by 
        National Initiative for Cybersecurity Education (NICE) partner 
        agencies, which identifies 31 discrete specialty areas within 
        cybersecurity workforce. Agencies are now able to better 
        identify, recruit, assess, and hire the best candidates with 
        specific cyber-related skills and abilities, and we are already 
        making progress in this effort. The Federal Government has 
        already hired 3,000 new cybersecurity and IT professionals in 
        the first 6 months of this fiscal year. However, there is 
        clearly more work to do, and we are committed to a plan by 
        which agencies would hire 3,500 more individuals to fill 
        critical cybersecurity and IT positions by January 2017.
    Cybersecurity is a shared responsibility among agency leadership, 
employees, contractors, private industry, and the American people. And 
the Workforce Strategy details numerous initiatives to harness this 
collective power and help strengthen the security of Federal networks, 
systems, and assets. To address cybersecurity challenges in the 
immediate future, the administration will invest in the existing 
Federal workforce through initiatives focused on training and retaining 
existing talent. At the same time, the Government will adjust the way 
it recruits, including the way it approaches talented students and 
potential employees in the cybersecurity workforce outside Federal 
service.
    We must recognize that these changes will take time to implement, 
and the Workforce Strategy's long-term success will depend on the 
attention, innovation, and resources from all levels of government. The 
initiatives discussed in this Strategy represent a meaningful first 
step toward engaging Federal and non-Federal stakeholders and provide 
the resources necessary to establish, strengthen, and grow a pipeline 
of cybersecurity talent well into the future.

Shaun Donovan is the Director of the Office of Management and Budget.
Beth Cobert is the Acting Director of the U.S. Office of Personnel 
Management.
Michael Daniel is Special Assistant to the President and Cybersecurity 
Coordinator.
Tony Scott is the U.S. Chief Information Officer.

    Ms. Jackson Lee. Thank you.
    In a speech on the 26th, Mr. Comey, before the Conference 
on Cyber Engagement, you indicated in terms of threats in the 
cyber world, there were 5 groups. That includes China, Russia, 
Iran, nations, North Korea, and then multinational cyber 
syndicates that deal with selling cyber information to the 
highest bidder. You then mentioned individuals who were 
purveyors of ransomware, then hacktivists, which we all contend 
with, and terrorists.
    Would you care to offer pointedly which of those gives you 
the greatest pain and what would you call on Congress to do 
about it in being a partner in this effort?
    Mr. Comey. I think the biggest concern are the top of that 
stack of badness, which are the nation-States and the near 
nation-State actors who are engaged in sophisticated computer 
intrusion aimed at our National security. That is a very, very 
important part of the FBI's life. Maybe tied, because of the 
impact on ordinary citizens, are the criminals that are using 
the internet to lock up people's systems, to extort money from 
them, to threaten their children. That is computer-enabled 
crime.
    So the biggest intrusion problem is the nation-States. The 
biggest computer-enabled crime problem are the variety of thugs 
and fraudsters and criminals who are coming at us that way.
    I think Congress has been very supportive of the Department 
of Homeland Security and the FBI, prodding us to work better 
together, to share information better with the private sector, 
which is the answer, and giving us the tools and the rules of 
the road to assure the private sector that you not only need to 
share stuff with us, we will all be safer if you do.
    Ms. Jackson Lee. Well, let me thank you for that. I am 
going to get around to that again, but I want to answer Mr. 
Duncan's question.
    First of all, I did see Tim Scott's very eloquent speech 
and thank him for his life experience. But I introduced the No 
Fly for Foreign Terrorists, and it answers Mr. Duncan's 
questions in terms of looking on the TSDB and making sure that 
past weaknesses have been addressed, asking the GAO to do that, 
and the extent to which existing vulnerabilities may be 
resolved or mitigated, making sure that you have a clean data 
list to be able to utilize. I hope that bill, it has passed at 
the House, will get to the Senate, and we will have at least a 
guideline to deal with.
    But I want to pursue the idea of cybersecurity from the 
perspective of another bill I have, H.R. 85, that says that we 
need a stronger relationship between the Government cyber 
system and the private sector cyber system, and also to have a 
back-up when either of us are deemed either vulnerable or 
incapacitated.
    Mr. Comey, what do you see in those alignments in making 
sure that we are secure from the private sector and the Federal 
sector based upon the breaches that we have had, FBI has been 
impacted, Department of Homeland Security has been impacted, 
the Office of Personnel has been impacted?
    Mr. Comey.
    Mr. Comey. I think we are making great progress. It is not 
good enough. It is nowhere near good enough yet. I think we are 
getting reports of somewhere in the area of 20 percent of the 
incidents actually happening. We have got to do better than 
that.
    I think businesses are starting to figure out that it is an 
imperative, a business imperative to work better with the 
Government, and I think the Sony hack sent that message in a 
great way to boards and to CEOs. So I would give it an interim 
grade of OK.
    Ms. Jackson Lee. May I ask these questions to Mr. Johnson 
and Mr. Rasmussen?
    Secretary Johnson, I have seen your work on countering 
violent terrorism. I have been engaged with the Muslim 
community very extensively and have them tell me how frightened 
they are now, and I have tried to say how much we are with you 
but how important it is to be part of this team. I would like 
you to share your thoughts about how that works.
    Mr. Rasmussen, let me throw you sort-of a curve ball of 
sorts and ask you about something called--because you deal 
collectively with police and you work on terrorism issues. I 
want to associate myself with Mr. Thompson. I think the 
individual--and my sympathy to my fellow Texans, the loss of 
those officers. I was at the memorial. But I do think that was 
a terrorist act. It was an individual intending to terrorize, 
it might have been hate, racial hate, using a weapon of war.
    There are a number of things happening. I bring to your 
attention swatting, which may wind up causing an enormous 
tragedy, that is being a manipulation of emails and breaching, 
and I just hold up, this is what is happening to people around 
the Nation. I think I am a victim of such from a person in 
Bangladesh that is happening to me personally in my home in 
Houston. I didn't understand what it was, but it is a dangerous 
phenomenon.
    So I am wondering whether or not that is to the attention 
of the National terrorism research and what you think we can do 
about it.
    Mr. Johnson.
    Secretary Johnson. Well, very quickly, ma'am, we need to 
continue to go to these communities. I have been to Houston. I 
have been to a lot of other communities. As we approach these 
communities, we have to remember that they are not a monolith. 
Islam is as diverse as Christianity. A Somali American 
community in Minneapolis looks very different from a Syrian 
American community in Houston. We encounter a fair amount of 
suspicion, as you have noted, when the Federal Government goes 
to these communities, but I think we have to keep at it and 
keep building bridges.
    Ms. Jackson Lee. Mr. Rasmussen.
    Mr. Rasmussen. Thank you for bringing this to my attention 
as well. We clearly are seeing an increase in the degree to 
which foreign terrorist organizations are using on-line 
technology in order to try to intimidate people, in order to 
try to put out target lists, to try to inspire individuals to 
go after law enforcement, intelligence officials, military 
personnel, et cetera.
    But at the same time there is also a great deal of focus in 
the criminal world on this capability, as well, and people 
trying to use the same capability to intimidate or to pursue 
some criminal end, as well.
    So what we try to do is discern as best we can the 
motivation between the act. If it ends up being something tied 
to a terrorist, a terrorist group, or a terrorist motivation, 
we approach it in a certain way, and it becomes much more of a 
law enforcement matter if it can be pursued as a criminal act. 
But it is something we are seeing much more frequently and 
something we are devoting a lot of work to trying and 
understand.
    Ms. Jackson Lee. Thank you.
    Mr. Chairman, may I just put another item in the record, 
``Cybersecurity and Crypto on the Internet.''
    Chairman McCaul. Without ojection, so ordered.*
---------------------------------------------------------------------------
    * H.R. 85 is available at https://www.congress.gov/114/bills/hr85/
BILLS-114hr85ih.pdf and has been retained in committee files.
---------------------------------------------------------------------------
    Ms. Jackson Lee. Thank you.
    Chairman McCaul. We have votes at 12:20. We have several 
Members left that would like to ask questions. I am going to 
try to limit everybody to 5 minutes from this point forward, if 
the gentlelady has completed her questions.
    Ms. Jackson Lee. I didn't have anything else.
    Chairman McCaul. In deference to other Members.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman McCaul. I appreciate that. Without objection, that 
is entered into the record.
    The Chair now recognizes Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    In November, December 2015, a report surfaced of ISIS and 
affiliated groups making and using fake travel documents to 
gain access to Western Europe and beyond.
    Is ISIS still producing and making use of these forged 
travel documents, Secretary Johnson?
    Secretary Johnson. It is a general concern. I am not sure 
how much more we can get into that in a public setting. Perhaps 
Nick could have more to say in a public setting. I am not sure 
how much more, though.
    Mr. Rasmussen. I think I would probably leave it there too. 
It is something we certainly have seen ISIL and other terrorist 
organizations looking to develop and use that capability. We 
are doing our best to understand that, the way they are using 
it, so that we can either advise our European partners, who 
face this in a much more frontline way than we do, but also to 
inform our own ability to detect false documentation at the 
border.
    Secretary Johnson. Congressman, I should add that within 
DHS we have a very sophisticated fraudulent detection 
capability when it comes to identification documents, travel 
documents. It is getting better all the time.
    Mr. Walker. Director Comey, around this same time late last 
year, Politico and AP reported that ISIS was taking advantage 
of the refugee crisis by providing forged travel documents to 
desperate individuals fleeing war and profiting from the 
practice.
    In addition to the profit motive, has the FBI seen evidence 
that ISIS is providing these documents to their own fighters 
for attacks abroad?
    Mr. Comey. Well, we certainly saw it in the case of the 
attacks in Paris and Brussels. I agree with what my colleague 
said, we know it is a part of ISIL's tradecraft. By the way, I 
think the name ISIL actually better captures the danger and the 
aspiration of this group of savages than ISIS does, because it 
is bigger than just Syria. But I would just echo what my 
colleagues said.
    Mr. Walker. As part of the United States' response to this 
threat late last year, we demanded action from 5 different 
European States and threatened to remove them from the Visa 
Waiver Program if no action was taken. What has the response 
been of those States, and what further steps have we taken to 
ensure our allies in Europe are vetting travel documents 
properly?
    Secretary Johnson. Congressman, I would have to know the 5 
specifically. We have, late last year, insisted on the use of 
e-Passports. We have insisted on the use of Federal air 
marshals on flights to the United States. We have insisted on 
better use of API/PNR data, that is travel data. We have, in 
general, sought what we refer to as HSPD-6s from these 
countries, Homeland Security Presidential Directive 6s, that 
guarantee security both within these countries in terms of the 
travel and travel to the United States, using the Visa Waiver 
Program as the entree into asking for those things.
    Mr. Walker. OK. What actions, Director Comey, has the FBI 
taken to independently identify and prevent travelers from 
using their forged documents?
    Mr. Comey. Well, obviously, working very, very closely with 
our colleagues at DHS, especially CBP, and, most importantly, 
our colleagues outside the United States to put in place 
tripwires so they share with us any intel they get that they 
may be looking to use a particular channel or particular type 
of document. So the most important thing we can do is remain 
knitted closely together.
    Mr. Walker. Secretary Johnson, do you have anything to add 
to that?
    Secretary Johnson. Yes. As I mentioned earlier, we have a 
fraudulent detection capability when it comes to travel 
documents. We are very concerned about fraudulent passports, 
fraudulent travel documents. As you noted, we have seen that in 
Europe.
    I should note that to travel to this country visa-free, you 
have to be a citizen of that country, in Europe, for example. 
But this is something we have been focused on it and it is 
something we are concerned about, sir.
    Mr. Walker. In wrapping up, let me pass along my 
compliments to Director Comey for the good testimony in another 
hearing the other day.
    I was impressed that for 4 hours and 40 minutes that you 
sat there without really any breaks.
    Secretary Johnson, I haven't seen the latest report. I 
don't know how many States are left to file on the ballot, I 
don't know where you are headed, but whatever it is, I wish you 
the best. So thank you.
    Chairman McCaul. The gentlelady from California, Mrs. 
Torres, is recognized.
    Mrs. Torres. Thank you, Mr. Chairman.
    Thank you to the three of you for being here and for the 
on-going outreach that you are doing in my community. Certainly 
the Middle Eastern community that resides within the 35th 
Congressional District truly appreciates the fact that you have 
made an effort to come out and help them through some very 
difficult times after the San Bernardino incident.
    I want to talk a little bit about the CVE grant. I want to 
get a better idea as to who qualifies and specifics of that 
grant. How is it going to be awarded? Are you looking at 
communities with populations of at-risk youth, young 
communities, big cities, small cities, types of population? 
What are the criteria that you are using for these grants?
    Secretary Johnson. Congresswoman, there is a 32-page notice 
of funding opportunity that went out last week for the $10 
million that Congress made available to us this year. We are 
hoping that Congress continues to fund our CVE efforts.
    The opportunities center around basically developing 
resilience, challenging the narrative--that is, ISIL's 
narrative--training and engagement, managing intervention 
activities, and building capacity. Those are the broad 
parameters. They are more specifically set forth in this 32-
page document, which I am happy to provide to you.
    Mrs. Torres. Would home-grown violent extremist people, 
would those targets fall under that grant, communities that 
could have a potential of these types of----
    Secretary Johnson. In general, yes, through intervention 
activities, through countermessaging. Countermessaging is not 
necessarily a Government mission.
    Mrs. Torres. Right.
    Secretary Johnson. Because it wouldn't be credible if it 
were, me or the FBI. Through basic resources to encourage 
people to move in a different direction. Broadly speaking, that 
is the intent of this, but it is more specifically spelled out 
in this circular.
    Mrs. Torres. Other than law enforcement agencies, who else 
is your Department coordinating with? For example, Department 
of Education. Are there other resources where you are acquiring 
data to ensure that we are maximizing this grant with other 
potential grants that could be available to be utilized in 
these communities?
    Secretary Johnson. Well, obviously, the grantees, those who 
apply for this funding are in a position to help. We will vet 
them carefully. We will make our grant awards carefully. So it 
is not just a law enforcement, homeland security mission. There 
are private local organizations that are in a position to help 
and I think that want to help.
    Mrs. Torres. On the issue of lone-wolf attacks that we have 
seen most recently, including law enforcement, there has been 
an increase in the number of threats against law enforcement 
personnel. In lieu of the two conventions coming up, how are 
you ensuring that the law enforcement community is prepared to 
deal with not just threats against the potential attendees, but 
threats against their own personnel that would be easy targets, 
easily identified?
    Secretary Johnson. We intend to have within Homeland 
Security some 3,000 of our personnel dedicated to the security 
of each convention. I am quite sure that the security of our 
own personnel is a priority for our component heads. I am quite 
sure that among State and local law enforcement, they too are 
concerned about threats directed against law enforcement. But I 
think the average law enforcement officer would be the first 
one to say that their primary obligation is the protection of 
the people they serve.
    Mrs. Torres. But they have to deal also with open carry in 
one of those cities, and that includes long guns and automatic 
weapons, correct?
    Secretary Johnson. Correct, yes. That is correct. Ohio, as 
I understand it, is an open-carry State.
    Mrs. Torres. Right.
    Secretary Johnson. So that obviously is something that 
someone under State law and I suspect the Second Amendment has 
a right to do. But it does present a challenging situation, 
very plainly.
    Mrs. Torres. Thank you. I yield back.
    Chairman McCaul. The Chair recognizes Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank all three of you for being here. We appreciate your 
attendance today.
    First of all, Director Comey, good to see you again. I saw 
you last week. Glad to have you back.
    I want to talk briefly about the Orlando situation and 
about the terrorist attack, obviously, that happened there, and 
I want to talk to you about it in relation to Secretary 
Johnson.
    My concern is communication. I am real big on 
communication. My question is this: What communication did the 
two of you have during that time? During the time that it was 
happening and immediately after it happened, was there any 
communication? What kind of communication takes place between 
all three agencies?
    Mr. Comey. Well, that last part of your question is the 
most important. It is vital that the people doing the actual 
work in our organizations talk to each other constantly, and 
they do because they are sitting together. The Joint Terrorism 
Task Force in Orlando, in all of our other cities is composed 
of some folks from Jeh's organization and mine. I don't 
remember exactly. I think the two of us actually hosted a 
Nation-wide call for all law enforcement in the wake of that.
    Mr. Carter. But certainly you communicated before that 
call?
    Mr. Comey. You know, I can't remember. I talk to Jeh quite 
frequently. It is possible I did. But I know for sure that we 
hosted--I think you were there, or you might have been on a 
SVTC someplace--we hosted a conference call for all law 
enforcement.
    But the most important thing, he and I know each other very 
well, talk to each other all the time. That is great. But it is 
very, very much more important that our people work together 
seamlessly. That is the progress we have made in the last 15 
years.
    Mr. Carter. You feel like that has worked well? You feel 
like there has been progress?
    Secretary Johnson.
    Mr. Comey. I do.
    Secretary Johnson. I do, sir. I do. Jim and I are together 
a lot, either in the Situation Room, at FBI headquarters, and 
the like. There have been instances where I will pick up a 
piece of intelligence that I am concerned about, and I will 
just literally pick up my Classified phone and call him to say: 
Hey, I want to be sure that you saw what I just saw.
    So the level of communication at the senior-most levels, I 
have my under secretary for intelligence and analysis right 
here behind me, Frank Taylor, who works with the FBI all the 
time, literally, on these types of threats.
    Mr. Carter. OK. Let's talk about Omar Mateen specifically. 
It is my understanding that there are over 1,000 open 
investigations into home-grown extremists right now. When did 
you first learn about Omar Mateen? When was the first time you 
learned about that?
    Mr. Comey. The Orlando killer first came to our attention 
in the spring of 2013 when coworkers at the St. Lucie 
courthouse reported to the FBI that he was making concerning 
statements, and that is when we opened the preliminary 
investigation.
    Mr. Carter. Secretary Johnson, when?
    Secretary Johnson. I am quite sure that while the FBI 
investigation was open, our personnel at the JTF were aware of 
the open investigation and aware of the identity of the 
individual. I noted also that while the investigation was open, 
he was on a TSA selectee list as well. So our departments were 
clearly coordinating and sharing that information.
    Mr. Carter. OK.
    First of all, all three of you appear to be fine gentlemen 
who truly want to protect our country, and we appreciate that.
    Director Comey, let me ask you, you defended the 
investigations into the Orlando killer--and thank you for 
correcting me on that--and I believe you said that there was no 
indication that agents missed clues that could have prevented 
this massacre. Is that correct?
    Mr. Comey. That is correct. I said that immediately after, 
after going through the case file. I couldn't see, actually 
still don't see, anything that they didn't do they should have 
done.
    But I have commissioned a lookback, a detailed scrub on it, 
which we do in all significant matters, by experienced people 
to come and say: Well, actually we should do this differently 
or that differently. I haven't gotten that report yet, and as I 
said at the time, I will be transparent when I get that report. 
But so far, I don't see anything.
    Mr. Carter. Was there any information, Mr. Secretary, that 
you think that Homeland could have helped with there?
    Secretary Johnson. Based on what I know, Congressman, I am 
not in a position to second-guess those involved in the 
investigation. I am quite sure that Jim's lookback will be 
thorough, and he will be open and honest and transparent about 
any lessons learned that I may be able to benefit from within 
our Department too.
    Mr. Carter. I appreciate you saying that, and we are going 
to hold you at that. We need to learn from this.
    Look, it is tough, and I know you have got a tough job, and 
it us going to take communication, cooperation. We are all in 
this together. I know that you gentlemen care about our country 
and you want to protect us. We have got to communicate. We have 
got to share information.
    You know, I am just one of those who believes, if somebody 
gets upset, they get upset, they will get over it. But we need 
to communicate.
    Thank you for your service.
    Mr. Chairman, I yield.
    Mr. Ratcliffe [presiding]. The gentleman yields back.
    The Chair recognizes the gentleman from Massachusetts, Mr. 
Keating, for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman. I have quite specific 
questions I will submit in writing.
    But this has been a pretty tough few weeks for our country; 
tougher for the families that lost loved ones. When I was a DA 
before this job, I was in charge of enforcing civil rights laws 
in my jurisdiction, and I tried preventative initiatives, some 
of them successful, I believe, and I enforced the law. I 
enforced it against civilians and I enforced it against law 
enforcement when there were violations.
    I also come from a police family. My dad, my brother, my 
niece either were or are police officers, and I understand that 
apprehension that families have as well.
    You know, we have spent today talking about terrorist 
threats, and we talked about cyber, our response capabilities, 
our intelligence gathering. But I think our fundamental 
strength as a country is who we are as a country, that we have 
central tenets on respecting diversity and respecting the rule 
of law. The polls that we are seeing now are showing that our 
country is more divided than it has been in decades, and this 
is a concern, I think, that all of us share.
    But if you could, it is the only thing I am going to ask 
you to reflect upon, but how important is it, for many reasons, 
but also for today's subject matter, to combat threats from 
inside and from outside? How important is it that we come 
together as a country?
    I want to commend you for the statements that you have made 
during these trying times. I think you set great examples. But 
how important is it when we talk about these threats that we 
are together as a country? Can you take a few minutes, I will 
give the rest of my time, to just reflect on some of things we 
could do?
    Secretary Johnson. Let me begin by saying that there are 
some awful loud voices on both ends of this debate, and I 
believe that the great majority of the American people, first 
of all, respect the role of law enforcement, recognize that the 
police officer is there to protect and to serve the community.
    I also believe that most people recognize that the shooter 
in Dallas is not representative of the broader movement to see 
change in certain law enforcement practices.
    I think that the key in the environment we are in is 
effective community policing. I see it work in my own community 
in Washington, DC, extraordinarily well.
    So my hope is that in this period we redouble our efforts 
for law enforcement to engage the community--and I consider 
myself part of law enforcement--to engage the community, and 
let's all see the temperature go down a bit.
    Mr. Comey. We need each other. Whether it is to effectively 
stop terrorists or stop thugs or make neighborhoods safe, we 
need each other.
    I have longed believed it is hard to hate up close. The 
answer is we have to get close to each other. We have to let 
people see the true heart of law enforcement, what we are 
really like. We are flawed because we are human, but we care 
deeply about the same things that the people we serve and 
protect do.
    We have to make sure in law enforcement we see the heart of 
the people that we are serving and protecting and how they 
might see the world differently than we do.
    It is hard to hate up close. It is easy to characterize 
groups. President Bush said something at the memorial service 
where I sat behind the Congresswoman, said: We tend to judge 
others by their worst moments and ourselves by our best 
intentions.
    We have to stop that and we have to try to see the true 
heart of people across the divide, because there shouldn't be a 
divide, because our values are the same.
    Mr. Rasmussen. I will just add one thing from a terrorism 
perspective. The people who work in all of our organizations 
who focus on counterterrorism spend every waking hour trying to 
prevent terrorist attacks from happening both at home and 
overseas. We have zero tolerance among ourselves for failure in 
that regard. Nobody thinks anything is acceptable in that 
regard.
    But failing that, if we fail, if somehow terrorist attacks 
happen, what we strive to create and foster is a sense of 
resilience so that the terrorist objective is not met even if 
the attack happens, even if we do suffer from terrorism.
    It is a lot easier to be resilient if we are united. It is 
much easier to fly off in the aftermath of a terrorist attack 
if we are not united and to undermine that sense of resilience. 
Some societies, some countries seem to be more able to achieve 
that level of collective resilience than perhaps we have been.
    Mr. Keating. Thank you. It is harder to hate up close, and 
it is easier to be strong up close.
    Thank you. I yield back.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair recognizes the gentlelady from Arizona, Ms. 
McSally, for 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman.
    Director Comey, I served in the Air Force to 26 years. I 
have had the highest level of security clearances and have been 
responsible for managing Classified information at many levels. 
As you know, we take handling of Classified information very 
seriously in the military, especially SCI and special access 
program information.
    During your press conference, you stated, quote, ``To be 
clear, this is not to suggest that in similar circumstances a 
person who engaged in this activity would face no consequences. 
And further, to the contrary, those individuals are often 
subject to security or administrative actions.''
    If an airman in the Air Force had conducted behavior 
similar to Secretary Clinton's, I am confident, at a minimum, 
they would lose their clearance, they would be kicked out, they 
would never get a clearance or be able to work for another 
Federal department or agency, in addition to other fines or 
anything else.
    If someone were kicked out of the military for behavior 
similar to Secretary Clinton and applied for a job at the FBI 
under your leadership, would they be hired?
    Mr. Comey. I don't think I can answer that in the abstract. 
It would be a significant feature of a suitability review, 
though.
    Ms. McSally. Would they even get an interview if they have 
had a security violation to the nature of what Secretary 
Clinton did?
    Mr. Comey. I can't answer that as a hypothetical. It would 
be a significant feature. I can't say whether they wouldn't get 
an interview or not.
    Ms. McSally. OK. If someone were dismissed from the State 
Department for similar behavior, you are going to give me the 
same answer, you have to look at their circumstances?
    Mr. Comey. Yes. But again, there would be--there is a 
process. You know it in the military. There is a robust 
process, I can speak inside the FBI, to assess suitability and 
then to assess and adjudicate security violations among current 
employees.
    Ms. McSally. OK. Within the FBI, under your leadership, 
let's say your chief of staff or your deputy director 
mishandled Classified information in the same way that you know 
about, what would be the security and administrative 
consequences that you would put upon them?
    Mr. Comey. Well, it would go through the regular review 
process that we have and it would be adjudicated. I don't want 
to, again, answer in hypothetical because we have to do this 
all the time. I don't want to prejudge any cases. But it would 
be looked at. It would be a significant security review. They 
could be fired, a sliding scale, all the way up to reprimanded, 
or lose pay, or there would be a series of disciplinary options 
for the board.
    Ms. McSally. You know more details about this case than 
anything. So now you are done with the criminal, and now you 
are looking at the administrative, what would you do?
    Mr. Comey. I am not prepared to say, because I think that 
gets me in an area of answering hypotheticals that could affect 
my own security review process. It would be a significant 
feature of a suitability and security review.
    Ms. McSally. So fines, losing their clearance, losing their 
job, what is on the menu?
    Mr. Comey. The most severe would be losing your job. Being 
walked out that day is probably the most serious. The least 
serious would be a reprimand of some sort. Then a sliding scale 
in between. People can get suspended. They can lose clearances. 
They can have clearances knocked down. There is a range of 
options.
    Ms. McSally. OK. I want to move on to physically how the 
Classified information got on an Unclassified system. You know, 
just in the military we have JWICS, SIPRNet, NIPRNet. You 
cannot cross those over in any way unless you either type in 
new information on the Unclassified, because you can't send an 
email from Classified to Unclassified. I am sure it is the same 
in the State Department.
    So you either need to type a new email with the markings on 
it, right, those that were marked Classified, which you said 
there were three, or you need to, I guess, print or scan, or 
the most disturbing would be using a transferable media device, 
like a thumb drive, to get onto the secure system and move 
things over to the unsecure system, which could breach our 
entire security system, as you know. That is why they are 
banned in the military.
    How, from your investigation, how did this Classified 
information get moved over out of those three options?
    Mr. Comey. Almost none of it involves information that was 
moved. Instead it involves email conversations about topics 
that are Classified.
    Ms. McSally. But if there is markings, you either are 
making a marking on an Unclassified system of a Classified 
nature, which is disturbing in and of itself, or you are 
physically moving it electronically.
    Mr. Comey. Right. There were three emails that bore portion 
markings on a paragraph, not header markings or footer markers, 
for ``C,'' to indicate confidential. That was put on well down 
a chain, deeper and much lower level in the State Department. 
As I sit here, I don't know for sure, I think we concluded that 
somebody had typed a talking point for the Secretary way down 
the chain and marked that portion with a ``C.''
    So it wasn't an uplift or a transfer. It was, as you said, 
a typing in the first instance and then putting a portion 
marking on it. But to be clear, it was just the portion that 
was marked, not the document.
    Ms. McSally. But still, on the Unclassified system, they 
are allowed to be transmitting Confidential information?
    Mr. Comey. No, because Confidential information is 
Classified information.
    Ms. McSally. Right.
    Mr. Comey. Top Secret, Secret, Confidential.
    Ms. McSally. Exactly. So they had to have actually typed 
``Confidential'' on an email chain or they used transferable 
media.
    Mr. Comey. We have no indication of transferable media. 
What we think happened is someone typed a talking point on an 
unclassed system and then, for reasons that don't make any 
sense to you and to me----
    Ms. McSally. Right.
    Mr. Comey [continuing]. Marked it with a ``C'' to indicate 
that portion was Classified at the Confidential level.
    Ms. McSally. OK. Director Comey, I am sure you realize that 
those of us who have been involved in the security field, like 
you, I mean, this is concerning on many levels that I think 
needs a lot of follow-up for how that actually happened and 
what is going to happen to the individuals that actually did 
that.
    Because if you are actually typing Classified information 
and markings on an Unclassified email, I mean, that is a 
security violation and those people should be held accountable 
as well.
    Thank you, Director.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul [presiding]. The Chair recognizes Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you, Chair.
    I want to thank the three of you very much for the 
information you shared with us and that you come every time we 
ask. It has been very illuminating, the discussion we have had, 
and it has raised some questions that I would like to share 
with you.
    No. 1, I wanted to talk to you, Secretary Johnson, you 
mentioned some grants that are available. I live in a district 
that is not part of the targeted area, the UASI area or things 
of that nature, but I live in an area that has a tremendous 
diversity of religious worshippers. Some of them have been 
asking us for assistance in grants that would help them to put 
things that would make them safer, be it cameras or whatever.
    Would the grants that are being offered now, available, 
would any of them qualify, even though they are not in the 
target areas?
    Secretary Johnson. Yes. There are grants for which a large 
number of religious institutions can take advantage of for 
homeland security. Sitting here, I can't recall the name of the 
grant program, but there is a grant program, which I think is 
about $50 million a year. It is a competitive grant program for 
houses of worship, religious institutions, for their own 
security.
    Mrs. Watson Coleman. Anywhere?
    Secretary Johnson. Anywhere.
    Mrs. Watson Coleman. Thank you. I will have someone to 
check with your office.
    Secretary Johnson. My recollection is that it is anywhere, 
yes.
    Mrs. Watson Coleman. Thank you. Thank you.
    I am interested in defining this, the individual that is 
radicalized by home-grown, home-developed, racist-oriented 
groups and then goes out and commits a crime that results in 
the loss of life to more than 1 person, more than 4 people. For 
instance, the Mother Emanuel situation, we understand that this 
gentleman had been radicalized or had been influenced by some 
groups--I don't know how you characterize them, I characterize 
them as racist--and that his intention was to start a race war.
    So, Director Comey, I believe that you characterized what 
happened as a hate crime and this individual as a violator of a 
hate crime. As you look at it now, is he also a terrorist? Does 
he legitimately fall into that category?
    Mr. Comey. I want to be very careful what I say about the 
Charleston killer because he has two death penalty trials 
coming up.
    I said at the time it was for sure a hate crime. As you 
know, when we investigate, it makes no difference what the 
label might be on it at the beginning, we investigate it in the 
same aggressive way. It was for sure a hate crime. What we are 
trying to untangle was, was there also some domestic terrorism 
element to that, the definition of domestic terrorism being 
acts of violence directed at other humans for the intention of 
coercing a Government or a civilian population.
    So we look at both when we investigate a case like that. I 
don't want to say at this point, given this pending trial, what 
we concluded there yet.
    Mrs. Watson Coleman. One of the concerns that I have is 
that there are people who are influenced by these groups that 
hate African Americans or hate Muslims or hate gay community 
members and have a political agenda to eliminate as many of 
them as they can.
    So to me, it would be very important to have resources in 
both, Director, in your hands as well as the Secretary's hands, 
to identify, to categorize, and to respond to and to develop 
programs that address that kind of terrorism. I am not certain 
that we do, because we keep talking about ISIL, ISIL this, ISIL 
that, but we don't necessarily drill down to these areas.
    So both you, Mr. Secretary, and you, Director, I would like 
to hear your thoughts on that.
    Mr. Comey. Well, what I would be happy to arrange for you, 
Congresswoman, is a briefing on the Domestic Terrorism Section 
of the FBI's Counterterrorism Division. Our Counterterrorism 
Division has two parts: International terrorism and domestic 
terrorism. We have an enormous amount of resources directed to 
understanding the threat from just those kind of groups, 
motivated by all kinds of bias and hatred to try and kill 
people or damage institutions.
    So I ought to arrange for you--we have people who wake up 
every day worrying about those groups and working with the 
Southern Poverty Law Center, working with other groups to get 
information on them so we can disrupt them.
    Mrs. Watson Coleman. So will you be sharing that 
information back and forth with Homeland Security, because they 
do present a threat to the homeland?
    Mr. Comey. Yes. We work them through our joint terrorism 
task forces. So it is part of the joint work we do together.
    Secretary Johnson. Congresswoman, the only thing I will add 
to that is the manner in which we approach and deal with 
communities, basically honest, peaceful communities, in which 
an international terrorist organization is trying to recruit, 
that is different from trying to approach an organization that 
by its mission doesn't want to deal with the U.S. Government 
and may have a violent purpose.
    So those require different approaches. One, I think, is 
more a matter for law enforcement. Another is, I think, more a 
matter of our community engagement efforts. So they are 
fundamentally different.
    Mrs. Watson Coleman. Just in closing, and there is also 
that third element that is not just anti-Government, but 
biased, racist, and what have you, and that represents a threat 
and a terrorist threat to communities that are nonviolent 
communities, that are peaceful communities. That is related to 
a political agenda and it does disrupt and impact individuals 
as well as government.
    Thank you very much. I yield back. Thank you.
    Chairman McCaul. Thank you.
    The gentleman from Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman.
    I appreciate all the witnesses being here today to talk 
about our National security.
    I want to start with you, Director Comey, and ask you about 
the decision-making process at the Department of Justice and 
the FBI regarding Secretary Clinton's private email server. You 
and I had the privilege to serve together at the Department of 
Justice, an organization whose reputation for integrity is 
something that I know we both care deeply about.
    After Attorney General Lynch and her husband met privately 
with Bill Clinton on a tarmac in Phoenix, she publicly 
acknowledged, in her words, that she may have cast a shadow 
over the integrity of the Department and the investigation into 
Mrs. Clinton's private email server, but then she didn't recuse 
herself.
    Now, I really can't imagine a situation, either in your 
prior service as the deputy attorney general of the United 
States or your current role as the FBI director, where you 
would find yourself having a private 30-minute conversation 
with the spouse of a target or subject of a pending Federal 
investigation a week before you made the decision or 
recommendation about whether or not to prosecute that person. 
But if you had been, is there any doubt in your mind about 
whether or not recusal would have been appropriate or 
necessary?
    Mr. Comey. That is a question I can't answer. I never 
discussed with the Attorney General how she thought about that 
issue. Each recusal situation, as you know, from being a U.S. 
attorney, is a difficult and fact-specific one, so hard for me 
to answer in the abstract.
    Mr. Ratcliffe. Were you surprised at her meeting with the 
former President?
    Mr. Comey. Well, I think she herself said that it was a 
mistake and something she wished hadn't happened, and that 
makes good sense to me.
    Mr. Ratcliffe. So did Attorney General Lynch's failure to 
recuse herself factor at all into your decision about holding a 
separate press conference or factor into the timing of the 
press conference that you held about the FBI's recommendation 
in the case?
    Mr. Comey. It had no impact on the timing whatsoever. That 
was driven by the case. It did have an impact and reinforced my 
sense that it was very important that the American people hear 
from the FBI on this issue and get as much transparency as 
possible, because I didn't want to leave a lingering sense that 
it wasn't doing in a professional, apolitical, honest way.
    Mr. Ratcliffe. You talked a lot about precedents and the 
lack of a precedent in connection with the decision in this 
case. Are you aware of any precedent in your time at the 
Department or at the FBI for an attorney general publicly 
stating that he or she would accept the recommendation of the 
FBI and its investigative team without any prior briefings 
about the evidence or a briefing on their conclusions about the 
evidence?
    Mr. Comey. I don't know of another circumstance like this 
that resembles this in any way, and I mean that in a variety of 
senses.
    Mr. Ratcliffe. Well, here is what I don't get, Director 
Comey. If Attorney General Lynch was going to accept the 
recommendation of the FBI, a recommendation that you made on 
July 5, then why was there a need for a meeting with her on 
July 6 when she announced her decision?
    Mr. Comey. I think what she said was she would accept the 
recommendation of the FBI and the career prosecutors. So the 
meeting, which I attended, was among the FBI team and the 
career prosecution team to lay out for her what we had found 
and for them to offer their legal analysis. So I think that was 
the embodiment of the recommendation that she then accepted.
    Mr. Ratcliffe. Then she would make the decision?
    Mr. Comey. Right. I think that is what she said and what 
she did.
    Mr. Ratcliffe. How long was that meeting? She said she met 
with you late in the afternoon.
    Mr. Comey. I think it was at least 90 minutes.
    Mr. Ratcliffe. Ninety minutes.
    Mr. Comey. My meetings all seem to be long these days. It 
was at least 90 minutes.
    Mr. Ratcliffe. So the person who wouldn't recuse herself so 
that she could make the final decision about the prosecution a 
week after she met privately with the spouse of the subject of 
the investigation took 90 minutes to weigh the evidence 
collected by more than 100 FBI agents over a year-long 
investigation involving thousands of man-hours. Is that 
accurate?
    Mr. Comey. The lawyer in me is objecting to the form of the 
question, but I will do my best to answer it.
    She got a brief, I think a pretty thorough brief on the 
facts and the law. As I have said to many folks, even though I 
know folks have strong feelings about this, this was not a 
cliffhanger from a prosecutive discretion position. My firm 
belief after doing this for 30 years is that no reasonable 
prosecutor would bring a case here.
    So I think she decided and it looked to me like 90 minutes 
was adequate to give her the picture she needed.
    Mr. Ratcliffe. In that 90 minutes, did she review the 110 
emails that you outlined as being either Top Secret, Secret, or 
Confidential that were on Mrs. Clinton's--sent or received on 
her email server?
    Mr. Comey. I don't think it is appropriate for me to talk 
about the specifics of that meeting.
    Mr. Ratcliffe. I don't want to know about the content. I 
just want to know whether she reviewed those emails at a 
minimum.
    Mr. Comey. I think that would be about the content of the 
meeting, though. Look, I am trying to be maximally transparent, 
as you can tell, in ways that are unprecedented. I don't think 
I should get that specific, though.
    Mr. Ratcliffe. Well, I do thank you. I am grateful for your 
service in the past, present, and in the future to our Nation.
    With that, I will yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
New Jersey, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I think I would like to get a couple of things out of the 
way before I start. I will say, Benghazi, Benghazi emails, and 
the tarmac meeting. Now to the serious business.
    Mr. Comey, Mr. Johnson, Mr. Rasmussen, let me just say I 
really want to thank you for your service to this Nation. I 
think, in the face of the odds that you have been up against, 
you have done an incredible job in your service to this Nation, 
and I thank you. I thank all of you.
    I have several questions that I would like to ask. You 
know, today is probably the last day before the House goes out 
for the summer, and there are just so many things that we have 
not done for the American people. You know, the Americans are 
looking to Congress to do something to address the availability 
of military-style firearms to dangerous people, and that has 
been our contention all along. I have always worried about what 
transpired in Dallas happening to our police departments all 
across the Nation. It was my biggest fear and nightmare. When I 
talk to the police departments that I have been involved with 
back in my district, this was always my contention, that these 
weapons would potentially end up being used against them.
    Secretary Johnson, you said that gun control is part and 
parcel of homeland security. Can you speak to how we can put in 
place sensible gun legislation in the way that will make this 
Nation secure?
    Secretary Johnson. In general, I believe that we should 
make it more difficult for a terrorist to possess a gun in this 
country, and I think that there are ways, on a bipartisan 
basis, we can agree upon legislation to do that. There are 
presently statutorily-prescribed bases for denying a gun 
purchase, which the FBI well knows about. What we lack right 
now is the discretion to deny a gun to somebody who meets 
certain specific criteria that matches one of our different 
lists. Legislation to do that coupled with a prescribed 
adjudication process--so that if the purchaser takes issue with 
the denial, they have the ability to challenge that--I think 
is, in general, a good idea. There is legislation pending in 
this Congress now to try to accomplish those things, and I hope 
that Congress continues to work at that.
    What I meant when I said--what I meant was that we have to 
face the fact that sensible gun control consistent with the 
Second Amendment is not just a matter of public safety; it is a 
matter of homeland security too when you look at San Bernardino 
and when you look at Orlando and the weapons that were used in 
those attacks.
    Mr. Payne. Right. Thank you.
    Director Comey, by law, the NCTC serves as the primary 
organization in the U.S. Government for integrating and 
analyzing all intelligence pertaining to counterterrorism, 
except for the information pertaining exclusively to domestic 
terrorism. Because of its lead status for counterterrorism 
investigations in the homeland, the FBI arguably serves the 
parallel role for the domestic terrorist threat. The 
development of any interagency regime for collection and 
analysis of domestic terrorism information might start with the 
Bureau's capacity in this regard. What resources have the FBI 
allocated and expended in the collection and analysis of 
domestic terrorism-related intelligence as well as for 
safeguarding civil rights as well?
    Mr. Comey. Well, as I said earlier, Congressman, it is a 
huge feature of the work of our counterterrorism division. We 
have hundreds of people who work on what we call the DT side, 
that is, at headquarters agents and analysis, and then, in 
every field office, there are agents and analysts who focus 
just on that domestic terrorism mission. So we have extensive 
resources devoted to it all over the country.
    Mr. Payne. Thank you.
    You know, Secretary Johnson, everybody is saying this is 
potentially the last time you will be before us. Are we safer 
now than we were when you started?
    Secretary Johnson. Good question. I think that the 
environment has changed fundamentally from where it was 3, 4 
years ago. My first 4 years in this administration in the 
Department of Defense, I was giving the legal signoff on a lot 
of targeted lethal force at terrorist organizations overseas to 
prevent them from exporting terrorism to our homeland, and I 
think we did a pretty good job of degrading a lot of the 
threats that we saw at the time. We continue to do that in 
places like Iraq and Syria.
    Now we have got to deal with terrorist-inspired attacks, 
terrorist-enabled attacks, people who live here, who were born 
here who are recruited, inspired by terrorist organizations 
through social media, and that is a challenging environment, 
and that can happen with little or no notice to our 
intelligence community, to our law enforcement community, which 
requires, in my judgment, a very different kind of approach, 
not just militarily, not just through law enforcement, but 
through our CVE efforts, through public awareness, public 
vigilance. I said in my opening remarks that the prospect of 
another attack by a self-radicalized actor, someone inspired by 
a terrorist organization is the thing that most keeps me up at 
night. So, in that respect, that is a new threat that we 
weren't dealing with on a regular basis as recently as 4, 5, 7 
years ago, and it is something that I hope that, in the 
Executive branch and in Congress, we will continue to dedicate 
ourselves to combating.
    Mr. Payne. Well, thank you very much. You will be missed. 
Thank you.
    Chairman McCaul. The Chair recognizes the gentleman from 
New York, Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Let me add my congratulations, gratitude for your 
commitment and dedication, the three of you, to the safety of 
our Nation. Because you come before us so many times, we have 
become very familiar with you. Jeh and Jim have been friends 
from back in New York for a very long time. One of you will 
appear before this committee again; one of you this may be your 
last appearance. Since I am up for reelection, I hope it is not 
one of my last appearances before this committee.
    The Chairman is very proud when he tells our Nation so many 
times that this committee has passed more legislation in this 
Congress than any other committee in Congress outside of Energy 
and Commerce. All of that legislation, most of that 
legislation, maybe all of that legislation, results from 
testimony before us from witnesses like yourself, your 
expertise, sharing with us your concerns.
    I have read all of your written testimony. Believe it or 
not, we actually do read that. Particularly, in Director 
Comey's testimony, he stresses that, in combating terrorism 
through social media, we are doing everything we can within the 
laws and in respecting people's privacies.
    Is there something that you see as a tool that would be 
helpful to each of you that either your legal teams are looking 
at that we can help you? What other tool can we give you that 
will make your job more effective as you respect the laws of 
our Nation, as you respect the Supreme Court's decisions, 
interpretations of our laws? What can we get out of this 
hearing today that, if we are able to pass legislation, will 
allow you to do your job more efficiently? I ask that for the 
three of you. I know the votes are in 15 minutes, so I want to 
get my colleagues to ask their questions as well.
    Secretary Johnson. Congressman, two things to come to mind 
immediately, one of which has already been passed out of this 
committee, specifically, authorizing joint task forces within 
my Department for border security. That is something that I 
know this committee supports and has been passed by the full 
House. I am hoping through one vehicle or another, it passes 
the full Senate as well. Joint task forces for border security 
help combat illegal immigration as well as narcotics, and there 
are certain legal limitations I am finding to fully 
implementing the joint task force concept for my Department.
    The second thing, which I have spoken to several of you 
about, is specific Congressional authorization to reorganize 
our National Protection and Programs Directorate into a cyber 
and infrastructure protection agency. We need an agency for our 
cybersecurity mission more closely aligned with the protection 
of our critical infrastructure, and that is something that I 
think will go a long way to streamlining our cybersecurity and 
critical infrastructure protection mission. So those are two 
things that come to mind immediately.
    I want to agree with what you said at the outset about how 
impressed I am with the productivity of this committee. Just in 
the time I have been Secretary, this committee has pushed out 
legislation on cybersecurity, aviation security that I think 
really has helped to strengthen the homeland. So thank you.
    Mr. Donovan. We want to continue to do so.
    Yes, Director.
    Mr. Comey. I will give you two quick ones. One is an 
enormous issue that this committee is thinking about, I think, 
in a good way. We have to deal with the challenge of encryption 
and its impact on our criminal justice work and our National 
security work. The needles we are looking for are becoming 
invisible to us in case after case after case, and that is a 
big problem.
    Second is a--seems like a small thing, but we have made it, 
I believe, accidentally harder in our National security 
investigations for our agents to use the process we use to get 
telephone information, to get similar information on the 
internet. The Senate is focused on this. I don't believe that 
it was intended by the legislation to make it that hard for us 
or is it justified by any reasonable concern about privacy. 
That is called the ECTR fix. We have got to fix that.
    Mr. Donovan. Thank you very much.
    Director.
    Mr. Rasmussen. I would just associate myself with Director 
Comey's remarks about encryption. As you noticed, I highlighted 
that in my opening testimony as well.
    Beyond the productivity of the committee that Secretary 
Johnson referred to with your legislation, I would also like to 
say that we in the Executive branch also take note of some of 
the staff-driven reports that have been produced on key 
substantive issues as well, like foreign fighter flows and 
whatnot, and I know we work closely with the committee staff to 
support that work, and it actually does assist us as well.
    Mr. Donovan. I thank you all.
    Mr. Chairman, I yield the remainder of my time.
    Chairman McCaul. I appreciate it. If I could just quickly 
comment, it is very important, these three major items: The 
commission to deal with encryption, we are hopeful the Senate 
will take that up and mark that bill up. That is critically 
important.
    Director Comey, you and I understand the gravity of this 
issue.
    NPPD, as the Secretary has requested, is being held up by 4 
other committees in Congress. That is a problem with the 
jurisdiction that I think needs to be fixed. Then, finally, on 
the border joint task force, it is my sincere hope we can add 
that into the NDAA bill, as I will be on the conference 
committee for that.
    So, with that, let me recognize Mr. Perry from 
Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to the country. We 
are all counting on you. I am thinking, with the Ranking 
Member's remarks about hearings in the late--well, early and 
late 1950's regarding the infiltration of communism into our 
Government, and I just want to reflect on that a little bit. 
Although the methods by most Americans were objectionable, in 
retrospect, the information was almost all completely accurate 
even though the individual, Senator McCarthy's, reputation was 
destroyed. We lost sight of what he was really talking about 
for the methodology, and we are just--I just want to beseech 
you that we are counting on your integrity and your diligence 
in keeping our country safe.
    With that, Director Comey, I don't know exactly how you 
characterized it, but you said recently that the FBI is 
ineligible for contact with CAIR? Maybe it is not ineligible. 
What is the terminology? You don't have contact with CAIR based 
on the Holy Land Foundation investigation and their ties to 
terrorist extremist organizations, mosques, et cetera?
    Mr. Comey. Yes. Our policy is that we will not do work with 
CAIR; that is, sponsor events, do joint events. If a CAIR 
representative happens to come to some other event that is 
being sponsored some other way, we don't kick them out, but we 
don't work, as we do with so many other groups, nonprofit 
groups, to sponsor activities with that group.
    Mr. Perry. So there are reports or conjecture at least that 
there was some involvement with the Bureau in the selection--
and CAIR in the selection of FBI witnesses to interview at the 
Fort Pierce mosque regarding the Orlando massacre. Is there any 
truth to that?
    Mr. Comey. I have never heard that.
    Mr. Perry. OK. So, at this point, you don't know anything? 
You have never heard that. You know anything about that. I 
think you would refute that, generally speaking----
    Mr. Comey. Yes.
    Mr. Perry [continuing]. Otherwise----
    Mr. Comey. I mean, I am sitting here, I guess anything is 
possible, but----
    Mr. Perry. Right.
    Mr. Comey [continuing]. I have not heard that, I have no 
reason to believe that that is true.
    Mr. Perry. OK. And----
    Mr. Comey. I would think that I would have heard that.
    Mr. Perry. All right. Thank you. If I can find a source for 
that, I will write you and ask for that particularly so we can 
get to the bottom of that.
    Mr. Johnson, in a recent Senate hearing, there was a CBP 
Officer that made a claim regarding the Department's ending or 
stopping the collection of data and the destruction of 
databases regarding Islamist supremacists that he believed 
might have been able to prevent the San Bernardino attack, and 
you said at the time, if I recall, that you hadn't looked into 
those charges. I am just wondering, in the intervening time 
period, have you looked into them, and do you plan to?
    Secretary Johnson. Well, the questioning 2 weeks ago from 
Senator Cruz was regarding the testimony of Mr. Haney that, 
across the Executive branch, we had somehow purged certain 
words in our dialog. That is what Senator Cruz asked me about. 
I had not heard about that before, and, frankly, given 
everything that is happening with Dallas----
    Mr. Perry. Sure.
    Secretary Johnson [continuing]. Orlando, Ataturk Airport, I 
have not had the opportunity to personally sit down and look 
into Mr. Haney's allegations, and I hope you can understand 
why.
    Mr. Perry. I do understand. I think it was regarding 
databases and connecting the dots, which would lead to another 
question. So it is not just about terminology. If you could, 
please, sir, take a look into that. I know you have got, at 
least by your clock, a limited amount of time left, and----
    Secretary Johnson. One hundred ninety days.
    Mr. Perry. But who is counting, right? I know you have got 
some significant issues right in front of you, but we would 
like to know the outcome of that questioning regarding the 
purging of those databases and the connecting of the dots, if 
you could, sir.
    Also, I think at the time, you said that you thought your 
personnel were smart enough to connect the dots between 
terrorism and things like Sharia adherence, jihad, and Islamic 
supremacism more generally, and I would agree with you. It is 
not a question of if they are smart enough. The question is 
whether it is a career-ending offense, as Mr. Haney might 
assert that it has been, and if there are constraints in those 
connections of the dots at your organization, if there is a 
policy of constraint.
    Secretary Johnson. What I was referring to 2 weeks ago was 
the work actually of those who work for the people at the table 
here with me. In my observation, NCTC, the intelligence 
community, my people, the FBI do an excellent job of working 
together to track terrorist threats, plotting against the 
homeland, whatever it is labeled. So what I said then, which I 
will repeat, is I don't think that our personnel become too 
bogged down in the particular label we choose to put on a 
terrorist actor. They are more interested in the substance of 
what that person is doing.
    Mr. Perry. I am not here to discuss the labeling. You and I 
have had that discussion before, probably have a bit of a 
disagreement, I accept that at this point, but what I am 
discussing and what I want to ask you directly, is there a 
prohibition, is there any policy toward the work that Mr. Haney 
was doing such that current individuals in your Department in 
particular would see that as somehow bad for their career, or 
they are dissuaded from doing, or they are prohibited from 
doing that?
    Secretary Johnson. My honest answer is I have not had an 
opportunity to look into exactly what Mr. Haney----
    Mr. Perry. OK.
    Secretary Johnson [continuing]. Alleges, though I gather he 
has written a book and he has been on TV.
    Mr. Perry. I haven't read the book, but----
    Secretary Johnson. It is something that I--it is something 
that I am interested in learning more about.
    Mr. Perry. So, regarding the database and regarding the 
previous question about the policy, could you give us a written 
response to that when you have time, assuming you have time----
    Secretary Johnson. Yes.
    Mr. Perry [continuing]. Before you leave?
    Secretary Johnson. Yes.
    Mr. Perry. Thank you, sir. I appreciate it.
    I yield back.
    Chairman McCaul. Mr. Katko from New York is recognized.
    Mr. Katko. Thank you, Mr. Chairman.
    I echo the sentiments of many of my colleagues on the panel 
here in thanking all of you for your fine service to this great 
country. Mr. Comey, I wasn't the hotshot you were at the time 
at the Department of Justice, but I served with you for many 
years as a Federal organized crime prosecutor, 20, as a matter 
of fact, and I have always admired your skill and grace. While 
I don't always agree with you on things, I do admire your 
service to our country, so I thank you.
    Now, Secretary Johnson, I want to--as my Subcommittee on 
Transportation Security, we have direct oversight over our 
airports both Nationally and internationally, and including 
last-point-of-departure airports, and as you know, one of the 
last-point-of-departure airports that is looking to be opened 
is in Cuba, and there are 10 of them, which is an 
extraordinarily large amount of last-point-of-departure 
airports. During our investigation in looking into this matter 
in our oversight capacity, many concerns have developed. No. 1, 
do the airports have the capacity to handle the 110 flights a 
day that are being contemplated to and from the United States; 
concerns about the equipment, you know, whether they even have 
body scanners or whether they are going to have body scanners, 
whether they are going to have document verification machines, 
whether they are going to have all the tools of the trade that 
we have here, explosive trace detection equipment and what have 
you? Those are all concerns we have.
    The training and vetting of employees is another area of 
concern, and a huge concern for us, especially with the insider 
threat, as evidenced in Sharm El Sheikh and Mogadishu with the 
downing of the airplanes.
    Canines is another area of concern.
    Another area of concern is whether the TSA is going to have 
access to these airports, given the embargo against Cuba and 
given the current state of the diplomatic relations.
    Overlaid with all that, Mr. Secretary, last year, Cuba was 
taken off the list of terrorist countries. One of their best 
buddies is still North Korea.
    Another thing that is a major concern to me is that Cuban 
visas are showing up in the Middle East. A Washington Post 
article from April 17 of this year, which I ask to be 
incorporated into the record, evidences that these visas are 
suspected to being produced in Iran and other countries.
    [The information referred to follows:]
          Article Submitted For the Record by Hon. John Katko
    kabul libre! one new afghan trail to the west goes through cuba
            By Tim Craig, April 17, 2016.
    KABUL.--With roads to Europe increasingly blocked by strict border 
controls, Afghans hoping to flee war and economic peril are desperately 
searching for new escape routes by way of refugee camps in India, 
airports in Russia and even the beaches of Cuba.
    The shifting travel plans--which are also seeing Afghans attempting 
to buy their way into Europe before leaving Kabul, through the purchase 
of visas--may signal the next phase in a migration crisis that is 
rattling world leaders and draining Afghanistan of its workforce.
    After a year in which hundreds of thousands of Afghans poured into 
Europe by land, more migrants are now trying to skirt hostile border 
agents and dangerous boat trips by flying to their destinations. As a 
result, although human smuggling was a booming industry in Afghanistan 
last year, criminal rackets that trade in visas may be reaping a 
windfall this year.
    ``People now are not willing to take great risks,'' said Tamin 
Omarzi, who works as a travel agent in Kabul's largest mall. ``They 
want to just travel with a passport, and don't come back.''
    Last year, along with more than 1 million refugees from Syria and 
Iraq, about 250,000 Afghans journeyed to Europe in hopes of securing 
asylum there. Many traveled through Iran and Turkey before crossing the 
Aegean Sea to Greece.
    Overwhelmed by the influx, European leaders have shown less 
sympathy for Afghans than for refugees from Syria and Iraq. Much of 
Afghanistan, they note, remains under the control of a Western-backed 
government.
    Last month, the European Union reached a deal with Turkey to send 
migrants back to refugee camps there, effectively severing the land 
route to Europe.
    Since then, travel agents in Kabul report that requests for visas 
to Iran and Turkey are down by as much as 80 percent compared with last 
year at this time. A United Nations report released Thursday also 
concluded that the flow of migrants from Afghanistan has slowed while 
``people reconsider destinations and subsequent optimal routes.''
    ``There is currently lower movement but no dropoff in the people 
wanting to go,'' said Alexander Mundt, assistant representative for 
protection at the U.N. refugee agency. ``They are just exploring their 
options, their means and the right moment to go.''
    Plenty of Afghans are still on the move, however, in a mass 
migration that is raising new challenges for immigration agencies 
across the world.
    Sulaiman Sayeedi, a travel agent in Kabul's middle-class Wazir 
Akbar Khan neighborhood, said there has been a surge in demand for 
flights to India, Indonesia, and Central Asian countries such as 
Tajikistan and Uzbekistan.
    Once they arrive, Afghan travelers often claim refugee status with 
the United Nations in hopes of being resettled. In India, for example, 
Afghan asylum applications have doubled in recent months, according to 
Mundt.
    Other Afghans are flying to Moscow, believing that from there they 
can cross into Ukraine or even Belarus and then move onward to E.U. 
countries.
    ``Some people are coming in and just asking for tickets to anywhere 
they can get to,'' Sayeedi said. ``They just want a better life, a more 
civilized, modern life.''
    To achieve that in the United States or Canada, Afghans may make 
Cuba their gateway to the Western Hemisphere.
    Over the past 2 months, travel agents in Kabul have been surprised 
by Afghans showing up at their offices with Cuban visas, which are 
suspected of having been issued in Iran or acquired on the black 
market.
    ``Ten or 15 people have come just since January asking for tickets 
for Cuba,'' Sayeedi said. ``And they are not staying there. The only 
option is to move forward, probably on to Mexico and then America or 
Canada.''
    Other agents in Kabul also report a spike in interest in Cuba, and 
U.N. officials in the northern Afghan city of Kunduz say they recently 
encountered a family with Cuban visas. Havana has been a way station in 
the past for South Asians hoping to transit to Central America and from 
there to the United States.
    Besides Cuba, some Afghans are attempting to land in South America, 
either to seek residency there or make the trip north toward the U.S.-
Mexico border.
    Rahimihi, a travel agent in Kabul's central Shar-e Naw district, 
recently booked flights for relatives who had obtained visas for 
Ecuador, as well as transit visas through Brazil.
    ``They first had to go to Pakistan to get the transit visa [from 
the Brazilian Embassy], and then left 2 weeks ago,'' said Rahimihi, 
who, like many Afghans, uses only one name. ``They want to go to 
Canada.''
    But central and northern European countries remain Afghans' 
preferred destinations, reflecting the widely held belief here that 
Germany, Norway, and Sweden are the most welcoming toward refugees.
    Mohammad Unus has been deported from both Italy and Turkey over the 
past 2 years while attempting to reach Germany. Now, for his third 
attempt, he's working with a local travel agent.
    ``Since Ashraf Ghani became president, all the people want to 
escape from Afghanistan,'' Unus said, reflecting widespread concern 
here that Ghani's promised economic reforms haven't materialized. 
``I've already spent $40,000 trying to get to Europe, and now I plan to 
sell my house to get there if I have to this time.''
    Such desperation is fueling the shady enterprise of visa dealing on 
the streets of Kabul.
    According to travel agents, Afghans are now paying dealers $15,000 
to $25,000 to obtain a ``Schengen visa''--a reference to countries that 
are part of the Schengen Agreement, which was drawn up to allow 
unrestricted movement among 26 European nations. The business continues 
even though seven of those nations, including Germany and Sweden, have 
re-imposed temporary border controls.
    The visa dealers work directly with rogue staffers at European 
embassies who issue the visas for a kickback, the agents claim.
    ``You never know who is doing it on the inside, but it's someone 
with a soft heart who is approving these documents,'' said Peer 
Muhammad Roheen, managing director of Air Gateway Travel and Tours in 
Kabul.
    One travel broker, who spoke on the condition of anonymity to 
discuss his sensitive business, said Afghans even with modest means are 
now turning to visa dealers because ``people now prefer to go by air to 
Europe directly.''
    ``If you got good contacts inside the embassy, you can get it done 
in 1 week,'' the broker said.
    When visa dealers fail to obtain valid visas, they sometimes turn 
to even more elaborate schemes, according to travel agents.
    Legal residents of Europe, for example, are being paid to travel to 
Afghanistan or Pakistan and then give their passports to Afghans with 
similar physical characteristics, said Mustafa, a travel agent in 
southwest Kabul who also uses only one name. The person who gives up 
the passport then claims it was lost or stolen.
    ``People will pay, and those short on cash will sell anything they 
have,'' Mustafa said.
    But U.N. officials question how many Afghans will be able to afford 
expensive options for fleeing.
    ``The people with that kind of money to spend are already gone,'' 
Mundt said, adding that many of those now trying to flee are poor and 
middle-class families. ``They may still have some means, but maybe 
$6,000 to invest and not $20,000.''
    The recent outflow of wealth and talent from Afghanistan has 
alarmed Ghani, who has been urging Afghans to stay home.
    But until stability returns, travel agents expect to stay busy 
planning one-way trips.
    ``For survival, people will do anything,'' said Roheen, who 
estimates that 30 percent of urban Afghan youths hope to leave the 
country. ``If they encounter a problem, then they will just try another 
option.''

    Mr. Katko. So we have that.
    Then you have the fact that airlines, like I mentioned, are 
being targeted by ISIS and that Cuba remains friends with North 
Korea, like I said, and many other concerns.
    We are doing the oversight. We wanted to go to Cuba. And as 
you well know, the Cuban Government, instead of opening their 
arms and having us come and look at the airports, denied Mr. 
McCaul's access to Cuba as well as mine and the Congressional 
delegation. Does that give you any concern?
    Secretary Johnson. Yes. I was disappointed that the 
Congressional delegation was not issued visas. The Chairman 
asked me if I could assist in that matter, and we tried, and we 
were unable to make that happen. So I am disappointed that the 
Cuban government did not----
    Mr. Katko. I thought you were all-mighty and all-powerful?
    Secretary Johnson. I am sorry?
    Well, but let me comment more generally, sir, on this last 
issue of point of departure from Cuba. What I have told our 
people in TSA is I want an assurance that any last-point-of-
departure airport from Cuba satisfies our U.S. screening 
standards, not just international screening standards. I have 
also told TSA that I want them to get with the Cuban Government 
and put in place agreements, MOUs, for Federal air marshals and 
hopefully make that happen before we start commercial flights, 
and I want to see a senior-level official from TSA headquarters 
personally go down to Cuba to take a look at the security at 
last-point-of-departure airports.
    We are very focused on last-point-of-departure airports, as 
I am sure you know, particularly in the Middle East region 
right now. I think we have some challenges there. Since the 
crash last year in the fall, I have asked our people to focus 
on airports in that region. We are not going to take our eye 
off the rest of the world, however. So, Congressman, this is 
something that I am personally focused on.
    Mr. Katko. I appreciate that. Now, let me ask just a 
follow-up on one of those questions. If the Cuban Government 
would disallow Federal air marshals on their flights to and 
from the United States to Cuba, would that be a deal-killer for 
Homeland Security?
    Secretary Johnson. I would have to assess it at the time. 
We don't have MOUs with every single last-point-of-departure 
country. We have a number of them now, and we are expanding on 
that list. I would have to assess it at the time.
    Mr. Katko. OK. One last thing, Mr. Chairman, one quick 
question. I have a bill that I submitted to Congress yesterday, 
the last--earlier this week about oversight with the Cuban 
airports, and it articulates all the concerns and the goals you 
have. The only other thing it has would be that GAO would do a 
follow-up review of the analysis to ensure it is accurate 
before the flights begin. Would you agree with that?
    Secretary Johnson. Yes.
    Mr. Katko. All right. Thank you.
    Chairman McCaul. The gentleman, Mr. Hurd, from Texas.
    Mr. Hurd. Thank you, Mr. Chairman.
    Before I begin my questions--and I am going to start with 
you, Mr. Rasmussen--I would like to make an FYI to the 
Secretary and the director. You probably already know, there 
has been a task force that has been created, being chaired by 
the Chairman of Judiciary and the Ranking Member, on looking at 
police accountability and aggression toward law enforcement, 6 
Republicans, 6 Democrats. We are going to try to do this in a 
bipartisan way. We are going to try not to retreat to the same 
tired corners and talking points on this issue, because the 
reality is, is whether the color of your skin is black or brown 
or your uniform is blue, you shouldn't be afraid of being 
targeted when you walk the streets in the United States.
    My good friend and fellow Texan Sheila Jackson Lee is on 
the committee as well as well as my friend Cedric Richmond from 
Louisiana, and we would welcome you all's perspective and 
number of years experience in your service to the Federal 
Government as we pursue this endeavor. It is hard to have a 
bunch of people together, you know, being in a bipartisan 
manner, but I think we can do it, because, guess what? Those 
folks that are trying to sow terror and fear in our hearts, 
they will not win, and they will not win, because this body is 
committed to doing this and we have folks like you all on the 
front line.
    Mr. Rasmussen, when I was chasing al-Qaeda when I was in 
the CIA, I would have loved for al-Qaeda to be using social 
media the way that ISIS is. It increases the surface area of 
attack where we can ultimately penetrate and understand the 
plans and intentions of groups like this. If you were an 
American walking around in the federally-administered tribal 
areas of Pakistan and said, ``I want to join al-Qaeda,'' you 
would likely get your head cut off, but now we are able to 
target people from the comfort of our homes.
    I am not asking to get into Classified information, but has 
our intelligence on the plans and intentions of groups like 
ISIS increased due to their use of social media?
    Mr. Rasmussen. There is no--I like your term the greater 
surface area that the group occupies because of its presence in 
all these ways. That certainly provides opportunity, 
opportunity in all kinds--measured in all kinds of ways for 
analysis, for operational work. That isn't my responsibility 
but belongs in the hands of other intelligence community 
partners. On net, though, I would describe our effort to gain 
an understanding of ISIL intentions and strategy and direction 
as being a harder target right now than what we faced with al-
Qaeda, and it attaches to a number of issues, the encryption 
issue that Director Comey has spoken so eloquently on, but also 
just the fact that ISIL is a savvy----
    Mr. Hurd. Right.
    Mr. Rasmussen [continuing]. Experienced adversary that 
knows who we----
    Mr. Hurd. So you bring up encryption. I guess this question 
is to Secretary Johnson. I am with you. I am glad you were able 
to mention the cyber and infrastructure protection agency. I 
think it is a critical tool. I agree with the Chairman and 
support this. We have to get it done now, because if we don't 
do it now, it is going to be years from now.
    I would like to add that the efforts that the Department of 
Homeland Security NPPD has done across the Federal Government 
in helping protect the digital infrastructure of our fellow 
agencies has been impressive.
    How important is the use of encryption to make sure that 
these other agencies are protecting the information that they 
do have on American people?
    Secretary Johnson. We are, through binding operational 
directives, which is an authority that was given to me by 
Congress, and other things, working with other Federal agencies 
to secure their own systems. This is a work in progress. I want 
to see not just the CIOs of each agency but the Cabinet heads, 
the agency heads----
    Mr. Hurd. Should they be using stronger encryption to 
protect digital information or weaker encryption?
    Secretary Johnson. It is hard to answer in general. I think 
we need to improve the security of our systems. I think that is 
the way I would answer it.
    Mr. Hurd. Director Comey, first off, your level of 
transparency on what the FBI knew or didn't know around the 
Orlando killer, I think, was impressive and was important for 
the American people to know and understand, and I commend you 
for that.
    One of the issues--and I recognize that the Orlando killer 
cased a number of locations, and it appears that, at many of 
those locations, there were private security. Is there a 
vehicle by which private security is able to--you know, if they 
see a suspicious activity report, does that go somewhere? Do 
these private security have training? Is there a way to 
integrate that kind of information into the JTTF structure, 
into local police? Your thoughts on that.
    Mr. Comey. Yes. I think it is--they are integrated. There 
are probably ways to improve it in both directions through 
their relationship with the local uniformed police. If they see 
something suspicious, either if they--even if they pass it 
informally, it is going to get to the JTTF right away. So my 
sense is it is pretty good through the local police.
    Mr. Hurd. Mr. Chairman, I would be remiss to not mention 
and have a comment on encryption. You know, I think it was one 
of your own employees, Director Comey, who mentioned that our 
civil liberties are the things that make our country great; 
they are not our burdens. I agree wholeheartedly with that, and 
I think that we should be focusing on how we strengthen 
encryption and not weaken it, and make sure that law 
enforcement and the private sector are not talking past one 
another but are actually working together. We also have to 
ensure that we continue to create a culture within the Federal 
Government that protects information and protects those secrets 
that so many people have worked hard to collect.
    Mr. Chairman, I yield back the time I do not have.
    Chairman McCaul. I thank the gentleman.
    The Chairman recognizes the Ranking Member for purposes of 
a closing statement.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    I yield to the gentlelady from Texas.
    Ms. Jackson Lee. I thank the Ranking Member, and I thank 
her for her leadership, and the Chairman.
    Let me quickly--I think my questions may warrant a one-
letter--one-word answer. In light of--and, again, Mr. Comey, 
thank you for your presence at the Dallas memorial. But in 
light of the existence of weapons of war on the streets, would 
you and your agents surmise and believe that law enforcement 
are less safe because AR-15s and others are still about in this 
Nation in civilian hands who may be doing wrong things, less 
safe?
    Mr. Comey. The more weapons in the hands of bad people, the 
less safe our people are.
    Ms. Jackson Lee. Second question is, with the career 
investigators and prosecutors who investigated former Secretary 
Clinton on the matters dealing with emails, is it my 
understanding and your understanding and confidence that you 
have completed the investigation as well as the Department of 
Justice?
    Mr. Comey. Yes.
    Ms. Jackson Lee. To your satisfaction?
    Mr. Comey. Yes. It was done in an apolitical, professional 
way. I am very proud of my folks.
    Ms. Jackson Lee. My last point is--I made a point about 
swatting. I would appreciate if you could refer me to one of 
your individuals at headquarters to be able to have that matter 
addressed as quickly as possible.
    I thank you so much very for your service. I know that 
America is going to be a better Nation because we are all 
working together in a unified manner.
    I yield back.
    Chairman McCaul. Let me just thank all three of you for 
your expertise. It has been very instructive to this committee. 
I want to thank you for your service on all three levels.
    FBI, the amount of terrorism you have stopped in this 
country astounds me, the job your agents do in arresting over 
80 ISIS followers since the beginning of the caliphate.
    To NCTC, for doing the intelligence fusion, which serves 
this Congress, I think, and the Executive branch so well.
    Finally, to Secretary Johnson, I think this will be your 
last testimony before this Congress. I think you think that 
that is for certain, but on a personal level, I have enjoyed 
working with you. I want to thank you for your service both to 
the Department of Defense, doing very important work targeting 
the threat where it exists, but also as Secretary of Homeland 
Security, you have truly served with honor and distinction, and 
we thank you for that.
    With that, this hearing stands adjourned.
    [Whereupon, at 12:39 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Ranking Member Bennie G. Thompson for Hon. Jeh C. 
                                Johnson
                      countering violent extremism
    Question 1a. Federal efforts directed at Countering Violent 
Extremism (CVE) often depend on Government agencies cooperating with 
local groups. The administration highlights a ``community-based 
approach'' for the Federal Government. According to the administration, 
the Federal Government most effectively acts as a ``facilitator, 
convener, and source of information.'' As such, to date the bulk of 
Federal-level CVE work has revolved around community engagement. The 
Department of Homeland Security has yet to release a CVE strategy; 
however, it has stood up an Office of Community Partnerships.
    Please detail some of the programs that this office will implement.
    Answer. The Office of Community Partnerships (OCP) is focused on 
partnering with and empowering communities by providing a wide range of 
resources to use in countering violent extremism. OCP does this by 
equipping State, local, Tribal, and territorial governments, community 
organizations and other partners with necessary information, grants, 
tools, and training to help them identify and counter radicalization to 
violence.
    OCP's major objectives include: Increasing access to grants for CVE 
initiatives, community engagement, tech-sector engagement to empower 
credible voices in communities vulnerable to violent extremism, field 
support training to better support local communities and law 
enforcement engaged in CVE efforts, and philanthropic engagement to 
facilitate long-term partnerships with communities.
    DHS released a comprehensive CVE strategy on October 28, 2016 which 
will also be provided to you.
    Question 1b. Will these programs extend beyond the current focus on 
Muslim communities?
    Answer. Violent extremism in all its forms poses a persistent and 
unpredictable threat to the homeland and may come from a range of 
groups and individuals, including domestic terrorists and home-grown 
violent extremists. As such, DHS has designed a countering violent 
extremism approach that addresses all forms of violent extremism, 
regardless of ideology, focusing not on political, cultural, or 
religious views, but on preventing violence.
    Question 1c. What resources will this office receive in terms of 
staffing and operating budget and will those resources be diverted from 
other programs and offices?
    Answer. For fiscal year 2016, the Office of Community Partnership 
(OCP) received $11.3 million and 12.5 full-time equivalent. This amount 
represents $3.1 million originally enacted and $8.2 million in 
transferred funds to OCP for Countering Violent Extremism activities. 
The fiscal year 2017 President's budget requests $3.5 million and 16 
full-time employees for OCP. All resources and personnel initially 
associated with the foundation of OCP are fully supported by the OCP 
budget. Due to the expertise they bring, OCP continues to utilize 
approximately 6 detailees (1 OPE, 1 I&A, 1 USCIS, 1 TSA, and 2 CRCL) 
from within the Department.
    Question 1d. Which domestic terrorist ideologies does the DHS 
Office of Community Partnerships focus upon?
    Question 1e. Which communities do you intend to engage regarding 
issues surrounding non-jihadist terrorism?
    Answer. OCP and DHS Headquarters Efforts.--DHS I&A has a team of 
analysts whose sole focus is domestic terrorism analysis. These 
analysts are experts in all the disparate categories of domestic 
terrorism--such as violent white supremacist extremists, violent 
sovereign citizen extremists, violent anarchist extremists, and violent 
environmental/animal rights extremists.
    The Department provides training for law enforcement; delivers 
briefings to fusion centers, law enforcement, and communities; develops 
research on preventing and further understanding the phenomenon of 
radicalization to violence; and develops analysis on the spectrum of 
domestic-based threats.
    OCP Field Efforts.--DHS OCP provides direct support via field staff 
in a couple of regions. For example, in Colorado, DHS OCP and the U.S. 
Attorney's Office (USAO) have partnered to counter all forms of violent 
extremism. Colorado has experienced both international violent 
extremist incidents, with 3 teenage girls attempting to join ISIL in 
October 2014 and another young woman attempting to join in April 2014, 
as well as incidents of domestic violent extremism, like the Planned 
Parenthood shooting in November 2015, and several incidents of 
sovereign citizen extremist violence. DHS OCP and USAO have focused on 
prevention (through awareness-building and counter-narratives) and 
intervention. Together they are developing a community awareness 
briefing (CAB) that builds comprehensive awareness of all forms of 
violent extremist activity that has occurred in Colorado, both domestic 
and internationally inspired.
    DHS OCP and USAO have presented multiple CABs to Muslim American 
leaders and parents to build awareness of ISIL and related groups. 
After expanding the CAB to include information on domestic violent 
extremism, they have delivered this new presentation in Colorado 
Springs to Christian communities on June 4 (who expressed interest 
after the Planned Parenthood shooting), and to gang prevention and 
intervention partners in the Gang Reduction Initiative of Denver (GRID) 
program on June 21.
    DHS OCP and USAO have put on multiple Protecting Houses of Worship 
events throughout the State to multiple faith communities on how to 
respond to threats to their centers. USAO started these after the 
Charleston AME Church shooting, which involved persons believed to be 
motivated by a white supremacist extremist ideology. These briefings 
include information on all types of violent extremists that have 
committed acts of violence.
    DHS OCP and USAO are working with local partners to institute an 
intervention model in Colorado to address all forms of violent 
extremism. This is still in the beginning stages, but the model will be 
set up to address all forms of violent extremism, and will complement 
existing models to prevent gang activity and school violence.
    Question 2a. The CVE community has struggled with measuring the 
effectiveness of its efforts.
    How can the CVE community develop useful metrics?
    Question 2b. What metrics are most useful to you in determining 
whether the Department's CVE actions are having the desired impact on 
the adversary and on our security more broadly?
    Answer. Developing measures of performance, effectiveness, and 
benchmarks for CVE programs and initiatives remains a top priority for 
the Office for Community Partnerships and the CVE Task Force. Academic 
partners, such as the University of Maryland's National Consortium for 
the Study of Terrorism and Responses to Terrorism (START), have 
published comprehensive reviews of program evaluation across a range of 
CVE initiatives. The National Institute of Justice is another Federal 
partner which has spearheaded efforts to fund evaluations of CVE 
programs, and they have just released a new assessment of a U.S.-based 
CVE program in Montgomery County, Maryland. In addition, DHS's 
Directorate of Science and Technology is completing CVE program 
evaluations of CVE efforts in Los Angeles and Boston; final reports for 
this project are will be finalized and published in early 2017.
    Federal departments, agencies, and non-governmental experts 
involved in CVE programming are currently involved in a robust 
conversation and information exchange on these issues. For example, the 
State Department has developed a useful guide for practitioners as they 
develop measures to assess CVE programs, which has been shared across 
the interagency and with CVE practitioners.
    With regard to the assessment of individual CVE programs, program 
metrics will be required for all Federally-funded CVE programs and will 
be tailored to each specific initiative before programs are launched. 
The CVE Task Force will work to coordinate these efforts. Examples of 
program metrics include developing a logic model as well as providing 
both output measures (e.g., numbers of individuals who have 
participated or number of products developed) as well as impact metrics 
(e.g., percent increase in knowledge, percent increase in awareness or 
percent increase in trust developed between communities and law 
enforcement). These program evaluations in diverse fields of practice 
like community policing, gang interventions, and public health 
initiatives provides strong evidence-based assurance that our Federal 
investment is being directed in the most effective ways.
    Question 3. Please provide us with a time line for when CVE grants 
will be awarded. What types of activities to you anticipate the grant 
funding will support and how did the Department go about identifying 
the activities that would most effectively counter violent extremism?
    Answer. DHS anticipates that funding selection will occur in 
January 2017. The grant funding will support activities in 5 focus 
areas: Developing resilience; training and engaging with community 
members; managing intervention activities; challenging the narrative; 
and building capacity of community-level non-profit organizations 
active in CVE. These focus areas are based on research, analysis of the 
current gaps, and which CVE activities needs grant funding versus some 
other type of support. Additionally, through the competitive 
application process, the program encourages innovation and whole-of-
society partnerships. As noted in the Notice of Funding Opportunity, 
senior leadership from the DHS Office for Community Partnerships, FEMA, 
the DHS Office for Civil Rights and Civil Liberties, and the CVE Task 
Force (which includes NCTC, DOJ, and FBI) will review all scoring 
results and will make recommendations on which projects, or portions of 
projects to fund in order to maximize the total impact of the available 
funding including removing from consideration applications that do not 
propose as large an impact relative to their costs in comparison to 
other applications or are duplicative of higher-scored applications. 
The results of the senior leadership review will be presented to the 
Director, Office for Community Partnerships and the assistant 
administrator, FEMA GPD, who will recommend the selection of recipients 
for this program to the Secretary of Homeland Security. Final funding 
determinations will be made by the Secretary of Homeland Security, 
through the FEMA administrator. The Secretary retains the discretion to 
consider other factors and information in addition to those included in 
the recommendations.
                             cybersecurity
    Question 4a. The rising number of connected devices means a 
potential wider attack surface, and there has been some speculation 
that the Internet of Things is the new frontier of ransomware attacks.
    How credible are these concerns, and how does the Department plan 
to assist small business, in particular, Main Street businesses, in 
dealing with this new threat?
    Question 4b. What role should the Government play in the securing 
the Internet of Things?
    Answer. The Internet of Things (IoT) is a broad term to describe 
the proliferation of categories of devices that are connected to the 
internet, to include, for example, self-driving cars, ``wearables'' 
that track heart rates and calories burned, and medical devices that 
transmit health information in real time. Growth of the IoT presents 
extraordinary opportunity for consumers and businesses, but that 
opportunity is accompanied by the cybersecurity risk with any connected 
network or device. A 2014 study by the President's National Security 
Telecommunications Advisory Committee (NSTAC) highlights the growing 
security threats that government and industry must consider with the 
IoT: ``an exponential expansion in attack surfaces, a changing threat 
landscape, privacy concerns, an increased potential for kinetic-focused 
cyber attacks, and changes to the hardware life cycle.'' DHS agrees 
with the finding in the NSTAC report.
    When considering smaller cities, municipalities, and small- to mid-
sized businesses, IoT provides an opportunity to gain efficiencies, 
provides for greater automation, centralizes management of remote 
controllers, improves monitoring to predict or reduce failures, and 
reduces cost of running and maintaining systems and services. Along 
with all of these opportunities, though, come greater risks, especially 
when considering increased cyber attacks against connected devices that 
may result in physical disruption to services and systems.
    The DHS National Cybersecurity and Communications Integration 
Center (NCCIC) is dedicated to assisting the Federal Government; State, 
local, Tribal, and territorial governments; and the private sector with 
cybersecurity concerns. This includes situational awareness, incident 
response, and information sharing related to IoT devices. The 
Industrial Control System Computer Emergency Readiness Team (ICS-CERT), 
housed within the NCCIC, focuses on and is closely monitoring the 
threats in IoT to industrial control systems. Recognizing that 
industrial control systems are both publicly and privately held, ICS-
CERT has been providing a range of products and services to protect 
critical infrastructure in the context of threats in the Industrial 
Internet of Things.
    DHS has invested in a pilot initiative by the DHS Science & 
Technology (S&T) Directorate to accelerate research and innovation 
around homeland security priorities. S&T's first investment cycle on 
this initiative focuses on the IoT. This investment supports developing 
a solution that detects devices as they connect or disconnect from 
network infrastructure and sees how they communicate. It represents a 
solution for homeland security needs; in this case, securing networks 
that will eventually include sensitive oil pipelines, border monitoring 
assets, or airport screening systems. DHS S&T is also funding applied 
Research Development Test and Evaluation addressing Cyber-Physical 
Systems security in areas of Smart Manufacturing, Connected Automotive 
systems and Connected Medical Devices/Systems.
    Cybersecurity requires an approach known as ``defense in depth.'' 
There is no single technical solution that will effectively secure 
networks and computers, so companies and Government agencies have 
multiple layers of cybersecurity. While an adversary can break through 
any individual security layer, the intent of defense-in-depth is that 
an adversary will be detected or stopped before they can break through 
every single security layer. In the physical world, important 
information is not just protected by a locked door. Instead, important 
information may be in a safe, in a locked building, with guards, 
cameras, and a fence. This is the physical world's equivalent of 
defense-in-depth. As IoT makes connectivity more convenient, it also 
reinforces the need for defense in depth as a leading cybersecurity 
practice.
                        transportation security
    Question 5a. In the past as well as this fiscal year, the funding 
for security for the surface transportation sector has been only a 
small fraction of the overall funding for the Transportation Security 
Administration's (TSA) mission. In fact, TSA spends only about 2 
percent of its budget on surface transportation activities. At the same 
time, Transit Security Grants have been cut from a peak funding of $388 
million to about $100 million, including Amtrak Grants.
    Given that terrorists are increasingly focusing on soft targets, as 
well as the August 2015 attempted attack aboard a train traveling from 
Amsterdam to Paris, how concerned are you that the prioritization of 
aviation security over the surface sector could lead to vulnerabilities 
elsewhere?
    Question 5b. Is the Federal Government doing enough to help secure 
our transit systems?
    Answer. Securing surface transportation is very different from 
securing aviation. A primary characteristic of surface transportation 
systems is that these systems, in contrast to aviation systems, are 
more accessible and open given the need to accommodate high passenger 
and cargo volume. Unlike the aviation sector where TSA is responsible 
for operational security, and the accompanying costs, the primary 
responsibility for surface transportation security lies with the 
owners/operators of the systems. The percentage of funding that TSA 
allocates to surface initiatives is not indicative of a prioritization 
of aviation over surface transportation. Transportation entities costs 
are primarily shouldered by the system owners/operators, not the 
Federal Government. Additionally, over $2.4 billion in surface 
transportation security grant funds have been awarded since fiscal year 
2006 for critical security initiatives.
    TSA supports surface transportation stakeholders primarily through 
voluntary and collaborative programs. Using TSA's risk-based, 
intelligence-driven approach to security, TSA has developed a 
comprehensive, multi-layered program for security in the surface modes. 
Key layers in surface transportation programs include:
  <bullet> Information Sharing.--Joint Terrorism Task Force (JTTF) 
        partnerships, Homeland Security Information Network (HSIN) 
        postings, Sector Coordinating Council (SCC) and the Government 
        Coordinating Council (GCC) network, monthly calls with industry 
        advisory groups, Security Awareness Messages, briefings through 
        Field Intelligence Officers, Information Sharing and Analysis 
        Centers' (ISAC) incident summaries, Transit and Rail Incident 
        Awareness Daily (TRIAD) for industry stakeholders, and Daily 
        Open Source Cyber Reports (distributed through the ISACs).
  <bullet> Grant Funding.--TSA advises Federal Emergency Management 
        Agency (FEMA) for DHS grants in the Transit Security Grant 
        Program (TSGP), Intercity Passenger Rail Security Grant Program 
        (Amtrak), and Intercity Bus Security Grant Program (IBSGP), and 
        develops risk-based funding priorities on security initiatives 
        in surface transportation. Grant funding has declined since its 
        peak in fiscal year 2009, and recipients of these funds 
        therefore focus mainly on maintaining and sustaining existing 
        capabilities, including operational deterrence (``boots on the 
        ground'').
  <bullet> Drills and Exercises.--TSA's Intermodal Security Training 
        and Exercise Program (I-STEP) supports exercises which are 
        regional in scope involving agency representation at the 
        Federal, State, and local levels. A relatively new feature to 
        the TSA exercise layer is a ``Design-It-Yourself'' exercise 
        program named Exercise Information System (EXIS), which allows 
        TSA to support individual agencies which design their own 
        exercises on a smaller scale while using fewer resources than 
        I-STEPs require.
  <bullet> Training.--Each of TSA's subject-matter experts in the 
        surface modes of transportation either has developed or is 
        developing handbooks and guides containing important risk-
        reduction information for industry use. Through joint efforts 
        with our industry stakeholders, DVDs and videos have been 
        produced addressing such subjects as sabotage and potential 
        threats in their operating environment. For example, the TSA 
        First Observer<SUP>TM</SUP> program trains highway 
        professionals to observe, assess, and report potential security 
        and terrorism incidents.
  <bullet> Technical Assistance.--This includes vulnerability 
        assessments, guidance documents such as Security Information 
        Bulletins, Lessons Learned, Recommended Practices, Protective 
        Measures, the Security Measures and Resources Toolbox 
        (SMARToolbox), Best Practices, and Standards.
  <bullet> Baseline Assessment for Security Enhancement (BASE).--TSA 
        uses its Transportation Security Inspectors--Surface (TSI-S) to 
        conduct BASE reviews on mass transit, passenger rail, and over-
        the-road bus systems. These reviews provide a comprehensive 
        overview and evaluation of security programs in critical 
        surface transportation systems across the country. The results 
        of these assessments inform the development of risk mitigation 
        priorities, security enhancement programs, and resource 
        allocations, including funding priorities for the TSGP.
  <bullet> Visible Intermodal Prevention and Response (VIPR) teams.--
        TSA deploys VIPR teams--consisting of teams of Federal Air 
        Marshals, Behavior Detection Officers, Transportation Security 
        Specialists--Explosives, Transportation Security Inspectors and 
        Canine teams--across the United States, in close coordination 
        with local security and law enforcement officials, to augment 
        the security of transportation systems.
    Through these programs, and others, TSA is efficiently utilizing 
        available resources to ensure that surface transportation 
        system owners and operators have the support and tools they 
        need to raise and maintain their baseline levels of security.
    Question 5c. Is there any indication that terrorists are targeting 
other transportation systems such as the Nation's rail system?
    Question 5d. How would you assess the vulnerability of the Nation's 
transportation systems such as the Nations' rail system to attacks by 
home-grown terrorists?
    Answer. TSA is not aware of any credible threat reporting against 
U.S. rail systems at this time, despite the FBI's recent arrest of a 
police officer with the Washington, DC, Metro Transit Police Department 
on charges of attempting to provide material support to a designated 
foreign terrorist organization. In fiscal year 2016, the Transportation 
Security Administration (TSA) conducted more than 2,400 Visible 
Intermodal Prevention and Response (VIPR) operations at mass transit, 
passenger rail, and freight rail locations in coordination with law 
enforcement and transportation system stakeholders. These VIPR 
operations mitigate terrorist risk by augmenting the security layers of 
these stakeholder partners. TSA's Office of Intelligence and Analysis 
made more than 300 intelligence engagements with freight rail and 
public transportation stakeholders (out of approximately 800 total 
engagements with all transportation stakeholders), including 
organizations such as the American Public Transportation Association 
and the Association of American Railroads. During these engagements, 
TSA intelligence analysts provided these stakeholders information about 
current tactics, techniques, and procedures used by terrorists in their 
attacks on these surface transportation modes world-wide. TSA uses a 
variety of information to provide this analysis, including intelligence 
and open-source reporting, and reviews of attacks against freight rail 
and public transportation systems.
    Vulnerability of rail systems is very much dependent upon the 
particular location and operational purpose of the asset. TSA continues 
to engage with rail system operators to discuss the current threats and 
tradecraft being utilized by terrorists, as well as to collaboratively 
build a comprehensive, multi-layered program for securing these surface 
modes of transportation. On-going communication and information sharing 
among TSA and rail security coordinators and other stakeholders ensures 
existing vulnerabilities are actively mitigated and emerging threats 
are addressed. Many of the programs and resources already implemented 
and in place to support anti-terrorism activities also inherently 
address the risk of home-grown violent extremism.
    Question 6a. Recently, the inspector general released a report 
detailing how certain 9/11 Act mandates have yet to be completed by 
TSA. Among these mandates is are the issuance of regulations to assign 
risk tiers to carriers, as well as establishing front-line training 
requirements for employees.
    When, in your estimation, will TSA issue guidance for these 
regulations to be finalized?
    Answer. Completing the 9/11 Act regulatory requirements for surface 
transportation is, a priority for the TSA and DHS. The administrator of 
TSA has made his commitment to seeing these mandates through to 
completion in communications with both Congress and his staff. As noted 
below, TSA has a clear plan for ensuring it continues to make progress.
  <bullet> Security Training.--As of July 12, 2016, a proposed rule to 
        meet the security training requirements is with the Office of 
        Management and Budget (OMB) for review and clearance to 
        publish.
  <bullet> Vulnerability Assessments and Security Planning (VASP).--TSA 
        intends to issue an Advance Notice of Proposed Rulemaking 
        (ANPRM) to solicit sufficient data regarding the security 
        measures industry currently employs as well as the potential 
        impact of regulations on operations. This data is necessary to 
        comply with minimum standards established by the OMB under 
        Executive Order 12866, and related OMB guidance, which include 
        conducting a robust analysis of the existing baseline of 
        persons potentially affected by a proposed rule.
  <bullet> Employee Vetting.--TSA intends to address the vetting 
        requirements (threat assessment and immigration check) through 
        a rulemaking to be published in sequence with the other surface 
        security-related rulemakings (the rulemaking for security 
        training will set the applicability and structure for all of 
        the other related rulemakings). TSA has already satisfied the 
        requirements of Sections 1414 and 1522 of the 9/11 Act, having 
        published an Interim Final Rule on False Statements Regarding 
        Security Background Checks (see 73 FR 44665) and issued various 
        guidance documents (see, e.g., TSA's February 2007 updates to 
        its recommended security action items for the highest-risk 
        freight railroads, and background check practices published by 
        the American Public Transportation Association in conjunction 
        with TSA in 2011). TSA intends for all future rulemakings, 
        including the surface employee vetting rule described above, to 
        be consistent with the standards articulated in Sections 1414 
        and 1522.
    There are a number of external factors impacting the development of 
regulations that are unpredictable and outside of the agency's control, 
therefore it is not possible to provide more detailed estimates for 
publications of these regulations at this time.
    Question 6b. Please detail for us the changes you implemented 
regarding procedures for the workforce, technology, and standard 
operating procedures to the extent that you can in this setting.
    Answer. The Transportation Security Administration (TSA) has 
implemented a number of steps to address the issues raised in 2015 by 
the Department of Homeland Security (DHS) Office of the Inspector 
General (OIG) covert testing. These steps include initiatives to ensure 
leadership accountability, improve alarm resolution, increase 
effectiveness and deterrence, increase threat testing to sharpen 
officer performance, strengthen operating procedures and technology, 
and enhance training. This included a root cause analysis that 
identified multiple areas for improvement, and TSA is mitigating those 
areas through program action plans. All of the actions I directed in 
the 10-Point Plan I gave to Administrator Neffenger are currently on-
schedule or completed.
    Question 7. Recent events have shown us that terrorists overseas 
continue to exploit security vulnerabilities to do harm to the 
commercial aviation sector. Last February, an aircraft originating from 
Mogadishu, Somalia was the target of an attempted attack. A terrorist 
was able to detonate a bomb concealed within a laptop, killing himself 
and injuring two others. Had the altitude been higher, the plane would 
have been destroyed. Last October, a flight originating from Sharm El 
Sheikh International Airport was destroyed midflight due to a reported 
bomb. Although not last points of departure to the United States, these 
attacks serve as reminders that we need to ensure that planes 
originating from foreign countries bound for the United States are as 
secure as possible. Please detail for us DHS and TSA's role in 
assessing last-point-of-departure airports and ensuring they meet all 
appropriate security standards.
    Has the certification of Cuba as a last-point-of-departure airport 
differed from the process that is used for other last-point-of-
departure airports?
    Answer. The certification of Cuba's last-point-of-departure 
airports does not differ from the process that is used for other last-
point-of-departure airports. Under Title 49 of the United States Code 
the Secretary of the Department of Homeland Security (DHS) is required 
to assess security at all foreign airports served by U.S. aircraft 
operators as well as at foreign airports serving as Last-Point-of-
Departure (LPD) locations for foreign air carriers using the security 
standards adopted by the International Civil Aviation Organization 
(ICAO).
    DHS has delegated responsibility for foreign airport security 
assessments to the Transportation Security Administration (TSA). DHS, 
particularly through its operational components and working closely 
with our United States Government interagency partners, plays a key 
role in the U.S.-Cuba relationship by securing flows of people between 
the United States and Cuba. In DHS headquarters, the Office of Policy 
assists the operators, like TSA and Customs and Border Protection, by 
providing coordination across the Department and with the Federal 
interagency partners, ensuring that the work of the components of the 
Department and their missions represent a unified effort.
    Consistent with the regulations at 49 C.F.R.  1544.3 and 1546.3, 
TSA evaluates the effectiveness of security measures maintained at 
foreign locations through assessments of foreign airports and 
inspections of air carriers that operate from those airports. To 
evaluate the security of the airports, TSA's Transportation Security 
Specialist use the Standards and Recommended Practices contained in 
Annex 17 to the Convention on International Civil Aviation adopted by 
ICAO. TSA conducts inspections of both U.S. and foreign airlines with 
direct service to the United States. These inspections are based on 
TSA-issued Standard Security Programs. The certification of Cuba's 
last-point-of-departure airports does not differ from the process that 
is used for other last-point-of-departure airports.
    Question 8. In June 2015, the inspector general released a report 
detailing how aviation workers with links to terrorism were not vetted 
due to TSA not having access to certain watchlisting information. 
Earlier this year, we learned that TSA would receive the additional 
information to ensure that this does not happen again. Are you certain 
that TSA has all watchlisting information needed to thoroughly vet 
individuals in accordance with their responsibilities?
    Answer. Following the June 2015 Inspector General report, the 
Transportation Security Administration (TSA), with the Department of 
Homeland Security, began receiving on an automated basis additional 
records in the Terrorist Identities Datamart Environment (TIDE). This 
information supplements TSA's current use of the Terrorist Screening 
Database (TSDB). In addition to containing records of individuals in 
the TSDB, TIDE provides information on individuals who have links to 
terrorists, terrorism, or terrorist activity, but who have not met the 
reasonable suspicion standard necessary to be nominated to the TSDB 
(the ``Watch List''). Having automated access to this data makes it 
possible for TSA to make more informed Security Threat Assessment 
decisions for individuals seeking access to critical and sensitive 
transportation infrastructure.
    TSA began automated receipt of non-U.S. citizen data at the end of 
February 2016 and in June 2016, the National Counterterrorism Center 
(NCTC) provided the first monthly manual transfer of U.S. citizen data. 
Following the completion of the on-going technical changes across 
multiple agencies' systems necessary to support automated transfer of 
these records, TSA anticipates receiving the U.S. citizen data on an 
automated basis in late 2016.
    Question 9. During the hearing, in response to a question from 
Representative Katko, you seemed to indicate that you were in agreement 
with the provision in his bill that would require an audit from the 
General Accountability Office before commercial air service could begin 
between Cuba and the United States. That would seem to be inconsistent 
with recent actions by the Department of Transportation, and your own 
Transportation Security Administration, to commence direct flights as 
soon as possible. Please clarify.
    Answer. During the hearing it was unclear that Representative Katko 
suggested that the GAO review occur prior to commercial flights from 
Cuba. The assessments undertaken by TSA in conjunction with other 
Federal agencies are highly rigorous. We thoroughly respect the work of 
GAO, but do not agree that a GAO review prior to the commencement of 
scheduled commercial flights to Cuba is necessary or advisable.
    Question 10. Is Federal Air Marshal presence a prerequisite for 
last-point-of-departure flights? To your knowledge, does an agreement 
for Federal Air Marshals exist for charter flights from Cuba to the 
United States currently, and if so, is such an agreement being pursued 
for scheduled flights?
    Answer. The Federal Air Marshal Service (FAMS) is an important 
component of our multilayered aviation security but FAMS presence is 
not a prerequisite for last-point-of-departure flights. FAMs are 
deployed using a risk-based model.
    My staff is available to discuss arrangements that have been mode 
with respect to FAMS presence on commercial flights to Cuba.
    Question 11. Are you confident that TSA, DOT, and other agencies 
have been doing/are currently undertaking the due diligence necessary 
to ensure that scheduled travel from Cuba to the United States are 
secure?
    Answer. Yes. TSA is coordinating with the Department of 
Transportation (DOT) and the Institute of Civil Aeronautics of Cuba 
(IACC) to ensure that security for forthcoming scheduled air service 
between our countries meets TSA's requirements as well as the high 
security expectations of the U.S. traveling public. For the past 5\1/2\ 
years, TSA and IACC have enjoyed a strong, professional relationship. 
During this period, IACC has responded favorably to the aviation 
security initiative proposed by TSA. DHS has conducted 37 airport 
assessments and air carrier inspections at Cuba's Last Point of 
Departure airports, with additional visits scheduled through the end of 
the calendar year. Through these assessments, DHS has determined that 
all of Cuba's airports serving the United States and all air carriers 
meet relevant international and United States security requirements.
                    social media in traveler vetting
    Question 12a. Recently, U.S. Customs and Border Protection 
published a notice asking for public comment on the addition of a 
request for Visa Waiver Program travelers' social media identifiers as 
part of Electronic System for Travel Authorization (ESTA) applications 
and I-94W arrival and departure forms. The notice indicates that 
providing this information would be optional, and that collection this 
type of data ``will enhance the existing investigative process'' and 
``provide DHS greater clarity and visibility to possible nefarious 
activity and connections.''
    Can you please explain how this data will be used to enhance the 
screening of foreign travelers?
    Answer. If an applicant chooses to answer this question, DHS will 
have timely visibility of the publicly-available information on those 
platforms, consistent with the privacy settings the applicant has set 
on the platforms. Highly-trained CBP personnel may review publicly 
available social media information as an additional data point to 
assist in CBP's vetting of an ESTA application. Information found in 
social media may be used to validate legitimate travel and to help 
identify potential threats. The information will not be used to prevent 
travel based on an applicant's political views, race, ethnicity, or 
religion.
    Question 12b. How is DHS going to authenticate or confirm that the 
social media identifiers are truly associated with the person seeking 
to enter the United States?
    Answer. CBP conducts thorough research of applicants and uses 
multiple tools to support positive identification of applicants in 
social media. Each case is reviewed individually and, after a careful 
review, a determination is made based on the totality of the 
circumstances.
    Question 12c. Will these identifiers be protected in a similar way 
as other personally identifiable information?
    Answer. Yes, social media identifiers will be safeguarded in the 
same manner as all other personally identifiable information (PII) 
collected through the Electronic System for Travel Authorization (ESTA) 
application. In addition, DHS will publish an updated Privacy Impact 
Assessment (PIA) and System of Record Notice (SORN) associated with 
enhancements to the ESTA application questionnaire, including the 
addition of an optional field for social media usernames or identifiers 
for all ESTA applicants.
                    vulnerability of ``soft targets''
    Question 13. The tragic mass shooting in Orlando and the 
sophisticated, coordinated attacks at the airport in Istanbul remind us 
how vulnerable soft targets often are. How do your agencies coordinate 
to ensure that owners and operators of sports stadiums, movie theaters, 
schools, and other soft targets have the information and guidance they 
need to secure their facilities?
    Answer. The National Protection and Programs Directorate (NPPD) 
Office of Infrastructure Protection (IP) serves as the Sector-Specific 
Agency (SSA) of the Commercial Facilities Sector, one of 16 critical 
infrastructure sectors, which includes a diverse range of sites that 
draw large crowds of people for shopping, business, entertainment, or 
lodging. Facilities within this sector operate on the principle of open 
public access, meaning that the general public can move freely without 
the deterrent of highly visible security barriers. Since its inception, 
in its role as SSA for the Commercial Facilities Sector, IP has 
aggressively coordinated with these private-sector owners and 
operators, both during an incident and steady-state operations.
    During times of targeted threat or heightened security posture, or 
when there are issues necessitating a private-sector perspective, IP 
follows its ``Coordination Plan for Targeted Threat and Security 
Engagements.'' The plan, which is implemented for both Classified and 
Unclassified engagements, facilitates the rapid convening of private-
sector partners and other critical infrastructure stakeholders. This 
capability aims to advance IP's ability to share Classified information 
remotely, as opposed to only convening meetings in the National Capital 
Region.
    During domestic incidents such as the events in Orlando, or 
following foreign attacks such as those in Paris, IP, in coordination 
with the Office of Intelligence & Analysis and frequently the Federal 
Bureau of Investigation, also rapidly convenes its sector and other 
State, local, Tribal, and territorial partners for information-sharing 
calls at the FOUO level. These calls consist of a threat briefing, a 
status update, suggested protective measures, and an open forum 
discussion for partners to provide a quick, comprehensive snapshot of 
their sector or industries' activities.
    During steady state, IP works with partners on a number of programs 
that educate the Commercial Facilities Sector partnership base, 
stakeholders, and the general public on suspicious behavior, protective 
measures, and risk mitigation. Broad programs include the ``If You See 
Something, Say Something<SUP>TM</SUP>'' campaign, the ``Hometown 
Security'' campaign, and the Active Shooter Preparedness Program. In 
addition, IP has produced and distributed a number of other resources, 
including:
  <bullet> Suspicious Activity training videos;
  <bullet> On-line Training Courses (Active Shooter, Surveillance 
        Awareness, Insider Threat);
  <bullet> Protective Measures Guides; and;
  <bullet> Specialized guides (Evacuation Planning, Patron Screening, 
        Bag Search).
    In addition, the Interagency Security Committee (ISC) released 
Planning and Response to an Active Shooter: An ISC Policy and Best 
Practices Guide as an FOUO document in July 2015. The publication is 
divided into two parts: First, a new policy requirement for all 
nonmilitary Federal facilities within the Executive branch of the 
Government; second, a set of best practices and recommendations (not 
policy requirements) to assist with implementing the active-shooter 
policy. The ISC published a non-FOUO version of the same document in 
November 2015 to ensure availability and visibility by a much broader 
audience.
                          use of social media
    Question 14a. We have heard a lot in recent months about how to 
enhance and even codify Federal efforts to scrutinize the social media 
activity of suspected terrorists. Recently, several of my colleagues 
and I hosted a forum on the threat of domestic anti-Government groups. 
We heard testimony from advocates like the Southern Poverty Law Center 
and others, that domestic terrorist organizations are recruiting and 
spreading their message in much the same way as ISIS--through internet 
forums and social media campaigns.
    How are the agencies you represent monitoring the on-line 
activities of domestic terror groups?
    Answer. DHS does not provide constant monitoring of on-line 
activities; However, should there be a validated collection requirement 
targeting specific information about a domestic terrorist organization, 
relevant DHS components would target this organization for collection. 
This would include periodic reviews of publically-available information 
related to the organization for the purpose of answering the targeted 
collection requirement until that requirement expires or is cancelled 
by the organization requesting the collection.
    Question 14b. Are your methods different from those used to screen 
for individuals who may be influenced by foreign, overseas terrorist 
organizations?
    Answer. Social media can provide the Department with critical 
information related to the execution of our mission. The Department 
uses social media in a number of ways, both foreign and domestic, which 
we have expanded in recent years. Today, social media is used for over 
30 different operational or investigative purposes by U.S. Customs and 
Border Protection, U.S. Immigration and Customs Enforcement, U.S. 
Citizenship and Immigration Services, Transportation Security 
Administration, Federal Emergency Management Agency, other DHS 
components and offices. Operational uses are consistent with 
Departmental authorities and included research, watch and warning, 
screening and vetting, investigations and personnel security.
 Questions From Honorable Loretta Sanchez for Honorable Jeh C. Johnson
    Question 1a. Thank you Mr. Chairman, and thank you for joining us, 
Secretary Johnson and Directors Rasmussen and Comey. Secretary Johnson, 
in March you came before our committee and we discussed the Countering 
Violent Extremism mission. I am happy to see that since then the 
Department of Homeland Security noticed the new Countering Violent 
Extremism Grant Program to loop in non-profits and community 
organizations in the fight against terror. I agree with the notion that 
we should have a local community-based component to our CVE mission, 
and I think this will compliment your great work in finding innovative 
ways to address the evolving threat environment.
    As we continue to see efforts to break down informational silos 
across the State and Federal level, will there be greater opportunity 
for information sharing between State and Federal partners?
    Question 1b. Will there be more information sharing with State 
fusion centers regarding high-level threat actors and operations?
    Answer. The U.S. Department of Homeland Security (DHS) takes very 
seriously our mission to equip the Homeland Security Enterprise (HSE), 
which includes State, local, Tribal, territorial (SLTT) and private-
sector partners, with timely intelligence and information sharing. At 
DHS, the Office of Intelligence and Analysis (I&A) is the intelligence 
community element statutorily charged with delivering intelligence to 
SLTT and private-sector partners, and also sharing information from 
those partners with the Department and the IC. As such, I&A is 
responsible for ensuring SLTT and private-sector partners can 
expeditiously access the capabilities, resources, and expertise of the 
Department and serve as full participants in the HSE. I&A deploys 100 
personnel to State and major urban area fusion centers and other 
strategic locations Nation-wide in support of SLTT and private-sector 
partners. The mission of I&A field personnel is to engage SLTT and 
private-sector partners to facilitate the intelligence cycle at the 
local level by: (1) Building relationships and providing intelligence 
and information-sharing support, (2) conducting intelligence 
collections and reporting, and (3) producing intelligence analytic 
products.
    I&A integrates information collected every day across DHS and from 
our SLTT partners into our analysis. We continue to make progress and 
aggressively work to overcome barriers to information sharing as we 
bring SLTT information into the IC, and share IC information with our 
SLTT and private-sector partners. In 2015, we launched the Field 
Analysis Report (FAR), a new analytical product that incorporates views 
and assessments from SLTT partners to provide local, State-wide, and 
regional perspective to National strategic intelligence issues.
    In addition, our new data cloud initiative, the DHS Data Framework, 
is pulling in the most critical data sets of the Department to enhance 
data sharing across the DHS Intelligence Enterprise and fill critical 
gaps across the IC and with our SLTT and private-sector partners. At 
the same time, we continue to deepen our relationships with our SLTT 
and private-sector partners through our support of the National Network 
of Fusion Centers with personnel, training, Federal grants, security 
clearances, and Classified systems access, which allow DHS to better 
share information regarding threats. DHS is actively executing an 
information-sharing environment where Federal, SLTT, and private-sector 
partners can seamlessly share and access information, with appropriate 
protections, in real time.
    Question 1c. If a State wants to enforce a higher level of 
cybersecurity standards than those that are adopted at the Federal 
level, is DHS committed to supporting such efforts?
    Answer. Yes. While the Department of Homeland Security leads a 
National effort to protect and enhance the resilience of the Nation's 
physical and cyber infrastructure, individual States are in the 
position to select a risk posture that best suits the State, and use 
tailored cybersecurity programs, with support from the Federal level.
    One resource States use is the National Institute of Standards and 
Technology Cybersecurity Framework, the current guidance document for 
cybersecurity best practices. As codified under Executive Order 13636, 
DHS supports and promotes use of the Cybersecurity Framework a flexible 
tool adaptable to unique circumstances, recognizing that the majority 
of threat actors can be stopped by implementation of best practices in 
cybersecurity. As a supplementary resource, in DHS's voluntary Nation-
wide Cyber Security Review, the questions for consideration align to 
the Framework. The Framework uses international-recognized consensus-
based standards, and we would encourage States to build their policies 
on similar globally-accepted standards and practices.
    DHS supports a range of efforts by States to increase cybersecurity 
preparedness, but recognizes that limited resources can be an issue. To 
address State resourcing, FEMA provides State and local governments 
with preparedness program funding in the form of Non-Disaster Grants to 
build, sustain, and deliver core capabilities essential to achieving 
the National Preparedness Goal of a secure and resilient Nation. The 
building, sustainment, and delivery of these core capabilities requires 
the combined effort of the whole community, rather than the exclusive 
effort of any single organization or level of government. States are 
encouraged to include cybersecurity preparedness into their decisions 
when determining best use of this grant money.
    Additionally, to support the cyber workforce at the State level, 
the Scholarship for Service program is designed to increase and 
strengthen the cybersecurity workforce that protects the Government's 
critical information infrastructure. The program provides scholarships 
for college and graduate students studying cybersecurity. These 
scholarships are now eligible for service agreements in not only 
Federal service, but in State, local, or Tribal government 
organizations; yet the program is Federally-funded.
    Question 2. As new transit modes such as the California High Speed 
Rail or the Orange County Streetcar come on-line what steps should 
agencies take or what guidance should they follow to ensure the 
supporting systems are safe from cyber attack?
    Answer. To better support SLTT work and provide technical expertise 
and outreach, DHS provides four primary initiatives: Funding the MS-
ISAC, offering voluntary risk assessments, holding cybersecurity 
exercises, and offering incident response assistance. The MS-ISAC is 
the DHS-designated Information Sharing and Analysis Center (ISAC) for 
all SLTT governments. The MS-ISAC supports SLTT governments by 
providing education and awareness, a 247 security operations center, 
and technical expertise in malware analysis, forensic analysis, and 
incident response/mitigation. The MS-ISAC acts as a force-multiplier 
for DHS in reaching out to the tens of thousands of SLTT governments 
across the country. These activities may be relevant to mass public 
transit lines as well.
    Moreover, DHS' NCCIC shares information among public and private-
sector partners to build awareness of vulnerabilities, incidents, and 
mitigations. Cyber and industrial control systems users can subscribe 
to information products, feeds, and services at no cost. These 
resources can be found at: https://www.us-cert.gov/ncas and https://
ics-cert.us-cert.gov/. Additionally, we encourage critical 
infrastructure owners and operators, such as public transportation 
operators in question, to adopt best practices by implementing the 
Cybersecurity Framework. Industry-led information-sharing analysis 
organizations or centers (ISAOs/ISACs) can be a powerful resource for 
industry-specific information sharing and best practices.
    Question 3. I have spoken with the Orange County Transit Authority, 
which is located in my district. OCTA and other nearby public agencies 
that support critical infrastructure are constantly under cyber attack 
and they want to know what they can do to provide meaningful attack 
information to fusion centers or other law enforcement that will help 
reduce the overall cyber threat?
    Answer. Agencies such as Orange County Transit Authority (OCTA) 
have a number of options available to reduce cyber risk. To help 
transit agencies better understand and utilize services provided by the 
Department of Homeland Security, the Department is deploying Cyber 
Security Advisors (CSA) across the country. A CSA is currently assigned 
to the Los Angeles/Orange County area. OCTA and other local government 
partners can reach out to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="07647e6562756663716e746875476f7629636f7429606871">[email&#160;protected]</a> to be connected to 
their local CSA. For example, one key area where CSAs can assist is to 
increase organizations' ability to prepare for disruptions and 
successfully manage them should they occur. DHS's CSAs can help 
organizations build these kinds of capabilities by providing resources 
like the Cyber Resilience Review, among others.
    Information sharing is a key part of the Department of Homeland 
Security's mission to create shared situational awareness of malicious 
cyber activity. DHS's National Cybersecurity and Communications 
Integration Center (NCCIC) is a 247 cyber situational awareness, 
incident response, and management center that is a National nexus of 
cyber and communications integration for the Federal Government, 
intelligence community, and law enforcement. As provided by the 
Cybersecurity Act of 2015 (Pub. L. 114-113, Division N), DHS serves as 
the Government's central hub for automated cyber threat indicator 
sharing. By participating in the Automated Indicator Sharing (AIS) 
initiative, organizations receive machine-readable cyber threat 
indicators to immediately detect and block cybersecurity threats.
    An entity that is a victim of a cyber incident can receive 
assistance from Federal agencies, which are prepared to investigate an 
incident, mitigate its consequences, and help prevent future incidents. 
For example, Federal law enforcement agencies have highly-trained 
investigators who specialize in responding to cyber incidents for the 
express purpose of disrupting threat actors who caused the incident and 
preventing harm to other potential victims. In addition to law 
enforcement, other Federal responders provide technical assistance to 
protect assets, mitigate vulnerabilities, and offer on-scene response 
personnel to aid in incident recovery. When supporting affected 
entities, the various agencies of the Federal Government work in tandem 
to leverage their collective response expertise, apply their knowledge 
of cyber threats, preserve key evidence, and use their combined 
authorities and capabilities both to minimize asset vulnerability and 
bring malicious actors to justice.
    Entities experiencing cyber incidents are encouraged to report a 
cyber incident to the National Cybersecurity and Communications 
Integration Center. local field offices of Federal law enforcement 
agencies, their sector-specific agency, or any of the Federal agencies 
including the Federal Bureau of Investigation (FBI), the National Cyber 
Investigative Joint Task Force, the United States Secret Service, or 
United States Immigration and Customs Enforcement Homeland Security 
Investigations. The Federal agency receiving the initial report will 
coordinate with other relevant Federal stakeholders in responding to 
the incident.
    Question 4. There are numerous public and private resources that 
provide information on cyber threats. What should smaller to mid-size 
agencies do to filter out the noise and focus on actionable 
information?
    Answer. DHS is working to promote a strong cyber ecosystem that 
will shape the information technology market so that systems are more 
secure, to include researching vulnerabilities, driving developers to 
implement best practices, and developing standards to foster a market 
for interoperable security products that will enable small and medium 
agencies to better secure themselves. DHS also provides threat 
intelligence products tailored to the needs of Federal network 
defenders to identify the most significant threats. To help State, 
local, Tribal, and territorial (SLTT) governments, DHS has created a 
packet of resources specially designed to help them recognize and 
address their cybersecurity risks. These resources have been aligned to 
the five Cybersecurity Framework Function Areas. Additional information 
can be found at: https://www.us-cert.gov/ccubedvp/sltt. In addition to 
aligning activities to the Cybersecurity Framework, and subscribing to 
alerts published by the Department of Homeland Security, State 
government agencies may choose to participate in the DHS-funded Multi-
State Information Sharing and Analysis Center (MS-ISAC) for cyber 
threat prevention, protection, response, and recovery information 
targeted to the SLTT governments.

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
